<html>
<title> - NOMINATION OF HON. JOHN D. NEGROPONTE TO SERVE AS U.S. AMBASSADOR TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 107-781]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-781
 
  NOMINATION OF HON. JOHN D. NEGROPONTE TO SERVE AS U.S. AMBASSADOR TO 
                           THE UNITED NATIONS
=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations










 Available via the World Wide Web: http://www.access.gpo.gov/congress/                                 senate


                           U.S. GOVERNMENT PRINTING OFFICE
75-463                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., submissions for the record:
    Stipulations from Intelligence Reporting Cable...............     4
    Stipulations from CIA Inspector General Report...............     5
    CIA Working Group Report Stipulations........................     7
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    64
    Article submitted for the record entitled ``How A Journalist 
      Was Silenced,'' by Gary Cohn and Ginger Thompson, the 
      Baltimore Sun, June 15, 1995...............................    53
Helms, Hon. Jesse, submissions for the record:
    A series of letters from individuals who served with 
      Ambassador Negroponte in Honduras..........................    28
Holbrooke, Hon. Richard C., prepared statement...................    10
McCain, Hon. John, U.S. Senator from Arizona.....................     8
    Prepared statement...........................................     9
Negroponte, Hon. John D., nominee to be the Representative of the 
  United States of America to the United Nations, with the rank 
  and status of Ambassador, and the Representative of the United 
  States of America in the Security Council of the United Nations    12
    Prepared statement...........................................    14
    Supplementary statement about the situation in Honduras 
      during his tenure as Ambassador to Honduras from November 
      1981 to May 1985...........................................    17
    Interrogatories submitted by the committee...................    67
    Response to an additional question for the record from 
      Senator George Allen.......................................    19
Stevens, Hon. Ted, U.S. Senator from Alaska......................     9
    Prepared statement...........................................    10

                                 (iii)














 NOMINATION OF HON. JOHN D. NEGROPONTE TO SERVE AS U.S. AMBASSADOR TO 
                           THE UNITED NATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:08 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Sarbanes, Feingold, Wellstone, 
Boxer, Bill Nelson, Helms, Lugar, Hagel, Frist, Chafee, 
Brownback, and Enzi.
    The Chairman. The hearing will come to order. Today the 
committee meets under what I think could accurately be 
described as most unusual circumstances, one of the most 
unusual circumstances this committee has ever convened a 
hearing.
    We apologize, Mr. Ambassador, for not being able to go 
forward with your hearing yesterday. Quite frankly, I thought 
it would be inappropriate to do that. It is important we move 
forward. We thank you for your cooperation, and I see you have 
a friend, John McCain, and I am told Ambassador Holbrooke may 
not be able to make it down from New York and will not be able 
to. But believe me, he has been in contact with all of us as 
only Holbrooke can be. And I say that with affection and 
respect, but he is a pain in the neck.
    A brilliant pain in the neck, but a pain in the neck.
    Today the Committee on Foreign Relations meets to review 
the nomination of Ambassador John Negroponte to be the U.S. 
Representative to the United Nations. It is unfortunate that 
the United States has been without an Ambassador to the United 
Nations since Ambassador Holbrooke left office on January 20. 
Lengthy review of this nomination both by the executive branch 
and the Senate has contributed to this extended vacancy.
    President Bush had announced his intention to nominate 
Ambassador Negroponte on March 6, but he did not submit the 
nomination until May 14. In other words, it took the President 
nearly 4 months to submit the nomination to the U.N. post.
    The committee has worked as quickly as possible to review 
the Ambassador's nomination, but is determined that it is 
important to review certain issues related to Ambassador 
Negroponte's tenure in Honduras which have come to light since 
his last confirmation in the Senate in 1993.
    On May 3, more than a week before the nomination was 
submitted, the Democratic members of the committee wrote the 
President to request his assistance in making available certain 
documents relating to Ambassador Negroponte's tenure as 
Ambassador to Honduras. On May 8 the committee provided the 
administration with a list of requests. Although two document 
requests were made subsequently, the original request was not 
fulfilled until late July.
    At that point the committee offered to begin hearings on 
the nomination during the week of July, with another hearing to 
follow in early September because we were going out of session 
in August. The administration was given a choice and opted to 
wait until September, which I think was the wise thing to do, 
for the start of the hearings.
    In the meantime, the committee has requested that the 
executive branch declassify certain documents related to 
Ambassador Negroponte's tenure in Honduras in order to permit 
the committee to discuss these issues in open session. 
Ambassador Negroponte is an accomplished diplomat with 37 years 
of experience in the Foreign Service. He has served as 
Ambassador to three countries--Honduras, Mexico, and the 
Philippines--as well as Assistant Secretary of State for Oceans 
and the Environment. He has been confirmed by the Senate a 
total of five times.
    This distinguished record of service provides an important 
starting point for reviewing the nomination. Without question, 
Ambassador Negroponte has the background and experience 
required to serve in the United Nations. Senators will 
undoubtedly take this entire record of service into account in 
considering the nomination.
    But there are important questions the Ambassador must 
answer with regard to his service in Honduras in the early 
eighties. These questions will be raised now, more than 15 
years after the fact, for a simple reason: Since Ambassador 
Negroponte was last confirmed by the Senate in 1993, 
substantial information about the U.S. policy in Honduras in 
the early eighties has been put into the public record which 
has raised questions about Ambassador Negroponte's actions in 
the post and his testimony before the Senate following that 
assignment.
    In 1995, the Baltimore Sun published a four-part series 
about human rights abuses committed in Honduras and by the 
Honduras military during that period and the knowledge of the 
U.S. Government, particularly the Central Intelligence Agency, 
of these abuses. That series prompted the CIA to conduct 
internal reviews in that period, a study performed by a 
specially formed working group and then reviewed by the CIA 
Inspector General.
    The committee staff has examined both reports in full, as 
well as selected intelligence reports produced by the CIA and 
the Defense Intelligence Agency. The committee has also 
examined a select group of cables and memoranda from the files 
of the State Department and the U.S. Embassy in Honduras. The 
committee has not, I should emphasize, undertaken a 
comprehensive review of every cable produced by the U.S. 
Embassy in Honduras in the early eighties. That task shall be 
left to historians. Rather, the committee has examined two 
related issues reviewing this select group of documents.
    The first issue the committee has reviewed is the extent to 
which the Embassy was aware of and was reporting on human 
rights abuses committed by the Honduran military in the early 
eighties. These abuses include disappearances, kidnapings, 
torture, and extrajudicial killings. The committee's focus has 
been on this question: Did Ambassador Negroponte, as some have 
alleged, seek to limit reporting by Embassy officials on human 
rights abuses, not only in routine cables, but in annual 
reports to the Congress on human rights policies?
    Second, the committee has reviewed the record regarding 
human rights abuses in Honduras and the Embassy knowledge 
thereof in light of the testimony given by Ambassador 
Negroponte to this committee during his confirmation hearing in 
1989 and in light of an interview given by Ambassador 
Negroponte to the staff of the Senate Intelligence Committee 
that same year.
    In his testimony before this committee, the Ambassador 
indicated that he had seen ``no convincing substantiation'' 
that a certain unit of Honduran military known as Battalion 316 
had engaged in death squad type activities. In his interview 
with the staff of the Intelligence Committee, Ambassador 
Negroponte made certain assertions about the degree to which he 
had been informed of human rights matters by various elements 
of the Embassy staff. The committee focus has been on this 
question: Did the Ambassador testify fully and accurately to 
Congress?
    I apologize for the length of this statement, but I thought 
it important to review the events leading up to this day and to 
frame the committee inquiry. I want to publicly thank Secretary 
Powell, Deputy Secretary Armitage, the chairman, Senator Helms, 
and the State Department for its cooperation and having 
cooperated fully with the committee requests for documents and 
information.
    I want to thank the nominee for his cooperations and his 
patience. As we all know, the difficulty in that the agency, 
the CIA, is reluctant to declassify their first names, and that 
is the nature of the institution and I understand it and I 
respect it. But it was not because the State Department was not 
pushing for declassification of the documents we needed and it 
was not that there was not support for the declassification, 
and I want to make it clear Ambassador Negroponte has 
cooperated throughout this process.
    So he has sat for lengthy interviews with our staffs. He 
has responded to numerous written questions, always in a timely 
manner, and I appreciate it.
    Now let me turn to Senator Helms for an opening statement 
and then we will, with the Senator's permission, get under way.
    Senator Helms. Thank you, Mr. Chairman.
    It goes without saying that the disasters in New York and 
at the Pentagon this past Tuesday emphasize the urgency for 
scheduling this hearing and I am grateful to you, Mr. Chairman, 
for scheduling it this morning. President Bush needs and 
deserves every possible member of his senior foreign policy 
team in place to deal with the perpetrators of the murders of 
thousands of Americans this week. The President needs and 
deserves to have in place at the United Nations his nominee to 
be U.S. Ambassador to the United Nations.
    It is critical that the United States be able to respond to 
Tuesday's double dose of horror, first in New York, followed 
almost immediately by the Pentagon in Washington, as everybody 
knows. Because the U.S. Ambassador to the United Nations plays, 
whoever he or she may be, such an important role in 
communicating with our friends and allies, it is urgent that he 
be at his post as soon as humanly possible.
    Now then, in addition to responding to Tuesday's acts of 
terrorism, the administration also faces a full agenda at the 
United Nations, including: one, U.N. conferences run amok; two, 
Iraq's defiant despotism; three, the ongoing attacks, both 
physical and rhetorical, against the Middle East's only 
democracy, Israel; and four, locking in and extending the U.N. 
management reforms negotiated by Ambassador Holbrooke, whom we 
had expected to be here this morning, but I can understand why 
he cannot make it.
    Now, this nomination has been stalled by debates about 
policy and Central America 20 years ago. We are obliged to 
change our focus to today's obvious and very real threats by 
confirming John Negroponte, who is an experienced Foreign 
Service professional, and we ought to do it without further 
delay.
    This is a sad week for everybody, but I welcome the 
Ambassador to the committee and the opportunity to discuss very 
serious challenges, particularly terrorism, facing the United 
States around the world today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me just briefly explain for my colleagues the binder 
that is sitting in front of every Senator. We have put together 
a binder of materials which contains a select group of 
documents. Several of the questions which may be asked relate 
to these documents. So if a Senator makes reference to a 
particular number, they should turn to the appropriate tab in 
that binder. Ambassador Negroponte also has the same binder in 
front of him.
    The first few items in the binder are styled 
``Stipulations.'' As colleagues know, we sought 
declassification of certain materials from the CIA and, after 
my discussions with George Tenet, the Director of the CIA, we 
agreed we would not seek the final declassification, but we 
would agree that he would stipulate to certain facts without 
any declassification, but it would have similar effect.
    The majority staff drafted stipulations and submitted them 
to the CIA. The CIA then revised these proposals and the 
documents that is before the committee are those which the CIA 
sent back to the committee.
    [The material referred to follows:]

             Stipulations From Intelligence Reporting Cable

    1. Information summarized in 1995 indicates that during the early 
1980's, the Public Security Forces in Honduras (FUSEP) had a special 
unit involved in countering domestic subversive movements. In addition, 
from 1980-1984, the National Directorate of Investigation (DNI), a unit 
of FUSEP, maintained a secret unit known as the Honduran Anti-Communist 
Liberation Army (ELACH). ELACH's operations included surveillance 
kidnapings, interrogation under duress, and execution of prisoners who 
were Honduran Revolutionaries. ELACH reportedly maintained an informal 
liaison with members of the special unit of the Public Security Forces 
in Honduras.
    2. In April 1983, based on the recommendation of a joint U.S./Honduran Military Seminar, the Honduran Military resolved to convert 
the FUSEP Special Unit and place it under the supervision of the 
Military Intelligence Division of the Armed Forces General Staff. This 
occurred in early 1984 and the unit was renamed the Military 
Intelligence BN.
    3. From late 1980 to circa 1983, the United States Government 
maintained contact with the command structure with the objective of 
assisting in the creation of an effective mechanism to counter the 
growing threat from domestic subversive movement and from regional 
organizations operating in Honduras with links to the Sandinistas and 
Cuba.
    4. The Military BN was dissolved in September 1987.

             Stipulations From CIA Inspector General Report

    1. Congressional and National Security Council (NSC) interest in 
the Baltimore Sun's allegations prompted then-Director of Central 
Intelligence (DCI) John M. Deutch to direct that a review be conducted 
of all CIA files to determine CIA's role in Honduras and whether its 
personnel were linked to human rights abuses there from 1980 to 1995. 
The Honduras Working Group was established in July 1995 to conduct this 
review and published its final report in August 1996. Based upon the 
written record, selected interviews that were conducted by the Office 
of Personnel Security (OPS) on behalf of the Honduras Working Group, 
and responses to questionnaires that the Honduras Working Group 
prepared and distributed to 34 CIA officers in an attempt to resolve 
several issues, the review resulted in the following findings:

  <bullet> There is no information in CIA files indicating that CIA 
        officers either authorized or were directly involved in human 
        rights abuses;

  <bullet> The Honduran military committed hundreds of human rights 
        abuses since 1980, many of which were politically motivated and 
        officially sanctioned;

  <bullet> CIA reporting linked Honduran military personnel to ``death 
        squad'' activities;

    2. In the early 1980's, the U.S. Government provided assistance to 
several Honduran military units.
    3. Reporting indicated that a number of people from these Honduran 
units were involved in human rights abuses from 1980 to 1996.
    4. The CIA's record in reporting human rights abuses was 
inconsistent. In some cases, reporting was timely and complete. In 
other cases [excised text] information was not reported at all [excised 
text] or was mentioned only in internal CIA channels and not 
disseminated to other agencies;
    CIA reporting to Congress in the early 1980's underestimated 
Honduran [excised text] involvement in abuses. By the mid-1980's, CIA 
provided more detailed information to Congress, but some of the 
notifications were inaccurate.
    5. Cooperation with Honduran military units provided access to 
significant information about the Honduran military and its activities.
    6. In July 1983, a small (96 member) group associated with the 
Central American Revolutionary Workers Party (PRTC) entered the Olancho 
Department of Honduras from Nicaragua. In August 1983, the Honduran 
military became aware of their presence. The guerrilla group was 
quickly overwhelmed by the Honduran military in August and September 
1983, and its leader (Reyes Mata) was captured and killed. The Honduran 
military operation was followed closely by the U.S. Embassy and 
reported in the local media.
    7. The U.S. Government had advance intelligence information 
indicating a possible Central American Revolutionary Workers Party 
military operation.
    8. In late September 1983, the U.S. Embassy became aware that a 
U.S. priest, Father James Carney, who had been traveling with the 
guerrilla group, was missing, and began an investigation. Ambassador 
Negroponte and senior Embassy staff met with the Carney family on 
September 28.
    9. In September 1983, Ambassador Negroponte requested additional 
analytical assistance from the U.S. Government about the Olancho 
Guerrilla movement, including U.S. participation in the debriefing of 
deserters and captives.
    10. Subsequently, Ambassador Negroponte urged Embassy personnel to 
exploit the failure of the guerrillas from a broader regional 
standpoint.
    11. In October 1983, U.S. intelligence prepared reports regarding 
information it had received about the capture and summary execution of 
as many as nine Central American Revolutionary Workers Party 
guerrillas. Dissemination of these reports was limited because of 
Ambassador Negroponte's concern about leaks. This information regarding 
the reports of guerrilla executions was reported to the President in 
October 1983.
    12. In early November 1983, after receiving the intelligence 
reports on the guerrilla executions, Deputy Assistant Secretary Craig 
Johnstone wrote Ambassador Negroponte and urged that he demarche 
General Alvarez regarding this matter. Negroponte met with Alvarez, who 
denied the reports. Negroponte reported back to Johnstone by letter. He 
noted the conflict between the intelligence reports and General 
Alvarez, raised questions about the reliability of the sources upon 
which the reports were based, and therefore urged that the United 
States not pursue the specific matter further with Alvarez.
    13. In an interview with CIA Inspector General, Ambassador 
Negroponte recalled as follows:
    Former U.S. Ambassador to Honduras Negroponte describes three 
significant concerns that were dominant throughout his assignment in 
Honduras. First, regional instability affecting Nicaragua, El Salvador, 
and Guatemala. In this context, he says attempts were made to keep 
Honduras on an even keel by providing large amounts of economic and 
military assistance. A second concern related to the Sandinistas in 
Nicaragua and was being addressed by U.S. assistance to the Contras. 
The third concern was that the United States was attempting to promote 
democracy in Honduras after the 1981 presidential election; the first 
in nine years.
    Negroponte indicates that there were instances of human rights 
abuses in Honduras and that he used diplomatic channels--calling on 
President Suazo, the Foreign Minister, or the Commander-in-Chief--to 
address them when they arose. Additionally, the Embassy used ``quiet 
diplomacy'' to suggest methods, such as the Administration of Justice 
Program, to prevent future abuses and ensure proper treatment of 
prisoners. Negroponte, although not justifying human rights abuses, 
says he believed Honduras had a much better human rights records than 
its neighboring countries.
    Negroponte states that Defense Attache Office and the Political 
Section had reporting responsibility for the Olancho Operation. 
Additionally, [excised text] was expected to provide information 
[excised text]. There were no contemporaneous complaints, says 
Negroponte, regarding the absence of reporting on the Olancho 
insurgency. The insurgency was viewed as a threat to the security of 
Honduras and as a precursor of additional attempts to invade the 
country.
    Negroponte says he became aware of the two CIA Sensitive Memoranda 
regarding prisoner executions via Johnstone's November 2, 1983 
correspondence. He indicates that Johnstone used a memorandum, not an 
electronic message, due to the sensitive nature of the information and 
was trying to prevent broad distribution in light of the volatile 
political environment concerning Central America. After confronting 
Commander-in-Chief Alvarez and hearing his denials, Negroponte says he 
harbored doubts over the accuracy of the reports of executions and 
recommended that the situation be closely monitored for future 
developments. If additional credible information were received, the 
matter would be revisited in order to take further action.
    Negroponte believes [excised text] personnel were concerned about 
human rights and notes that the Embassy was probably the busiest in the 
world and was focused on a variety of regional issues. At no time, says 
Negroponte, did he suggest [excised text] that it not report on a 
subject.
    At the time of the insurgency, Negroponte states that Father 
Carney's citizenship was unclear, but the Embassy vigorously pursued 
details of his fate as if he were a U.S. citizen. After Carney's family 
made inquiries at the Embassy, he says the Consul General was assigned 
the task of investigating the circumstance surrounding the priest's 
disappearance. After the Consul General interviewed the captured 
insurgents, Negroponte recalls that the Embassy became convinced that 
Carney had died of natural causes due to the lack of nourishment. No 
information was obtained that indicated that the priest had been 
executed.
    Commander-in-Chief Alvarez was ousted from his position in March 
1984. Thereafter, Negroponte recalls, disappearances stopped, human 
rights concerns diminished, and issues relating to possible abuses 
committed during the Olancho Operation no longer required monitoring.
    14. In November 1983, a reliable source reported that a member of 
the Honduran military had shot guerrilla leader Reyes Mata and that 
Commander-in-Chief Alvarez had probably been consulted.
    15. On November 17, 1983, a draft report was sent to Embassy. The 
report was circulated to the U.S. Government the next day. The report 
specifically named the Honduran officer who killed Reyes Mata. It also 
indicated that Commander-in-Chief Alvarez was consulted before and 
after the execution. CIA headquarters indicated that the basic 
information in the draft report--that prisoners had been executed--
could not be refuted.
    16. CIA headquarters was made aware that Ambassador Negroponte was 
particularly sensitive on the subject set forth in the draft report and 
having been concerned that prior intelligence reporting on the same 
topic might create a human rights problem for Honduras.
    17. On November 25, 1983, Embassy Charge Shep Lowman wrote in an 
``eyes only'' message to U.S. Assistant Chief of Staff General William 
Odom and Deputy Assistant Secretary of State Craig Johnstone concerning 
the Defense Attache Office comments on the draft report. Lowman wrote 
that the Defense Attache Office comments tended to contradict 
information in the draft, and that: ``The subject matter, however, is 
so sensitive that we would urge that any further dissemination on this 
subject should be sharply limited and, as had been the case with 
previous [excised text] reports, by memorandum restricted to designated 
addressees only.''
    18. Ambassador Negroponte believes that the dissemination of 
intelligence from Tegucigalpa Embassy was not affected by Honduran 
support to U.S. [excised text] programs. He says the Embassy did its 
best to collect relevant information and follow up on details 
concerning the fate of the Olancho insurgents and believes that there 
was no complacency by any Embassy component in reporting on the Olancho 
Operation.
    Negroponte says that he was out of the country from November 22 to 
25, 1983 when discussions about the draft report were held within the 
Embassy. Negroponte believes that the sentiments attributed to him in 
the November 22, 1983 [excised text] report concerning the 1983 draft 
report are not accurate. Negroponte says that his position at the time 
was that it should be made certain that prisoner executions had 
occurred before taking further action such as publicizing the 
information or confronting President Suazo. He says he wanted to 
confirm details of the reported executions before the information was 
widely disseminated as it would become a significant political issue in 
Washington that could affect the [excised text] program. Negroponte 
says that his sentiments on the subject of executions are reflected in 
his November 18, 1983 response to Deputy Assistant Secretary Johnstone.

                 CIA Working Group Report Stipulations

    1. During the 1980-1984 period, the Honduran Military committed 
most of the hundreds of human rights abuses reported in Honduras. These 
abuses were often politically motivated and officially sanctioned.
    2. Some Honduran military units received United States Government 
assistance. Information available to the United States Government 
indicated that some members of these units, and others, were linked to 
``death squad'' activities such as killings, disappearances, and other 
human rights abuses.
    3. As a result of United States policy countering Cuban/Nicaraguan 
communist-backed insurgencies in Central America, intelligence 
collection and reporting requirements on human rights abuses were 
subordinated to higher priorities.
    4. Between 1984-1987 the FUSEP Special Unit was converted to the 
Battalion 316. These units were involved in similar counter-subversive 
activities.
    5. As a result of a file review and other information available to 
the United States Government, some 250 alleged abuses of human rights 
were identified.
    6. FUSEP Special Unit and Battalion 316 counter-terrorist tactics 
included torture, rape, assassination against persons thought to be 
involved in support of Salvadoran guerrillas or past of the Honduran 
leftist movement. Information available to the United States Government 
in the 1980's indicated that named individuals were abducted and killed 
by Battalion 316 and the FUSEP Special Unit.
    7. ``Death Squads'' used tactics such as killings, kidnaping, 
torture, and clandestine abduction.
    8. The United States was aware of one death squad in Honduras that 
operated between 1980 and 1984. It was known as the Honduran Anti-
Communist Liberation Army (ELACH). Reports indicate that ELACH was 
responsible for the killings of a number of leftists during that 
period. This information was disseminated and was the focus of 
Congressional concern. Although promises were made to investigate and/or expand upon these initial reports, there is no written evidence that 
these promises were met.
    9. Unsubstantiated information links Honduran Military Command and 
high-ranking government officials, with the ELACH.
    10. The United States Government does not have sufficient 
information to definitively rule out the possibility that the Honduran 
military may have captured, interrogated, and killed Father James 
Carney.
    11. It has been reported that some Honduran military records of 
human rights violations were destroyed in 1995 at the direction of the 
Honduran military command.
    12. Information is available to the United States Government which 
linked the Chief of Honduran Department of National Investigations from 
June 1982 to January 1984 to the Honduran Anti-Communist Liberation 
Army ``Death Squad'' activities. The Government of Honduras dismissed 
this officer in 1984 after the death of a prisoner while in the custody 
of the Honduran Department of National Investigations.

    The Chairman. Now, we have two very important and very 
senior Members of the U.S. Senate. I see that our usual 
practice is to go with the most senior Member, but I can see 
the former chairman of the Appropriations Committee and the 
ranking member is pointing to the Senator from Arizona. Since 
he still has a very important impact on appropriations, John, 
go first. I am not going to defy him.

    STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman.
    I would ask that my written statement be made part of the 
record.
    The Chairman. Without objection, it will be.
    Senator McCain. Mr. Chairman, I will be brief. I know that 
this is going to be a very extensive hearing, so I will be very 
brief.
    I happen to have known John Negroponte for many years. I 
visited him as he has had various diplomatic posts around the 
world. This will be the sixth time that this public servant has 
been confirmed by the U.S. Senate. I am confident that he will 
be confirmed. That is an unusual period of public service on 
the part of any American, of which he and his family, some of 
whom are here today, are very proud.
    I am very proud of his service. I am very proud of his 
service in Honduras during a very difficult time in America's 
history. I was proud to have been named co-chairman of the 
Central American Observer Group by Senator Dole, and Senator 
Dodd was named by Senator Mitchell, which brought me to Central 
America on many, many occasions in the period of 1987 through 
1990.
    A lot of things happened in Central America. There are a 
lot of wounds that have not healed concerning Central America. 
But to somehow translate that into the service of this good and 
decent American does him a great disservice. Mr. Chairman, I 
know this man. I know his service, and I know that he would 
never countenance any improper behavior nor reporting of 
occurrences which the American Government should know about.
    This appointment is long overdue. Events of the last 48 
hours dictate that we have a good and qualified public servant 
at the United Nations as there will be many issues now that are 
of vital importance to the United States before the United 
Nations. I am proud to be here with this public servant. I am 
glad he is willing to serve.
    I would add one note of caution. If we continue to put 
people through, particularly dedicated public servants, this 
kind of interrogation, this kind of guilt until proven 
innocent, we are going to have a lot of trouble getting people 
to serve.
    I am proud that Ambassador Negroponte is willing to serve 
and I know he will serve this Nation with distinction and honor 
in New York.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement of Senator John McCain

    Mr. Chairman and members of the Committee, I appreciate this 
opportunity to introduce John Negroponte, a good man and a fine 
diplomat, as he prepares to assume his responsibilities as our 
Ambassador to the United Nations. I have had the privilege of knowing 
John since I visited him during his tenure as Ambassador to Honduras, 
where he did an excellent job under very difficult circumstances. John 
also distinguished himself during his service as Deputy National 
Security Advisor during the Reagan Administration, when he reported 
directly to then-National Security Advisor Colin Powell, and as 
Ambassador to Mexico during the first Bush Administration.
    I must admit to a bit of family history as well: John knew my 
father when he was commander in chief of our Pacific forces. Vietnam 
had a way of absorbing the attention of our best and brightest: John 
served as a political officer at our Embassy in Saigon and worked for 
Henry Kissinger during the Paris peace talks.
    I have the highest regard for John's service. Secretary Powell 
recently called him ``one of the most distinguished foreign service 
officers and American public servants I have ever known.'' Ambassador 
Holbrooke has offered his strongest endorsement. John has served 
Democratic and Republican Presidents equally well over the course of 
his long career. I am pleased that he now stands ready to serve our 
country once again.
    I know the Committee has investigated at length the question of 
human rights abuses by the Honduran military, and American policies in 
Central America, during John's tenure as Ambassador in Honduras. I can 
say that I was very impressed with the job John was doing when I 
visited him there. I also note John's confirmation by the Senate five 
times, including for his last posting as President Clinton's Ambassador 
to Manila.
    We badly need John's leadership at the United Nations. Despite its 
many critics, among whom I occasionally include myself, the United 
Nations provides a critical forum for the quiet diplomacy that supports 
American engagement overseas. As we undertake our most concerted global 
campaign since the Persian Gulf War--that of rallying a coalition of 
free nations to defeat the terrorists who struck our homeland on 
Tuesday--I can think of few diplomatic assignments that are more 
important.
    A national tragedy has befallen us, one that requires our best 
efforts against an enemy we have no choice but to defeat. We will do 
so, resolutely, in the name of our values and our people. Robust, 
skillful diplomacy will be critical to this mission.
    I think we can all agree that there has rarely been a more pressing 
need for an outstanding public servant to represent our interests at 
the United Nations. John is that man. His country needs him; the 
challenge of his assignment is enormous, but he is ready. I commend his 
speedy confirmation to my colleagues and thank you for this opportunity 
to speak on his behalf today.

    The Chairman. Thank you very much, Senator McCain.
    Senator Stevens, welcome.

    STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I too 
would ask that my statement be printed in the record in full.
    The Chairman. Without objection, it will be.
    Senator Stevens. I must say that I am here as a character 
witness. I have known John Negroponte for many years also and, 
because our wives got along very well, we became dinner 
companions on many occasions. I have visited with him in 
Honduras and so many other places.
    But let me tell you, he goes back even further than that. 
At one time he was the Deputy Assistant Secretary of State for 
Oceans and Fisheries. He was very much involved in the 
negotiation on agreements with the Government of Japan to 
protect our Alaska salmon stocks. At that time he visited 
Alaska and me and my family, and countless Alaskans have had 
their lives improved because of the dedication he gave to the 
agreements he negotiated.
    He also has the ability to speak five languages. I still am 
in awe of anyone that can do that, Mr. Chairman. I do believe 
that at this time, as Senator McCain has said, John Negroponte 
is the right person to go to the United Nations to represent 
our country. I say so because of a personal relationship. It is 
not often I come before your committee----
    The Chairman. That is true.
    Senator Stevens [continuing]. But I come before your 
committee today as a person that says that John Negroponte is a 
great American, a good family man, and the type of 
representative the we need at the United Nations today. So I 
urge you to approve him as soon as possible.
    [The prepared statement of Senator Steven follows:]

               Prepared Statement of Senator Ted Stevens

    Mr. Chairman:
    Thank you very much, Mr. Chairman and Senator Helms. I do 
appreciate the opportunity to present to you my very good friend, John 
Negroponte, in support of his nomination to be the United States 
Ambassador to the United Nations. John and I have known each other 
since 1977 with his appointment as Deputy Assistant Secretary of State 
for Oceans and Fisheries Affairs with the rank of Ambassador. Because 
he handled several fisheries negotiations of vital interest to my 
state, John was a frequent visitor to Alaska. In 1978, John negotiated 
a breakthrough agreement with the Government of Japan which provided 
crucial protection for Alaskan salmon stocks from Japanese high seas 
fishing fleets. This agreement provided countless benefits to the 
Alaskan fishing community which endure to this day.
    I have also had the pleasure of working with John in his subsequent 
assignments: as Ambassador to Honduras; as Assistant Secretary for 
Oceans and International Environmental and Scientific Affairs and as 
Ambassador to the Philippines. In each situation, I was able to witness 
first hand his ability to manage large and complex diplomatic missions 
and to observe his effectiveness and sensitivity in dealing with his 
foreign counterparts.
    Educated at Yale, he speaks five languages fluently--something that 
I consider a true asset for this position.
    Mr. Chairman, I believe President Bush, on the recommendation of 
Secretary of State Powell, has chosen extremely wisely and well in his 
selection of John to be our nation's representative at the United 
Nations in New York. Mr. Chairman, I also believe that at this point in 
time in our nation's history, it is vital to have John at the helm in 
New York--we will need his expertise to help guide us through the next 
few months. I can tell you without any question, this man is one of the 
most distinguished public servants that I have had the honor of knowing 
and I am confident that the United States will be well served by his 
confirmation.

    The Chairman. Thank you very much, Senator Stevens. Your 
opinion is given great weight here and we appreciate it very 
much. Thank you.
    I would also note that, as I said earlier, Ambassador 
Holbrooke wished to testify. We will allow his statement, in 
light of the fact he has been unable to get down from New York, 
be placed in the record in support of John Negroponte.
    [The prepared statement of Ambassador Holbrooke follows:]

            Prepared Statement of Hon. Richard C. Holbrooke

    Mr. Chairman, distinguished members of this Committee:
    I am deeply honored to appear before you again, for the second time 
this year, and for the first time before you, Mr. Chairman, in your new 
capacity as this historic Committee's new chairman. Before I turn to 
the matter at hand, allow me to thank each and every member of this 
Committee for the friendship, support and advice you have offered me 
over the many years that I have appeared before you, starting in 1997.
    Today I appear before you to join two distinguished Senators in 
introducing John Negroponte to your Committee. It may seem unusual for 
someone to introduce his successor in a confirmation hearing, but it is 
not unprecedented--Secretary Shalala introduced her successor earlier 
this year, for example. In the present case, what brings me to this 
committee today is a friendship and professional association with John 
Negroponte that stretches back over thirty-seven years and three 
continents, and a strong sense that he will make a superb American 
representative to the United Nations--an indispensable institution 
that, while it has improved in recent years, remains flawed and in need 
of further reform. This is a subject on which this Committee has played 
a historically important role in the last few years under the 
leadership of Senators Helms and Biden, and I was a fortunate 
beneficiary and sometime collaborator with you in this long but still 
unfinished march. If confirmed, I believe John Negroponte will be a 
splendid and effective successor in this effort.
    John and I met in 1964, when we were both young Foreign Service 
Officers in the Embassy. We became friends and tennis partners, part of 
a group of young American diplomats who would be profoundly shaped by 
the Vietnam experience. A few months into his tour, John returned home 
one night to find a drunken American seaman prowling his apartment with 
a knife, looking for more of the demon rum. This was not as unusual in 
those wild days in Saigon as it may sound today, but it was dangerous, 
and so, quite unexpectedly, John showed up at my house a few blocks 
away shortly after midnight, took the spare bedroom, and stayed for the 
next year. He made an excellent roommate. For the record, he was the 
neat one--Felix to my Oscar.
    We both ended up in Paris in 1968 as part of the small American 
negotiating team under Averell Harriman and Cyrus Vance. John was the 
second best Vietnamese language speaker in the Foreign Service, and 
soon proved so indispensable to the negotiating team that, when the 
administration changed in 1969 (and I went on to another assignment), 
he was brought into the secret channels set up by Henry Kissinger, and 
worked closely on the negotiations that followed.
    When I became Assistant Secretary of State for East Asian and 
Pacific Affairs under President Carter and Secretary Vance, it was 
natural that I would turn to John to be one of my deputies. After all, 
he was the neat one, and Southeast Asia, just after the fall of Saigon, 
was a mess. John took over the then just-emerging ASEAN portfolio, 
spent endless hours on the refugee crisis that hit the region in 1978-
79 with the boat people and the overthrow of the murderous Pol Pot 
regime, and worked hard, and I believe successfully, to help rebuild 
America's position in Southeast Asia at a moment that--it is hard to 
recall now--our fortunes seemed at their lowest. In particular, his 
commitment to the refugee issue, which he shared with me, came from a 
burning sense that we could not walk away from the human beings whose 
lives were now at risk before the victorious Communists simply because 
they had believed in, and worked for, the Americans in Vietnam and 
Laos.
    During the Clinton years, John and I continued to remain in close 
touch, although we did not work on the same issues. He and Diana did a 
fine job in the Philippines, and I was sorry when for personal reasons 
John turned down an offer from Secretary Albright to go to Greece as 
Ambassador. In New York, I saw him often, and he was a frequent visitor 
to the Waldorf Towers during my tenure.
    Others have attested to his diplomatic skills. I think I know the 
United Nations system in all, or at least many, of its complexities. 
Especially after being ejected from the Commission on Human Rights and 
the shambles in Durban, our nation needs someone in the job who will be 
able to represent our entire nation and work closely with this 
Committee. I commend President Bush and Secretary Powell for having 
nominated a professional who has served with distinction, and in equal 
measure, Presidents and administrations of both parties in almost equal 
measure for over forty years, and I wish both you and him well as you 
proceed to consider his nomination.

    The Chairman. Mr. Negroponte, I am going to do two 
simultaneous things. One is welcome you and two is do something 
very inappropriate. Secretary Powell is on the phone for me as 
we speak, so what I am going to do is, I apologize, I am 
probably not going to hear your opening statement and I am 
going to invite you to make whatever statement you want now and 
turn the gavel over to Senator Sarbanes if I may.
    Please proceed. Understand why I am taking that call. Since 
he is going to be your boss, I guess in a way, or your co-
conspirator in making sure our policies come to fruition, I 
think you will understand.
    Ambassador Negroponte. He will be my boss, Senator.
    The Chairman. Well, I hope there is a degree of 
independence for the U.N. Ambassador.
    Ambassador Negroponte. I had a few minutes with him this 
morning.
    The Chairman. Welcome.
    Ambassador Negroponte. Thank you.
    Should I go ahead?
    Senator Sarbanes [presiding]. By all means.

   STATEMENT OF HON. JOHN D. NEGROPONTE, OF THE DISTRICT OF 
  COLUMBIA, NOMINATED TO BE THE REPRESENTATIVE OF THE UNITED 
  STATES OF AMERICA TO THE UNITED NATIONS, WITH THE RANK AND 
  STATUS OF AMBASSADOR, AND THE REPRESENTATIVE OF THE UNITED 
STATES OF AMERICA IN THE SECURITY COUNCIL OF THE UNITED NATIONS

    Ambassador Negroponte. Thank you. Thank you, Mr. Chairman, 
Senator Sarbanes, Senator Helms, members of the Senate Foreign 
Relations Committee.
    I am honored to come before you today as the President's 
nominee to be the United States Permanent Representative to the 
United Nations. I am also grateful for the kind words of those 
what have presented me to the committee today, Senator Ted 
Stevens and Senator John McCain. Each is a good and special 
friend and I have greatly valued knowing them over these many 
years.
    Richard Holbrooke, as has been mentioned, had planned to be 
here with us to introduce me in person as well. I spoke to him 
this morning. But because of the situation in New York, he was 
unable to make it. I know, as the chairman has said, that Dick 
has sent you a copy of his remarks. As Ambassador Holbrooke 
himself noted in his proposed statement, our friendship goes 
back almost 40 years, indeed to a defining stage in our 
respective diplomatic careers when we were both junior officers 
at the United States Embassy in Saigon. I think that, in 
addition to many other brilliant achievements of his career, I 
think Dick did a remarkable job as Ambassador to the United 
Nations.
    Before I go any further, Senators, I would like to 
introduce my wife Diana, who is here with me this morning, and 
two of my five children: Marina, who is a sophomore at the 
University of Pennsylvania; and my son George, who is starting 
this year in the seventh grade at St. Alban's School. My three 
other children regrettably could not be with us today for a 
variety of reasons.
    Senator Sarbanes. We are very pleased to have your wife and 
the children here with us this morning.
    Ambassador Negroponte. Thank you.
    Mr. Chairman, I first joined the Foreign Service in October 
1960, which is almost 41 years ago. I am in proud possession of 
Foreign Service commissions signed by every President of the 
United States since Dwight D. Eisenhower. In addition, this is 
the sixth time, as has been mentioned, since 1977 that I am 
appearing before this committee in connection with a nomination 
requiring confirmation by the U.S. Senate.
    Despite numerous past senior postings, I am humbled as well 
as excited by the challenge this assignment represents and 
grateful for the confidence President Bush has shown in my 
abilities and experience by selecting me for this 
extraordinarily important diplomatic position.
    I believe participation in the United Nations is essential 
to the advancement of the U.S. national interest. U.S. 
membership in the United Nations enhances our ability to exert 
leadership globally and to advance the ideals upon which our 
Nation was founded. Collectively, the United Nations represents 
one of the international community's best tools for uniting to 
restrain violators of international law, for helping to heal 
the wounds their crimes leave behind, and to advance the cause 
of human rights. The United Nations both needs and deserves 
consistent support from America, including full and timely 
payment of our dues.
    Mr. Chairman, I am aware that serving as United States 
representative to the United Nations is an extremely demanding 
and complex task. It involves knowing the delegates from the 
other 188 countries, representing the U.S. position at sessions 
of the Security Council, the General Assembly, and other United 
Nations bodies, and dealing constantly with the U.N. 
Secretariat, so ably led by Secretary General Kofi Annan, with 
whom I would hope to develop a strong working relationship.
    There are also, of course, many important non-governmental 
private sector and religious groups with a keen interest in the 
work of the United Nations. If confirmed, I intend to 
immediately set about establishing as good and effective 
relationships as possible with these various counterparts in 
New York. I believe in the importance of this kind of personal 
diplomacy.
    In the same vein, I would observe that the administration 
can only carry out its programs and achieve its priorities for 
the United Nations in the closest of partnerships with 
Congress. Establishing a close and fruitful dialog with 
Congress on U.N. matters will be one of my highest priorities. 
So I hope you will keep your doors open to me. If confirmed, I 
would plan on being a frequent visitor to your offices and to 
this hearing room, and I would hope that you would visit New 
York as often as your busy schedules permit. I can assure you 
that I will respond to your interest in my mission with 
complete and sincere attention.
    Now, Mr. Chairman, questions have been raised about my 
service as Ambassador to Honduras from 1981 to 1985. Our policy 
in Honduras during my tenure there was to support that 
country's return to democracy and to encourage the rule of law, 
including protection of human rights. I believe that I served 
honorably and conscientiously in a manner fully consistent with 
and faithful to applicable laws and policies. I also believe 
that my tenure in Honduras contributed to the eventual 
positive, peaceful and democratic outcome in Central America.
    As a career Foreign Service officer for almost all of my 
adult life, it has been a working assumption and an article of 
faith that as a matter of course our professional mission is to 
represent the values, the ideals, and the traditions of 
America's political system. I have been guided by that 
commitment throughout my career and in New York I will work for 
the advancement of democracy, rule of law, and human rights 
around the world.
    Mr. Chairman, the despicable and tragic acts of terror 
perpetrated in New York and Washington the day before yesterday 
dramatically underscore grave challenges to our fundamental 
values. The world of the 21st century, like the centuries 
before, remains a place of peril. But we do not face these 
challenges alone. All the civilized nations on Earth join us, 
and indeed already have joined us, in condemning these hideous 
crimes.
    Through the United Nations we can and must work together to 
prevail over threats that confront us all. In this context, let 
me repeat what I said at the outset of this testimony. I fully 
appreciate the extraordinary importance of the diplomatic 
position to which I have been nominated and, if confirmed by 
the Senate, I undertake to do my utmost to uphold the 
confidence that the President, Secretary Powell, and yourselves 
shall have placed in me.
    Thank you very much. I should have mentioned at the outset, 
Senator, I also have a longer statement which I would propose 
to introduce for the record and which has already been sent up 
to the committee.
    [The prepared statements of Ambassador Negroponte follow:]

             Prepared Statement of Hon. John D. Negroponte

    Chairman Biden, Senator Helms, members of the Senate Foreign 
Relations Committee, I am honored to come before you today as the 
President's nominee to be the U.S. Permanent Representative to the 
United Nations. I also am grateful for the kind words of those who have 
presented me to the Committee today: Senator Ted Stevens, Senator John 
McCain and Ambassador Richard Holbrooke. Each is a good and special 
friend and I have greatly valued knowing them over these many years. In 
the case of Dick Holbrooke, as he himself noted, our friendship goes 
back almost 40 years, indeed to a defining stage in our respective 
diplomatic careers when we were both junior officers at the United 
States Embassy in Saigon.
    Mr. Chairman, I first joined the Foreign Service in October 1960--
almost 41 years ago--and am in proud possession of Foreign Service 
Commissions signed by every President of the United States since Dwight 
D. Eisenhower. In addition, this is the sixth time since 1977 that I am 
appearing before this committee in connection with a nomination 
requiring confirmation by the United States Senate. Despite numerous 
past senior postings, I am humbled as well as excited by the challenge 
this assignment represents and grateful for the confidence President 
Bush has shown in my abilities and experience by selecting me for this 
extraordinarily important diplomatic position.
    Mr. Chairman, I believe participation in the United Nations is 
essential to the advancement of U.S. national interests. U.S. 
membership in the United Nations enhances our ability to exert 
leadership globally and to advance the ideals upon which our nation was 
founded. Over the years, the United Nations and its affiliated 
agencies, although imperfect like all human institutions, have striven 
to live up to the vision of their founders with some considerable 
success. Collectively they represent one of the international 
community's best tools for uniting to restrain violators of 
international law and helping to heal the wounds their crimes leave 
behind.
    The past decade is replete with examples of the United States using 
its seat on the Security Council to secure collective action under 
Chapters VI and VII of the Charter to stabilize crisis situations or to 
counter threats. Indeed, with the end of the Cold War and the end to 
Soviet obstructionism, we have been better able to use the Council to 
address regional or intrastate conflicts. Activities undertaken as a 
result of Security Council decisions have played, and continue to play, 
a key role in containing Iraq, keeping peace in Cyprus, ending the war 
in Bosnia, and enabling the East Timorese to build an independent 
state, to name just a few examples.
    Although we live in a world where national sovereignty remains 
predominant--and rightly so--we also live in a world that is in ever-
greater need of effective instruments of voluntary collective action 
and expression. There are times and circumstances when individual 
countries cannot or will not individually address the world's problems. 
In such instances, broad multilateral efforts undertaken through the 
United Nations have served all of our interests well. UN sanctions 
against the Taliban movement in Afghanistan related to terrorist 
activities is one example. Peacekeeping efforts in Sierra Leone and the 
Congo are others. Indeed, renewed United Nations attention to the 
security and development needs of Africa has been one of the 
significant trends of the past decade; and one which I would expect to 
see continued.
    UN peacekeeping missions help us contribute to international peace 
and security without necessarily committing U.S. troops; and they 
leverage scarce resources by enlisting valuable contributions to such 
missions by other members of the international community. Of the 43,000 
United Nations peacekeepers deployed throughout the world today, only 
44 troops are from the United States, all but one in observer status.
    If promoting international peace and security is the UN's most 
important single priority, then surely humanitarian response cannot be 
far behind. UN agencies are working every day dealing with emergencies 
arising from man-made or natural disasters. From the strife in the 
Congo to the drought in Afghanistan, the United Nations is providing 
food, shelter, and health care to those who are truly the world's most 
needy. In Southern Sudan, one of the world's most urgent humanitarian 
emergencies, 11 UN agencies are working to avert starvation and in many 
cases, death, brought on by a war, brutality and economic collapse. The 
United States makes a substantial contribution to the work of these 
agencies via the leadership we provide and the resources, including 
personnel, we contribute.
    We have shown similar leadership in encouraging the UN to combat 
the international scourge of HIV/AIDS. The recently concluded UN 
General Assembly special session on AIDS constitutes an historic step 
in terms of recognizing the gravity of this epidemic and mobilizing 
international action and concrete resources.
    I would be remiss if I did not mention that considerable credit for 
this and for numerous other important UN initiatives is very much due 
to Secretary General Kofi Annan. In his first term he put the direction 
and management of the UN Secretariat on a sounder footing and we 
enthusiastically supported his re-election for a second term, where I 
know he will build on his already impressive record of achievement. I 
look forward to working very closely with Secretary General Annan and 
his colleagues.
    The United States also derives substantial benefits from the 
activities of the United Nations organizations which set international 
technical and legal standards, by building consensus in areas as 
diverse as air safety and labor standards. It is a little-known fact 
that the language of international aviation is English as a result of 
UN efforts. The UN provides the means for the world community to bring 
those implicated in massive human rights violations to justice, as the 
International Criminal Tribunal for the Former Yugoslavia is currently 
doing in prosecuting former Yugoslav President Milosevic. In some cases 
these efforts have not been so successful, and I am hopeful that we 
will be mindful of the lessons learned as progress is made towards 
establishing the Sierra Leone Special Court and the tribunal in 
Cambodia.
    Sometimes U.S. leadership must be exercised to put the brakes on an 
activity that is not likely to be constructive or, at worst, contrary 
to U.S. interests. Adroit use of the traditional tools of diplomacy is 
our best means of shaping outcomes. However, there are instances in 
which we must not shrink from threatening or actually using our power 
to veto, as we recently did when the Security Council was moving toward 
an unbalanced resolution which would have done more to enflame than 
calm the situation in the Middle East. Likewise, when the tenor and 
content of UN conferences appear to be moving irrevocably towards 
outcomes seriously prejudicial to interests of ourselves and key 
allies, we will not hesitate to disassociate ourselves from such 
results. As much as we might have liked to see through the recent UN 
conference against racism in Durban, South Africa, we felt obliged to 
terminate our involvement when it became clear that the proceedings had 
been overwhelmed by the negative rhetoric of recrimination and hate 
rather than infused, as we had initially hoped, by the constructive 
language of hope and reconciliation. As the Special Session on AIDS 
showed, UN conferences can achieve important, concrete objectives but 
not if every conference becomes a referendum on every controversial 
issue. While in New York I will work hard to keep the UN focussed on 
global needs and achievable results and resist the imposition of 
extremist agendas.
    The United States has always led--and should continue to do so--in 
making the UN a sounder and more effective institution. We remain by 
far the largest financial contributor to the organization. And our 
participation is crucial as the UN develops new capabilities, such as 
civilian police. The U.S. is now the largest provider of such 
``civpol'' resources, with some 785 officers deployed to Bosnia, 
Kosovo, and East Timor. Since 1995 we have provided over $200 million 
for U.S. civilian police.
    Nowhere in recent history has our influence been more important 
than in the effort to support improvements in UN finances and 
management practices. With the momentum provided by Congressionally-
supported targets, the United States in recent years has been able to 
initiate changes in the way the UN does business, helping to place the 
organization on a sounder foundation for the greater responsibilities 
it will face in the 21st Century. Continuing this important work, which 
we have begun together, will be one of my highest priorities. I am 
committed to fully achieving the benchmarks set forth in the Helms-
Biden legislation.
    At the same time, I believe that, as a founding member of the UN 
organization and as a nation which seeks to be a good citizen of this 
world, we should pay our dues in full and in a timely manner. I would 
submit, Mr. Chairman, that resolving the disbursement of the second 
tranche of $582 million in Helms-Biden funds is an especially urgent 
matter. We need to get this done if possible before the upcoming UNGA. 
It is also important that the cap on our peacekeeping contributions be 
lifted, or we will incur even more arrears.
    Mr. Chairman, I would like to say a few additional words about what 
I consider to be our priorities at the United Nations:
    The first is peacekeeping reform. Peacekeeping is arguably the UN's 
most important, complex and often controversial activity. Last year 
significant strides were made in identifying areas for improving the 
UN's Department of Peacekeeping Operations. As a result of U.S. 
efforts, UN management is proposing both institutional changes and 
increased resources for critical areas. It is a good sign that both the 
membership and the Secretariat are now focused on the problem and 
working toward positive solutions.
    Members of the Security Council who in the past have sometimes 
sought to mandate missions with insufficient regard to implementation 
are also now following-up to see how their general instructions are 
being carried out in practice. If I am confirmed as our Ambassador to 
the UN, I will pursue this careful supervision of peacekeeping 
missions. I plan to visit as many of these missions as possible so that 
I can ensure that the funds that the U.S. Congress provides are well 
and effectively used.
    Another priority will be humanitarian response. As Deputy Assistant 
Secretary of State for Southeast Asia in the early '80's, I was 
strongly committed to relief efforts for the thousands of refugees in 
camps in the region. The United States had a central and invaluable 
role in this work, but I also learned then of the importance of 
concerted international action to deal with such massive human 
tragedies, I also gained a profound respect for the work of UN 
humanitarian agencies, especially the UNHCR and the World Food Program, 
other relief organizations such as the Red Cross, and the NGO's 
involved.
    I also plan to keep the spotlight on institutional reform. Clearly 
much has been accomplished in this regard in the past few years, with 
the institutionalizing of the UN's internal oversight body, the 
adoption of results-based budgeting, the recent endorsement by the 
membership of major changes in human resource management and a number 
of other management initiatives. But this is an area that will continue 
to require our constant attention.
    I am mindful of the recent GAO report which concluded that the 
United States is underrepresented in the staffing of UN organizations. 
I assure you that I plan to do my part to redress the imbalance.
    There is a another issue that also needs attention. Over 200 UN 
civilian staff members have lost their lives in the line of duty since 
1992. Some 240 others have been taken hostage or kidnapped. This is an 
unacceptably high level of risk for UN civilian employees. I pledge to 
continue work towards improvements in the security policies and 
practices of the UN organization.
    Before I close, Mr. Chairman, I also would like to address several 
other issues with which the United Nations is dealing and where 
important U.S. concerns are at stake.
    Our long-term efforts to work with other members of the UN to deal 
with the continuing threats posed by Iraq, the Taliban movement in 
Afghanistan, and other violators of international peace and security 
will, I can assure you, continue to be a major focus of our Mission's 
work, if I am confirmed. This holds equally true for the special needs 
of Africa, from stemming the tide of violence to routing the scourge of 
AIDS.
    Mr. Chairman, our involvement in the United Nations cannot prosper 
unless it enjoys broad popular support across the political spectrum, 
both directly from the people through non-governmental organizations, 
such as the United Nations Association of the U.S., and through our 
elected representatives here in Washington. The administration can only 
carry out its programs and achieve its priorities for the UN in the 
closest of partnerships with the Congress. I intend to work closely and 
effectively with this Committee and, indeed, both chambers of Congress. 
Some truly ground-breaking steps were taken and the stage has been set 
to move our collaboration regarding the United Nations to the next 
level. I can only say that I fully appreciate and recognize the 
importance of continuing to collaborate with you as we formulate plans 
and policies towards the United Nations. I hope you will keep your 
doors open to me so I can be a frequent visitor to your offices and to 
this hearing room; and, if confirmed, I extend to you an open 
invitation to visit New York as often as your very busy schedules in 
Washington permit. I can assure you that I will respond to your 
interest in my mission with complete and sincere attention.
    Lastly, let me repeat what I said at the outset of this testimony. 
I fully appreciate the extraordinary importance of the diplomatic 
position to which I have been nominated. If confirmed by the Senate, I 
undertake to do my utmost to uphold the confidence that the President, 
Secretary Powell, and yourselves shall have placed in me.
    Thank you.
                                 ______
                                 

Supplementary Statement by Hon. John D. Negroponte About the Situation 
 in Honduras During His Tenure as Ambassador To Honduras From November 
                            1981 to May 1985

    Mr. Chairman, I have a supplementary statement regarding my past 
service as Ambassador to Honduras in light of questions which have been 
raised about my tenure there.
    First, I wish to affirm that I served honorably and conscientiously 
in Honduras in a manner fully consistent with and faithful to 
applicable laws, policies and professional standards. I was promoted 
very shortly after my service in Honduras and received as an immediate 
onward assignment another presidential appointment as Assistant 
Secretary for Oceans and International Environmental and Scientific 
Affairs.
    Honduras at the time of my tenure as Ambassador was a country 
surrounded by trouble, with ongoing civil turmoil and political 
violence in all three neighboring countries: El Salvador, Guatemala and 
Nicaragua. Comparatively, Honduras enjoyed conditions of relative 
peace. Compared to its neighbors, Honduras was a more democratic 
country. It was in transition from military to civilian rule; there was 
a reasonably strong labor movement; discrepancies in wealth between 
rich and poor were not as great; and there was a free press.
    Yet, there were serious threats to this relative tranquility: 
first, there was a significant build-up in Sandinista military forces 
in neighboring Nicaragua with support from various members of the 
Communist bloc; next there was a deteriorating security situation in El 
Salvador, with Communist FMLN forces supported in part by supplies 
infiltrated from Nicaragua through Honduran territory; third, there was 
a similarly conflictive situation in neighboring Guatemala; and, 
finally, offshoots of the Salvadoran FMLN intermingled with violent 
factions of the Honduran Communist party had begun to carry a number of 
alarming terrorist acts in Honduras. Also, there were close to 100,000 
refugees from El Salvador, Nicaragua and Guatemala encamped on Honduran 
territory. These conditions were evolving against the backdrop of 
serious poverty and underdevelopment which characterized Honduras and 
indeed the entire region at the time. In a worst case scenario, the 
nightmare of Honduran authorities was the prospect of Communist forces 
taking over in both El Salvador and Guatemala in addition to Nicaragua. 
Under such circumstances, the future for Honduras would have been very 
precarious, to say the least.
    Despite this challenging situation, Honduras pressed ahead with its 
transition from military to civilian rule. Elections were held for a 
civilian President in late November 1981, just three weeks after my 
arrival in Tegucigalpa, the first such election in nine years. 
Successful mid-term elections for Congress were held in 1983 and, as I 
was leaving Honduras in May of 1985, a vigorous campaign was underway 
for another presidential election later that year. To Honduras' credit 
there have been five such presidential elections since 1981 and another 
is scheduled just two months from now.
    United States policy in Honduras during that time was to promote 
the return to democracy, which entailed free elections, respect for 
human rights and restoration of the rule of law. This was a 
continuation of the policies in effect well before I arrived there and, 
as a practical matter, I do not believe that the Reagan Administration 
policy with respect to democracy and human rights in Honduras was 
significantly different from that of the previous administration. Time 
and again during that period, in official statements, in policy 
documents and even in my own evaluation reports, the consolidation of 
Honduras' fragile democracy was cited as our number one policy priority 
for that country.
    Now, in pre-hearing questions I was asked what view I held at the 
time of the Honduran Government's human rights record and whether I 
held the same view today. My response was that given the turmoil and 
stresses in Central America during that period, Honduras' record in 
restoring democracy was a positive one. Having said that, I observed 
that in the early 1980's there were deficiencies in the Honduran legal 
system and administration of justice. This situation was compounded by 
inadequate resources and insufficient professionalism on the part of 
Honduran law enforcement authorities. This situation led at times to 
abuses of authority, some of them very serious, by Honduran police 
officials. But I did not believe then, nor do I believe now that these 
abuses were part of a deliberate government policy. I also noted that 
the Honduran press was free to speak out about these matters and did so 
with regularity.
    How extensive were these abuses of authority and what did we do 
about them? Although we did not believe that illegal detention, 
torture, disappearances or assassinations were government policy, the 
Embassy was sufficiently concerned with problems in the administration 
of justice that we submitted a lengthy cable analyzing the Honduran 
criminal justice system within months of my arrival at post. At that 
time, the Embassy concluded that effective and equitable administration 
of criminal justice in Honduras was hampered by an archaic penal code; 
by a complex, ill-trained and overburdened judicial system and by a law 
enforcement system whose members, frustrated by light sentences and 
numerous loopholes, sometimes found it expedient to take extra legal 
means to ensure the punishment of known criminals. In November of 1982, 
one year after my arrival, I specifically raised the issue of what we 
considered to be inadequate judicial procedures and human rights 
violations of suspected terrorists with Honduras' President, Roberto 
Suazo, and the commander of the Honduran armed forces General Gustavo 
Alvarez, and I proposed that they consider an action program to improve 
the judicial system. There were follow-up steps in 1983, which 
ultimately led to revision of the Honduran penal code and establishment 
of a US government-financed administration of justice program. 
Throughout my tenure, the Embassy also maintained contact with local 
human rights groups, government officials responsible for human rights 
policies and families of alleged victims, among others.
    It appears from contemporaneous Embassy reporting, including 
intelligence reports, and the annual human rights reports that abuses 
reached a peak in 1981, with a gradual decline of such occurrences over 
the next three years. This decline would appear to have been due to a 
variety of factors including transition from military to civilian rule, 
an eventually reduced terrorist threat, a change in Honduras' top 
military leadership and efforts to improve the administration of 
justice.
    I think it is important to stress there was no effort on the part 
of myself or others serving the U.S. Government at the time to stifle 
reporting about human rights in Honduras, to cover up any credible 
evidence of human rights abuses which came to our attention, or to 
misrepresent the general picture with respect to the human rights 
situation in the country. Honest people may differ as to how good or 
bad the human rights performance of the Government of Honduras was at 
the time; but our reports and judgments were made in good faith, based 
on circumstances as we understood them and in the context of the 
broader Central American situation.
    Secondly, I think it is fair to say that Honduras' human rights 
record compared favorably with neighboring countries. If there were 100 
to 150 unexplained disappearances in Honduras from 1974 to 1984, I 
would point out that this was the number of disappearances being 
reported each week during the peak of the conflict in El Salvador. My 
understanding is that there was a total of some 50,000 to 75,000 
disappearances in El Salvador during that civil war.
    This is not to excuse any single abuse of a person's rights which 
might have occurred in Honduras. One human rights violation is a 
violation too many. But it does serve to put into perspective the 
relative level of abuse in those two neighboring states.
    Finally, I would urge the Committee not to lose sight of that fact 
that we are talking about facts and circumstances which occurred almost 
20 years ago, in an atmosphere of some considerable tension and 
controversy both here and in Central America. The Embassy's role was to 
carry out a complex and multifaceted policy set by Washington. It would 
be a distortion of reality to judge either events in Honduras or the 
performance of the U.S. mission through the exclusive prism of human 
rights considerations. The fragility of Honduran political and 
governmental institutions; the security concerns; the economic and 
social difficulties; and the threatening regional situation were 
important preoccupations alongside our interest in restoring democracy 
and the rule of law. Just as we did not then have the luxury of 
pursuing one of these interests to the exclusion of all others; it 
would not be right now to revisit events of that period and judge them 
against only one of the many interests we were pursuing, indeed 
instructed to pursue, at the time. I believe these past events must be 
evaluated in light of the very complex reality of that period as well 
as the eventually positive peaceful and democratic outcome in Central 
America.
                                 ______
                                 

 Response of Hon. John D. Negroponte to an Additional Question for the 
                Record Submitted by Senator George Allen

    Question. Earlier this year, Richard Perle, of the American 
Enterprise Institute, and Richard Butler, former U.N. weapons inspector 
in Iraq, both testified before the Senate Armed Services Committee that 
economic sanctions against Iraq are ineffective in limiting Saddam 
Hussein's development of weapons of mass destruction. Secretary Powell 
has acknowledged that innocent Iraqi civilians are being hurt because 
of the sanctions. Also before the Armed Services Committee, Scott 
Ritter, former UNSCOM weapons inspector, stated: ``We're killing 5,000 
kids under the age of five every month [Mr. Ritter is quoting United 
Nations data]. People say Saddam's killing them, but, ultimately, 
sanctions are killing them, and we shouldn't be supportive of something 
that causes innocent people to suffer to such a degree.'' Given this 
evidence, do you support continued economic sanctions against Iraq?
    The U.S./UK effort to revise Iraq sanctions appeared to be a 
retreat, with our side giving up much of the sanctions for little 
apparent gain. Why did we propose this option?

    Answer. Our new approach on Iraq aims to re-focus international 
efforts where they belong: preventing the re-armament of Iraq under 
Saddam Hussein. That means we need controls on a specific set of goods. 
There is no benefit to sanctioning purely civilian trade with the Iraqi 
people.
    We have support in the Security Council for this approach caused by 
a widespread perception that the current system harms the Iraqi people, 
while leaving the regime untouched. For example, four of the five 
permanent members of the Security Council--all but Russia--agreed in 
June on the Goods Review List, a key component of the new approach we 
advocate and an updates to the list of items that must be reviewed 
before export to Iraq is permitted.
    The Russians blocked adoption of the resolution that would have 
begun the process of creating a new system. They did so to protect 
their commercial and political interests in Iraq, as they see them.
    During the next few months, we will maintain the coalition for 
change we have created and look for ways to change Russian perceptions, 
so they will join that coalition, or at least allow the new system to 
come into being. If there is a new system of trade, we expect that it 
would improve the situation of the Iraqi people, while strengthening 
controls on the Iraqi regime. The bilateral effort with the Russians 
will begin this month when senior officials are in New York for the 
opening of the UNGA, and be followed by high level contacts in early 
October.

    Senator Sarbanes. Well, the full statements will be 
included in the record. I think in view of your Honduran 
service as Ambassador, you ought not to feel constrained by 
some time restraint from either delivering or delivering some 
parts of the supplementary statement to your opening statement. 
We can get into all of that in the questioning, but if you want 
to take some extra time right here at the outset in order to 
lay out the statement, I invite you to do so. If not, we will 
proceed to questioning.
    Ambassador Negroponte. Well, I am certainly prepared to 
follow that suggestion, if that is what you would like me to 
do, Senator.
    Senator Helms. I think you should.
    Ambassador Negroponte. Yes, sir.
    As Senator Sarbanes mentioned, I have both a longer 
statement and then I added a supplementary statement concerning 
the situation in Honduras during my tenure.
    Senator Sarbanes. It is not the opening longer statement. I 
think we have that. It is the supplement. The reason that you 
are almost 4 months before the hearing was of course the effort 
on the part of the committee to get the classified material 
from the CIA and from the Department of State involving the 
Honduran situation. So that is what I think you want to address 
and, since you have the supplementary statement, I think you 
ought to proceed to take what time you need in order to lay 
that out.
    Ambassador Negroponte. Yes, sir. Thank you.
    First of all, as you noted, Senator, I think that from the 
point of view of the State Department we have responded 
promptly, as promptly as we possibly could, to virtually every 
request that was made of us. We usually had a 24-hour 
turnaround in response to all your requests, and I grew to 
respect enormously the people who manage the records in the 
Department and their ability to be so promptly responsive to 
our many requests.
    Perhaps I could--let me start by repeating what I said 
earlier. I believe that I served honorably and conscientiously 
in Honduras. Honduras at the time of my tenure as Ambassador 
was a country surrounded by trouble, with ongoing civil turmoil 
and political violence in all three neighboring countries: El 
Salvador, Guatemala, and Nicaragua. Comparatively, Honduras 
enjoyed conditions of relative peace. Compared to its 
neighbors, Honduras was a more democratic country and it was in 
transition from military to civilian rule. There was a 
reasonably strong labor movement and discrepancies in wealth 
between rich and poor were not as great and there was a free 
press.
    Yet there were serious threats to this relative 
tranquility. First, there was a significant buildup in 
Sandinista military forces in neighboring Nicaragua, with 
support from various members of the Communist bloc. Next, there 
was a deteriorating security situation in El Salvador, with 
Communist FMLN forces supported in part by supplies infiltrated 
from Nicaragua through Honduras. Third, there was a similarly 
conflicting situation in neighboring Guatemala. Finally, 
offshoots of the Salvadoran guerrillas intermingled with 
violent factions of the Honduran Communist party had begun to 
carry out a number of alarming terrorist acts in Honduras.
    Also, there were close to 100,000 refugees from El 
Salvador, Nicaragua, and Guatemala encamped on Honduran 
territory, and I think that is an interesting statement about 
Honduras at the time, the fact that refugees from the 
neighboring countries--El Salvador, Guatemala, and Nicaragua--
were fleeing to Honduras. People were not fleeing Honduras to 
other countries, and I think it says something about the 
relative political climate and atmosphere in the respective 
countries.
    These conditions were evolving against the backdrop of 
serious poverty and underdevelopment which characterized 
Honduras and indeed the entire region at the time. I think from 
the perspective of Honduras or for Honduran authorities in a 
worst case scenario their nightmare was the prospect of 
Communist forces taking over both in El Salvador and Guatemala 
in addition to Nicaragua.
    Under such circumstances, the future for Honduras would 
have been very precarious, to say the least. Despite this 
challenging situation, Honduras pressed ahead with its 
transition from military to civilian rule. Elections for a 
civilian President in late November 1981, just 3 weeks after my 
arrival in Tegucigalpa, the first such election in 9 years; 
successful midterm elections for Congress were held in 1983; 
and as I was leaving Honduras in 1985, preparations were being 
made for a Presidential election later that year.
    I think, to Honduras' credit, there have been five such 
Presidential elections since 1981 and another is scheduled just 
2 months from now.
    The United States policy during that time was to promote 
the return to democracy, which entailed free elections, respect 
for human rights, and restoration of rule of law. This was a 
continuation of the policies in effect well before I arrived 
there and as a practical matter I do not believe that the 
Reagan administration policy with respect to democracy and 
human rights in Honduras was significantly different from that 
of the previous administration.
    Time and again during that period, in official statements, 
in policy documents, and even in my own evaluation reports, the 
consolidation of Honduras' fragile democracy was cited as our 
No. 1 policy priority for that country.
    Now, in prehearing questions I was asked what view I held 
at the time of the Honduran Government's human rights record 
and whether I held the same view today. My response was that, 
given the turmoil and stresses in Central America during that 
period, Honduras' record in restoring democracy was a positive 
one.
    Having said that, I observed that in the early 1980's there 
were deficiencies in the Honduran legal system and in the 
administration of justice. This situation was compounded by 
inadequate resources and insufficient professionalism on the 
part of Honduran law enforcement authorities. This situation 
led at times to abuses of authority, some of them very serious, 
by Honduran police officials.
    But I did not believe then, nor do I believe now, that 
these abuses were a part of a deliberate government policy. I 
also noted that the Honduran press was free to speak about 
these matters and did so with regularity.
    How extensive were these abuses of authority and what did 
we do about them? Although we did not believe that illegal 
detention, torture, disappearances, or assassinations were 
government policy, the Embassy was sufficiently concerned with 
problems in the administration of justice that we submitted a 
lengthy cable analyzing the Honduran criminal justice system 
within months of my arrival at post. At the time the Embassy 
concluded that effective and equitable administration of 
criminal justice in Honduras was hampered by an archaic penal 
code, by a complex, ill-trained and overburdened judicial 
system, and by a law enforcement system whose members, 
frustrated by light sentences and numerous loopholes, sometimes 
found it expedient to take extralegal means to ensure the 
punishment of known criminals.
    In November 1982, one year after my arrival, I specifically 
raised the issue of what we considered to be inadequate 
judicial procedures and human rights violations of suspected 
terrorists with Honduras' President Roberto Suazo and with the 
commander of the Honduran Armed Forces, General Gustavo 
Alvarez, and I proposed that they consider an action program to 
improve the judicial system.
    There were followup steps in 1983 which ultimately led to 
the revision of the Honduran penal code and establishment of a 
U.S. Government-financed administration of justice program. 
Throughout my tenure, the Embassy also maintained contact with 
local human rights groups, government officials responsible for 
human rights policies, and families of alleged victims, among 
others.
    It appears from contemporaneous Embassy reporting, 
including intelligence reports and the annual human rights 
reports, that abuses reached a peak in 1981, with a gradual 
decline of such occurrences over the next 3 years. This decline 
would have appeared to have been due to a variety of factors, 
including transition from military to civilian rule, an 
eventually reduced terrorist threat, a change in Honduras' top 
military leadership, and efforts to improve the administration 
of justice.
    I think it is important to stress that there was no effort 
on the part of myself or others serving the U.S. Government at 
the time to stifle reporting about human rights in Honduras, to 
cover up any credible evidence of human rights abuses which 
came to our attention, or to misrepresent the general picture 
with respect to the human rights situation in that country.
    Honest people may differ as to how good or bad the human 
rights performance of the Government of Honduras was at the 
time. But our reports and judgments were made in good faith, 
based on circumstances as we understood them and in the context 
of the broader Central American situation.
    Second, I think it is fair to say that Honduras' human 
rights record compared favorably with neighboring countries. If 
there were 100 to 150 unexplained disappearances in Honduras 
from 1974 to 1984, I would point out that this was the number 
of disappearances being reported each week during the peak of 
the conflict in El Salvador. My understanding is that there was 
a total of some 50,000 to 75,000 disappearances in El Salvador 
during the civil war in that country.
    Now, this is not to excuse any single abuse of a person's 
rights which might have occurred in Honduras. One human rights 
violation is a violation too many. But it does serve, I 
believe, to put into perspective the relative level of abuse in 
these two neighboring states.
    Finally, I would urge the committee not to lose sight of 
the fact that we are talking about facts and circumstances 
which occurred almost 20 years ago, in an atmosphere of some 
considerable tension and controversy both here and in Central 
America. The Embassy's role was to carry out a complex and 
multifaceted policy set by Washington. It would be a distortion 
of reality to judge either events in Honduras or the 
performance of the U.S. mission there through the exclusive 
prism of human rights considerations. The fragility of the 
Honduran political and governmental institutions, the security 
concerns, the economic and social difficulties, and the 
threatening regional situation were important preoccupations 
alongside our interest in restoring democracy and the rule of 
law.
    Just as we did not then have the luxury of pursuing one of 
these interests to the exclusion of all others, it would not be 
right now to revisit events of that period and judge them 
against only one of the many interests we were pursuing, indeed 
instructed to pursue, at the time.
    I believe these past events must be evaluated in the light 
of the very complex reality of that period, as well as the 
eventually positive peaceful and democratic outcome in Central 
America.
    Thank you.
    Senator Sarbanes. Well, thank you very much, Mr. 
Ambassador. I think it was important to lay that statement out 
on the record.
    I will start off the questioning and we will proceed 
through the committee.
    Senator Helms. On what time limitation? Would 7 minutes be 
all right? We have a number of people here.
    Senator Sarbanes. Well, we will do 7 minutes, as the 
ranking member suggests, but of course with the opportunity for 
a second round if members so wish, because, as the Senator 
notes, we have got quite a number of members here. Is that 
generally acceptable, members of the committee?
    I will begin my 7 minutes.
    Senator Boxer. Mr. Chairman, can I just ask you and our 
ranking member, assuming we have to break for what I consider 
to be a very essential meeting at 12:30, we are going to come 
back to continue the questioning?
    Senator Sarbanes. My understanding is that Chairman Biden 
intends for the hearing to go as long as necessary in order for 
members to have the opportunity to ask their questions.
    Senator Helms. That is the general policy.
    Senator Boxer. So we are not going to break?
    Senator Sarbanes. No, not now. Presumably we will break and 
return.
    Senator Boxer. Fine. Thank you.
    Senator Sarbanes. As I understand it, that is a joint 
meeting of all members, so I would expect that at some point we 
would break for that and then come back.
    Senator Helms is making the point, harkening back to his 
early experience. So we are going to try to move along so 
everyone gets an opportunity.
    The New York Times has an editorial about this nomination 
headed ``Questions About John Negroponte.'' The Los Angeles 
Times has an editorial headed ``Knowing Negroponte's Role.'' Of 
course, the Baltimore Sun--and I intend to, obviously, address 
this--had a four-part series back in 1995 concerning the 
situation in Honduras, and I will obviously have some questions 
coming out of that series of articles.
    Let me observe that as a consequence of the committee's 
efforts considerable material has been obtained from the 
Central Intelligence Agency and from the State Department. Much 
of it has been declassified and it will be placed in the 
record, so it will become available publicly and therefore is 
out for general consumption and also provides an opportunity 
for people to review it themselves as they confront some of 
these questions and draw their own conclusions.
    Senator Helms. Would the Senator yield?
    Senator Sarbanes. Yes.
    Senator Helms. Does this item indicate or imply that there 
was any wrongdoing by the nominee?
    Senator Sarbanes. Which item now are you referring to?
    Senator Helms. The item you referred to.
    Senator Sarbanes. These articles make some serious 
allegations, which I expect to give the nominee an opportunity 
to respond to here this morning--the newspaper articles--with 
which I am sure he is familiar.
    Senator Helms. One further question.
    Has the committee staff already questioned you on this 
article, sir?
    Ambassador Negroponte. I had a 3-hour session with the 
committee staff and they covered an entire range of questions 
concerning my role in Honduras, and I believe that that was a 
very satisfactory meeting.
    Senator Helms. Well, Mr. Chairman, I do not want to 
infringe on your time, but I want to make sure that this 
nominee is not subjected to implicit charges in his role as 
Ambassador, unless we are going to do that for the Ambassadors 
to the Soviet Union during a difficult time and that sort of 
thing. I know this Ambassador as a friend and as an honorable 
man and I just do not want the implication to be in the media 
that this Senator thinks there is anything wrong with his 
character.
    Senator Sarbanes. I do not think asking the nominee about 
serious allegations that have been made with respect to his 
tenure as Ambassador in Honduras carries with it that 
implication. But I do think, since these allegations are out in 
the public forum--actually, we have been hearing from a number 
of people about them--may give you a flavor of the kind of 
communications we are receiving. I think it is incumbent that 
we hear from the nominee in response to them. That is one of 
the reasons I wanted him to read his supplementary statement, 
so he had an opportunity to lay out on the record his 
considered evaluation of the situation.
    The Baltimore Sun in the summer of 1995 wrote a four-part 
series which initially focused on the existence of this 
Battalion 316 within the Honduras military, allegedly trained 
and supported by the Central Intelligence Agency. Actually, I 
think material has shown that there was a connection. Were you 
aware of this, of the existence of this battalion, when you 
went down there as Ambassador?
    Ambassador Negroponte. Senator, as I responded in a written 
question with regard to the so-called Battalion 316, my first 
awareness of the existence of the battalion by that name--and 
we can get into this because I am not trying to be fancy with 
my use of words here now. But my first awareness was when James 
LeMoyne of the New York Times was doing a story on human rights 
in Honduras in 1988 and I was asked at that time--I was the 
Deputy National Security Adviser and I was asked if I would 
talk to Mr. LeMoyne.
    I did not speak to him directly, although I answered some 
questions through the National Security Council spokesperson. 
But I asked the CIA about Battalion 316 and was given a 
memorandum by the Agency at that time which advised me that 
that battalion was created in the beginning of 1984, either 
late 1983 or the beginning of 1984, which is well into my 
tenure in Honduras, and that to the best of the Agency's 
knowledge at that time there had been no substantiation of any 
human rights, systemic human rights violations, being carried 
out by that unit.
    Now, it is a little bit complicated and confusing because I 
think the term ``316th'' has become a kind of surrogate or 
proxy that a lot of people use to refer to human rights 
violations that they ascribe to Honduran Government authorities 
during the 1980's. There was--and my belief is that, to the 
extent these violations were being carried out, they were being 
carried out by the Honduran national police. I believe that 
they were the principal source of these kinds of violations.
    The thing is that some people viewed the 316th as a 
successor to one part of the Honduran police force and have 
subsequently ascribed violations to the 316th.
    But we did a search of all the cables that were written 
during the time that I was Ambassador to Honduras, from 1981 to 
1985, and we could not find any references to the 316th 
Battalion. We have actually looked at the intelligence 
reporting from that period and if you look at the specific 
intelligence reports, and there are not that many, but where 
there is information about a possible violation of human rights 
by the Honduran authorities, they are not ascribed to the 316th 
Battalion.
    Senator Sarbanes. Now, Alvarez was the commander of the 
national police force, was he not?
    Ambassador Negroponte. Correct, he was commander of the 
police force in 1980, from 1980 to early 1982.
    Senator Sarbanes. Was it the view of the Embassy that the 
police force was engaged in human rights violations?
    Ambassador Negroponte. I believe I have commented in my 
replies to questions that, to the extent that violations were 
committed, I think that the principal perpetrators of these 
violations were the national police. In my statement I try to 
explain why I think it is that these violations were carried 
out.
    I think our human rights reporting during the period, while 
perhaps not as detailed or as explicit as contemporaneous human 
rights reports might be--now, I am talking about the public, 
published human rights submission that is submitted to the 
Congress every year--might not have been as explicit as such 
reporting would be today. We make reference to arbitrary 
arrests, detentions, and even credible allegations of 
disappearances.
    Senator Sarbanes. Well, now that you have moved into that 
area, let me then ask a question in that regard. It is asserted 
in some of these articles and by others that the Embassy did 
not fully report the human rights violations that were taking 
place, that there was a mismatch between what was happening on 
the ground--and of course, this assertion assumes that as 
Ambassador you were aware of what was happening.
    There are two questions: One, whether you were aware of 
what was happening; and two, if so, was there a mismatch in the 
reporting in that a much more cleansed or favorable picture was 
presented of the situation in Honduras than was actually the 
case? Could you address those issues?
    Ambassador Negroponte. I think first of all perhaps I need 
to address it in terms of what the sources of our information 
were, Senator. I would say that, first of all, we had a 
political officer in the Embassy, or political officers, who 
were responsible for monitoring the political situation, 
including human rights, in that country.
    We had contacts, as I mentioned in my statement, with local 
groups that followed the human rights situation. We had some, 
but not extensive, intelligence reporting on that subject, not 
because of neglect or intentional neglect, but just because 
that was not one of the intelligence reporting priorities.
    But I guess the point I would make is--and of course there 
was press reporting. As I said earlier, the Honduran press was 
relatively free and robust and free to report on allegations of 
violations.
    But if you are talking about evidence or hard information, 
I think that was not that easy to come by. In other words, we 
had a general sense of how things--what was occurring, and in 
some specific cases we had more detailed information. But it is 
not as if we had large-scale reporting and evidence and 
information with respect to the extent of these, of such 
violations as might have occurred.
    Now, as far as whether we soft-pedaled or tried to obscure 
or restrain or stifle reporting of that kind, I do not believe 
we did that. I think the record of our reporting, the 
classified reporting much of which has come to the attention of 
the committee staff, will show that there were a number of 
instances where we either raised human rights, allegations of 
human rights violations, with the highest authorities in the 
country--the President, the commander in chief, and others--and 
where we expressed concern, not only about general policy 
issues such as the administration of justice, but there were 
times that we got into specific cases.
    Senator Sarbanes. Mr. Chairman, my time has expired. Thank 
you.
    The Chairman. Thank you. Again, I apologize for having to 
leave. I am told there is a joint caucus lunch, Democrats and 
Republicans, to discuss an important matter, that begins at 
12:30. My guess is we can trespass beyond 12:30 a little bit 
because people will be actually eating lunch, but at some point 
I suspect we are all going to be wanting to be at that joint 
lunch. So I just put us on notice we will probably have to go 
over into the afternoon here, which I thought we might have to 
anyway. But just to let everybody know.
    Senator Helms.
    Senator Helms. Mr. Chairman, we missed you. It must have 
been some conversation.
    The Chairman. Well, it was a conversation and then I had a 
conversation with Senator Hatch, and I used to be chairman of 
that committee and as I sat down as he accepted by voice vote 
an amendment I had he got up and left, and all of a sudden I 
was the chairman. I did not anticipate that happening. I 
apologize.
    Senator Helms. Before I do anything else, I want to thank 
you for making clear before you left the content of your book 
of documents. I think it is important to make clear for the 
record that the CIA did not prepare that information. Your use 
of the word ``stipulation,'' someone called my attention that 
this is not a courtroom and I think you want to change that.
    The Chairman. Just for the record, Mr. Chairman, no 
disagreement: The CIA suggested the word ``stipulation.'' That 
is how they wanted to handle this.
    Senator Helms. It makes no difference. We are still not a 
court. I do not care what the CIA says.
    The Chairman. No, I just want you to know I did not make up 
the word.
    Senator Helms. I am not fussing at you.
    Mr. Ambassador, I want to call you that. I have the 
pleasure of calling you that. The United Nations has among its 
members in good standing a number of nations which the State 
Department has designated as sponsors of terrorism. Is it your 
impression that the United Nations treats these pariahs as 
normal members of the world community?
    The second question: Must not the nations of the civilized 
world formally shun terrorist nations which do not belong to 
sit among them at the U.N.?
    Three, what do you propose to do, sir, to ostracize and 
punish those nations which direct or subsidize or harbor 
terrorists when you are confirmed?
    Ambassador Negroponte. Well, Senator, in reply to your 
first question, of course the United Nations has taken specific 
actions. There are Security Council resolutions against certain 
countries, such as the Taliban or Iraq, with respect to various 
violations of international law and threats to the 
international peace that they have undertaken. So I think that, 
especially in the current atmosphere, I think you are going to 
see great attention to that issue at the United Nations, just 
as we have elsewhere.
    I think this is a good point at which to mention that 
yesterday both the Security Council and the General Assembly 
passed resolutions condemning international terrorism. It was 
the first resolution passed by the 56th General Assembly, which 
met for the first time yesterday. So the U.N. added its voice 
to those, to the voices already expressed by NATO, the European 
Union, the OAS, and other international organizations.
    So I think in the tragic and difficult circumstances of the 
moment, I think we can expect the United Nations to play--we 
can hope and expect that it will play its part in helping to 
confront this situation. I am sure, as far as specific steps to 
ostracize countries further with respect to the response to the 
current situation, I think we have got to wait a little bit to 
see how things unfold.
    But my sense of the situation in the State Department and 
the priorities of the President and of Secretary Powell is that 
there is no higher priority at the moment diplomatically than 
to build a strong international, global coalition to combat the 
scourge of terrorism.
    Senator Helms. The chairman, bless his heart, referred to--
well, I think it was Senator Sarbanes who referred to a series 
of four articles. I think to balance that I have in hand 
letters from four people who served with you when you were 
Ambassador at the Embassy in Honduras in the 1980's, including 
Shepard Lowman--do you remember him?
    Ambassador Negroponte. Sir, he was my Deputy Chief of 
Mission. Yes, sir. He is in this hearing room.
    Senator Helms. And Theodore Wilkinson. He was your 
Political Counselor or something like that?
    Ambassador Negroponte. Yes.
    Senator Helms. And Sarah Horsey, she was the Consul 
General, I believe; and another government official at the 
time.
    Anyway, these letters correct impressions left by the 
press, the liberal news media--and I classify a lot of them as 
that because that is what they are. They correct the 
misimpression left by those people and redacted versions of 
government reports that Ambassador Negroponte of limited human 
rights reporting.
    The first one was Shepard Lowman, who wrote to the New York 
Times, and so forth. These four people wrote letters to the 
editor specifying the true details as they knew them when it 
happened and when the publication of the story occurred. I ask 
unanimous consent that these be made a part of the record.
    The Chairman. Without objection, they will be.
    [The material referred to follows:]

                                         Shepard C. Lowman,
                                        Fairfax, VA, June 19, 2001.

Letters to the Editor
New York Times (fax)

Subject: John Negroponte

    Dear Sirs:

    Marc Lacey's June 14 article regarding John Negroponte's nomination 
to be Ambassador to the United Nations raises the question of whether 
or not Ambassador Negroponte ``turned a blind eye'' to human rights 
abuses by the Honduran military and police officials during his three-
and-a-half year tenure as Ambassador in Honduras. As Deputy Chief of 
Mission in Tegucigalpa during most of that period, I was aware of no 
credible report of such abuses, which was suppressed. Indeed, the extra 
judicial treatment of Honduran detainees became the subject of 
discussion between the Ambassador and both the President of Honduras 
and the commander of its military forces.
    Mark Lacey speaks of Central America as ``ground zero in the cold 
war'' during the time that Negroponte served in Tegucigalpa. He then 
notes as open questions, ``whether he (Negroponte) was so determined to 
carry out United States policy that he turned a blind eye to human 
rights abuses in the region.'' Laceys piece and other press comment on 
this issue implies that the United States' goal was to defeat the 
Sandinistas in Nicaragua and put down the revolution in El Salvador 
regardless of the cost in Honduras. This is not the framework in which 
the Embassy in Honduras viewed United States policy or its job!
    Of course, we valued Honduran cooperation on a wide range of 
measures, which the United States took to deal with the conflict in 
Central America. But, of equal importance in our view was the 
strengthening and consolidation of the democratic process in Honduras 
itself. If we failed in this task, rather than helping to win the 
``cold war'' in Central America, we would have stood by and watched the 
creation of another cancer in the Central American body politic. John 
Negroponte, a decent and deeply moral man, understood this very well.
    And example: In 1981, Honduras had its first open and free 
presidential election in many years. As his term progressed, it became 
obvious that President Suazo desired a second term of office despite a 
constitutional limitation of the President to only one four-year term. 
Despite the importance of the President's cooperation on other issues, 
the Embassy made it privately but widely known that the United States 
would be much disturbed by any departure from the constitutional 
process.
    Another: An important source of support to Honduras was from 
Economic Support Funds (ESF). These were basically budget support funds 
rather than being designated for a specific project. However, they came 
with certain conditions as to the economic performance of the recipient 
country. In 1984, the Ambassador asked me to chair the U.S. side at 
negotiations on conditions for the disbursement of $147 million in ESF 
funds, mostly economic reform conditions recommended by the IMF and 
resisted as politically difficult by the government. These discussions 
did not center on how much should the United States pay for Honduran 
cooperation on other issues? Rather, the question was how much 
political pain could the Honduran government be required to accept in 
implementing such economic reform measures before the process of 
democratization was placed in jeopardy? I never had it suggested to me 
that any other criteria should govern my negotiations.
    Finally, Negroponte recognized the need for institutional reform to 
underpin the growing constitutional system in Honduras. Thus, in 
addition to responding to individual human rights abuses, the Embassy 
strongly welcomed and pressed for the implementation of a program to 
assist in remedying recognized deficiencies in the administration at 
justice in Honduras.
    I first worked closely with John Negroponte when, as Deputy 
Assistant Secretary in State's refugee bureau, I was charged with 
implementing the Indochinese refugee program and Negroponte was 
responsible for Southeast Asia in the East Asia bureau. He was 
immensely helpful in this role and will bring great compassion and 
activism to the seemingly endless string of complex humanitarian 
emergencies with which our government has had to deal in recent years. 
His service as Assistant Secretary for Oceans, International 
Environmental and Scientific Affairs prepare him to deal with the many 
environmental issues that will face the international community. And, 
he brings very effective, low-key diplomatic skills to the job, which 
will serve our country well. He will make a fine Ambassador to the 
United Nations.
                                 ______
                                 
                                     Theodore S. Wilkinson,
                                     Washington, DC, June 18, 2001.

Senator Jesse Helms
Ranking Minority Member, Senate Foreign Relations Committee,
450 Dirksen Senate Office Building,
Washington, DC.

    Dear Senator Helms:

    As a former president of the American Foreign Service Association 
(AFSA), a current member-elect of AFSA's governing board representing 
retired members, and a close associate of Ambassador John Negroponte's. 
I'm writing to urge swift and favorable Foreign Relations Committee 
action on his nomination.
    I'm sending you this letter for three reasons. One is that our 
country urgently needs a Bush adminstration permanent representative at 
the UN in New York. The reasons have been rehearsed at length in the 
press and I need not recite them here.
    The second is that Ambassador Negroponte is a gifted diplomat who 
is right for the job. As a veteran myself of three years service in the 
US mission in New York, I know first-hand what the demands on our 
principal UN representative are. He must be an untiring and articulate 
team-builder, capable of sorting out political priorities from among 
the many competing demands from all branches and agencies in 
Washington. Negroponte's track record in Honduras, Mexico, and the 
Philippines shows that he has succeeded with similar challenges 
elsewhere.
    The third reason--and the one that I'm perhaps best qualified to 
comment on--is that the questions that have been raised about his 
peformance in Honduras are unwarranted. I served as political counselor 
with him in Honduras beginning in 1984, after a first tour in Mexico 
City explaining Mexican reservations about our Central American 
policies in reports to Washington (to the point where I'm told some 
people at home wondered whose side I was on!) Ambassador Negroponte not 
only accepted me as a senior officer on his team, but welcomed me as 
someone he could count on to express an independent point of view. This 
relationship of mutual respect continued through my next two Foreign 
Service tours, when I served as an office director with him in the OES 
Bureau in State, and as his minister-counselor for political affairs in 
Mexico City in 1991-92. I know John Negroponte very well, and the idea 
that he suppressed information or created a climate for suppression of 
information, as alleged in some news accounts, does not square with my 
experience with him.
    In particular, I'd like to comment on the human rights reports that 
I had primary responsibility for submitting to Washington for final 
review during my tour in Honduras (1984-86). Admittedly these were 
toward the end of Ambassador Negroponte's 1981-85 tenure there, but the 
first one was approved by Ambassador Negroponte and cannot be said to 
pull any punches about reports of human rights violations. There are 
references throughout to disappearances of political activists, 
arbitrary arrests, and torture. Perhaps most important is a statement 
in the introduction that ``President Suazo Cordova sent a letter to the 
Chief of the Armed Forces in which he sought to underscore a national 
policy with respect to the observance of human rights.'' This letter 
resulted from repeated urgings from Ambassador Negroponte, who can 
hardly be said to have been ``insensitive'' to the human rights 
violations of the Honduran armed forces.
    I hope that the committee will take these points in consideration 
along with what I'm sure will be many other expressions of support for 
Ambassador Negroponte's nomination to USUN.
            Sincerely,
                                     Theodore S. Wilkinson.
                                 ______
                                 
                                           Sarah R. Horsey,
                                     Washington, DC, June 18, 2001.
Honorable Jesse Helms
Committee on Foreign Relations,
United States Senate,
Washington, DC.

    Dear Senator Helms:

    Regarding the nomination of John Negroponte as U.S. Ambassador to 
the United Nations, I enclose correspondence with the Los Angeles Times 
on recent articles they published about the death in the early 1980s in 
Honduras of Father James Carney and the allegations of shortcomings 
with regard to the Embassy's inquiry into his death. As the Embassy 
officer most responsible for discovering what had happened to Father 
Carney, I was dismayed by the lack of balance in the L.A. Times 
reporting. I continue to believe that Father Carney died of exposure in 
the jungle as did many of those in the guerrilla column he was with, 
and that the Embassy did everything we could to help Carney's family 
determine the circumstances of his death.
                           Sarah R. Horsey, Consul General,
                              American Embassy Honduras, 1981-1984.

    [Enclosures:] Letters of May 23, 2001 to Editor and Ombudsman of 
the L.A. Times.

Letter to the Ombudsman--Los Angeles Times, May 23, 2001 (fax)

Subject: Ambassador Negroponte's nomination

    The Los Angeles Times recent articles about John Negroponte's role 
as US Ambassador to Honduras in the early 1980's and his role in the 
death and subsequent investigation thereof of American citizen James 
Carney seem intent on provoking controversy for its own sake rather 
than informing the public. As the US Consul General in Honduras at that 
time I was responsible for welfare and whereabouts issues involving 
Americans and therefore the Father Carney case. Having personally led 
the US government effort to establish what had become of him at 
Ambassador Negroponte's direction, I am dismayed at the smearing of the 
Ambassador's reputation and by inference my own.
    The Embassy heard about the participation of an American citizen in 
a column of guerrillas infiltrating Honduras from Nicaragua in late 
September 1983. Ambassador Negroponte immediately instructed me to look 
into the matter and find out everything I could about what had happened 
to Father Carney. I spent virtually all my time on this matter for 
weeks thereafter and intermittently until I left Honduras in the summer 
of 1984. I tried to track down all leads from whatever source--the 
surviving guerrillas, Honduran officials, private persons--even 
arranging for a trip by an Honduran Army helicopter to escort family 
members to the remote triple canopy jungle region in which he 
presumably perished. This gave me a firsthand appreciation of how even 
more physically fit and younger men than Carney (almost 60 at that 
time) died in the face of such difficult terrain and lack of food.
    In 1983 The L.A. Times publisher commended the effectiveness of the 
Embassy resources brought to bear in the expeditious and professional 
handling of the investigation of the death in Honduras and the return 
of the remains to the USA of one of its own journalists, Dial Torgeson, 
in May 1983. It is ironic that, in 2001, The L.A. Times chose not to 
mention the far more time consuming effort applied to the Carney case, 
just months later, by the same officers, including Ambassador 
Negroponte and myself, and despite an extended interview I had with a 
L.A. Times reporter regarding our efforts on the Carney case. The L.A. 
Times' reputation for objective reporting would have been better served 
by some acknowledgement of the facts as we in the US Embassy understood 
them and of the fact that participation in a war, whether as an 
observer (Torgeson) or as a participant (Carney) is dangerous. It is 
even more disturbing to ponder whether the L.A. Times' new editor, John 
Carroll, recently transferred from his position as editor at The 
Baltimore Sun, is continuing the Sun's penchant for taking liberties 
with reporting the facts surrounding US actions in Honduras in the 
early 1980's.
                                           Sarah R. Horsey,
                                    Foreign Service Officer (ret.).
                          U.S. Consul General, Honduras, 1981-1984.

Letter to the Editor of the Los Angeles Times, May 23, 2001 (fax)

Ambassador Negroponte's Nomination

    Joseph Mulligan's article ``What Did Negroponte Hide and When Did 
He Hide It?'' carries a lot of innuendo, but few facts and little 
logic. In his comments on the death of Father Carney, the innuendo 
comes from a distortion of the facts. Father Carney did not merely 
``come to Honduras as a chaplain to a revolutionary group.'' Rather, 
Father Carney clandestinely infiltrated Honduras from Sandinista 
Nicaragua with a column of about one hundred armed guerrillas who had 
had training in Cuba. Their mission was to bring armed revolution to 
Honduras. The group was not captured and ``disappeared'' by the 
Honduran army, as Mulligan writes. Rather, about 50 of the group, 
probably including Father Carney, died of hunger and exposure in the 
jungle. Those who died from exposure were younger than Carney (almost 
60) and physically fit Honduran peasants. In fact, the existence of the 
guerrilla column was made known to the Hondurans only when a couple of 
the starving guerrillas turned themselves in at an army outpost. 
Another 25 of the group died in firefights with the Honduran army, and 
at least 20 were captured and later released.
    As Consul General in the Embassy at that time, I was instructed by 
Amb. Negroponte to assist the Carney family in finding out what had 
happened to Father Carney, and if possible, to recover his body. The 
Honduran army cooperated with the family and even made a helicopter 
available to the family for a search of the jungle in a remote area of 
Honduras. We were never able to find anything that would have 
constituted concrete evidence that the Hondurans had captured or killed 
Carney. And what would have been the point? Why would the Hondurans 
have killed an American priest who would have been captured while 
hobbling around in the jungle on a bad knee? About 20 of the young 
guerrillas who surrendered to the Honduran army survived their capture, 
why not Carney? To this day I am convinced that Father Carney perished 
in the jungle. The Ambassador and his Embassy did all it could to find 
out what Carney's fate had been. The Hondurans cooperated, despite 
Carney's demonstrated hostility to their government Father Carney 
likely died in the jungle with dozens of others because he thought he 
was advancing the cause of social justice. That legacy should be 
sufficient. It does not honor that legacy by using innuendo now to 
smear an Ambassador who aided Carney's family in their search for his 
body and the facts surrounding his death.
                                           Sarah R. Horsey,
                                    Foreign Service Officer (ret.),
                          U.S. Consul General, Honduras, 1981-1984.
                                 ______
                                 
                                                --  --  --,
                                         Reston, VA, July 12, 2001.

The Honorable Jesse A. Helms
Committee on Foreign Relations,
United States Senate,
Washington, DC.

    Dear Senator Helms:

    I am writing to you regarding the CIA Inspector General's Report of 
Investigation dated August 27, 1997, entitled ``Selected Issues 
Relating to CIA Activities in Honduras in the 1980's,'' which was 
released in unclassified redacted form in September 1998, and which has 
been raised in connection with the current nomination of Ambassador 
John D. Negroponte.
    As the source of much of the information cited in pages 123 to 126 
in the IG report, and as an employee of our Embassy in Tegucigalpa at 
the time, I wish to state most emphatically that certain of the IG's 
conclusions on page 126 of the redacted report are not accurate. In 
particular, the IG's conclusion in paragraph 364, page 116, of the 
redacted report that any discouragement of follow-up on the information 
in an Army Operations Group (AOG) intelligence report drafted in 1983 
was ``based on the Ambassador's reported concerns'' is categorically 
false. The Ambassador had no role whatsoever in the concerns I had and 
continue to have with the AOG report in question, as well as with 
subsequent AOG dealings with the same source, which revolved entirely 
around the credibility of the source and are outlined in paragraph 355, 
page 123, of the redacted IG report. The IG's conclusion on this point 
is not supported by his own report.
    I also wish to specifically reaffirm a point which was deleted from 
page 123 of the redacted IG report: namely that I have no recollection 
of ever having discussed the 1983 draft AOG report with Ambassador 
Negroponte. Furthermore, I am not aware of any instance in which 
Ambassador Negroponte ever sought to suppress or otherwise restrain 
intelligence reporting on the human rights situation in Honduras, or on 
any other subject. My own attitudes with regard to the draft AOG report 
were based entirely on the intelligence merits and not on any 
extraneous political considerations. I should also point out that even 
in the hypothetical case that Ambassador Negroponte or anyone else in 
Tegucigalpa had wished to suppress the AOG report, it would not have 
been possible, because we only had authority to comment on the 
information or make recommendations regarding dissemination to the 
report's originating office in Washington, which made the ultimate 
determination regarding handling of the report. This standard 
procedural fact was well known to Ambassador Negroponte given his 
standing as a widely experienced professional Foreign Service officer.
    If it would be of assistance to the Committee, I am prepared to 
discuss this matter further with Committee Staff. I was certainly 
troubled by the wording of the IG conclusion cited above when I was 
first shown it, several months after the report was originally 
published. While IG practice at the time was to provide those 
interviewed an opportunity to verify the accuracy of statements 
attributed to them in the texts of reports in advance of text 
publication, they did NOT provide individuals with an opportunity to 
know of or refute IG conclusions about them in advance of their 
publication. I very much regret now that I did not find a way to 
formally take issue with the passages I found objectionable, even when 
learning of them several months after the fact. Of course, I could not 
have foreseen that this classified internal report about the CIA's 
activities in Honduras in the 1980's might have a bearing on Ambassador 
Negroponte's nomination to the UN in 2001.
    In closing, let me say that in all my contacts with Ambassador 
Negroponte, I have found him to be what one would wish all our Foreign 
Service officers to be: an extremely competent and knowledgeable 
professional, an able and inspirational leader, and both compassionate 
and gentlemanly in his dealings with people. Serving under his 
leadership was one of the highlights of my own thirty years of 
government service.
    Please do not hesitate to contact me if I can be of any further 
service to the Committee.
            Sincerely yours,
                                                --  --  --.

    Senator Helms. All right. Well, I will take an extra minute 
next time and I will stop.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Ambassador Negroponte, I enjoyed our meeting and I very 
much would hope to be able to support you. But I have concerns 
about some of the issues concerning your tenure in Honduras and 
I frankly would like to ask a number of questions about it, 
time permitting.
    Let me first start by asking something that is in the 
nature of more of a hypothetical question rather than 
specifically about your tenure in Honduras. It is sort of, if 
you are confirmed, what do you understand your responsibilities 
to be toward the Congress. For example, what if the President 
decided to very aggressively pursue a specific policy goal, and 
what if that goal turned out to generate resentment and ill 
will among other countries, undermining America's ability to 
successfully pursue other crucial interests. When you are in 
the position of responding to congressional inquiries, either 
in correspondence or at a hearing, would you remain silent 
about examples of backlash or of slippage in important foreign 
policy pursuits if you had reason to believe that full 
disclosure could jeopardize congressional support for the 
administration's policy?
    Ambassador Negroponte. Well, if I understand the thrust of 
your question, Senator, I certainly am a very, very strong 
believer in partnership with the Congress. I said that at the 
outset in my opening statement. I firmly believe that. I have 
believed it throughout my entire career.
    If I could comment a little bit about the concerns I had in 
the early 1980's with respect to our policy toward Central 
America, I was concerned in 1981 and 1982 that the 
administration was proceeding down the path that it was 
proceeding without yet having had a good national debate about 
our policy toward Central America. I think that is one of the 
reasons we ended up in the controversial situation that we did. 
We launched the so-called covert action program and so forth in 
late 1981. We took a number of specific steps. But it was not 
until 1983, if I remember correctly, that President Reagan came 
and spoke to a joint session of Congress about our Central 
America policy, and I think by that time the horse was out of 
the barn and I think there had been too much controversy and it 
became much more difficult to sustain a bipartisan approach to 
that very controversial policy issue.
    So I know it is not directly responsive to your question, 
but I just want you to know I think, particularly when it comes 
to issues of foreign policy, it is important to do our darndest 
to have strong national consensus. Obviously, one of the best 
ways to do that is to mobilize maximum congressional support.
    Now, in your question also there was the issue of whether I 
would not be forthright or withhold information from the 
Congress that it asked for in connection with the exercise of 
my responsibilities. That is just inconceivable to me.
    Senator Feingold. So you would never decline to tell the 
whole truth to Congress?
    Ambassador Negroponte. Right.
    Senator Feingold. Even under this kind of hypothetical 
situation?
    Ambassador Negroponte. Right.
    Senator Feingold. Why do you not talk a little bit more 
generally about what role you believe human rights 
considerations should play in United States foreign policy?
    Ambassador Negroponte. As I said in my opening statement, I 
felt that for any professional Foreign Service officer, for any 
government official, but certainly for any career diplomat--and 
that is what I have been virtually all of my adult life--I 
think it is an article of faith that we must represent the 
values and the ideals and the traditions of our political 
system. So I think that that just goes without saying, and I 
think that in myriad different ways big and small we must see 
to do that throughout the course of our daily and yearly 
activities.
    Now, what role does the specific issue of human rights play 
in the conduct of foreign relations? I guess perhaps the best 
way I can respond to that is that I think we have the best 
relations with countries of the world that are democratic. I 
think that the best assurance and the best guarantee of 
international peace and the best way to promote global peace is 
to encourage the existence of viable democratic nation states. 
I think that is the best assurance we have got of a chance to 
establish viable international peace.
    To the extent that states are not democratic or not moving 
in that direction, that constitutes a potential threat to 
peace.
    Senator Feingold. I appreciate that statement. As you 
know--I am not surprising you with this--my office and I have 
been working very hard to try to get at some of the issues 
concerning the tenure in Honduras and reach some level of 
comfort.
    One item, one of the human rights reports from your tenure 
as Ambassador, noted that ``in rare cases in which members of 
the security forces have been accused of murder, the government 
has brought the perpetrators to justice.'' While it is true 
that there were examples of individuals being charged with 
crimes or even being brought to trial, it is very hard to find 
any examples of anyone actually being convicted or sentenced.
    Now, it seems to me your Embassy must have known that was 
the case. Is not incomplete reporting of this nature really 
something that constitutes misleading reporting?
    Ambassador Negroponte. Well, I seem to recall, for example, 
a case of a Guatemalan doctor who was working in refugee camps 
who was killed in the exercise of his duties by members of a 
Honduran military battalion, and we, among others, the State 
Department, the Embassy, made an issue of this occurrence with 
the Honduran authorities. This was in 1982, I believe, and the 
perpetrators to my knowledge were found, were arrested and 
tried.
    Now, there have been a number of other instances. I cannot 
cite them to you off the top of my head.
    Senator Feingold. Perhaps I can take this up in another 
round. Thank you.
    The Chairman. Can I ask just one question. Was Assistant 
Secretary of State Enders Assistant Secretary of State when you 
were appointed Ambassador?
    Ambassador Negroponte. Yes, sir, when I was appointed, yes.
    The Chairman. How long did you guys overlap?
    Ambassador Negroponte. Well, I went down to Honduras in 
November 1981 and Tom must have been in that job for about 2 
years.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Negroponte, I can remember fairly vividly from personal 
experience in Central America during the 1980's. Many of us 
went as observers to election campaigns or pre-election 
situations. I have great admiration for those who have served 
our country as Ambassadors in the countries of Honduras, which 
we are talking about today, but likewise Nicaragua and 
Guatemala and El Salvador.
    I can recall being personally in physical danger in all of 
those experiences, as were my colleagues. That was the norm. I 
think it is important that we examine this today and I 
appreciate my colleagues raising these questions.
    But let me focus on the current duties for which I hope you 
will be confirmed. Very soon the President of the United States 
is going to go to the United Nations, so will leaders of most 
countries of the world. This time around, it is a different 
situation for our country in my judgment. We are in a position 
in which the United States is going to be calling upon not only 
our NATO allies, our friends in Latin America, our friends in 
Asia and others, to stand with us against terrorism in the 
world. We are asking for their assistance at a time at which 
some of their foreign policies clearly have undermined in our 
judgment the fight against terrorism.
    Specifically, I cite an editorial in the Wall Street 
Journal which makes this point very abruptly this morning. The 
author says that if Osama bin Laden has some culpability here, 
clearly the one aircraft he has is not enough to attack our 
country as a guided missile. The fact is that organizations of 
other nation states--and Iraq is cited specifically as 
potentially culpable--are probably responsible, maybe not 
exclusively Iraq.
    Now, that gets us into a very different situation 
diplomatically. Iraq is a major state. Iraq is a state with 
which we have been at war. We have friends, the French for 
example, who have advocated a very different view toward Iraq 
in recent years, and maybe others around the table at the 
Security Council likewise.
    We are going to have to ask other nations to take a 
different point of view, a seriously different point of view. 
That will be your focal point, because the United Nations is 
the place where that interface with these nations occurs every 
day and in a very serious measure.
    I simply want your comment as you analyze, leaving 
momentarily behind Honduras in 1981, what is occurring at the 
United Nations in 2001 and what you will do about it. Have you 
given some thought to the change just in the last 48 or 72 
hours?
    Ambassador Negroponte. Of course, Senator, I have given it 
some thought. We are still--it is very fresh, as you have 
mentioned, just 48 hours ago that we were staggered by these 
events. But I think already quite a bit has been accomplished 
in terms of trying to work with the rest of the international 
community to mobilize in condemning these acts of terrorism, as 
I mentioned earlier, the United Nations, the Security Council, 
the General Assembly, the European Union, the Organization of 
American States.
    So, given the dramatic change in circumstances and 
situation which we confront now--and obviously we have not been 
able to yet to think through all of the different 
ramifications--but I would hope and expect, and in fact I think 
I can fairly confidential predict, that we are going to 
encounter very supportive attitudes from other countries, even 
ones--you have mentioned some--who might have been reluctant to 
be supportive in the past.
    But I think it is going to come down to one question: Are 
you for terrorism or are you against it? I think that most, 
hopefully all, countries of the world are going to stand up and 
be counted on the right side of this question. It is not 
something that is going to be accomplished overnight. I think 
it is going to involve a lot of painstaking diplomacy and not 
only at the United Nations. I think everywhere around the 
world, through our bilateral diplomacy, through regional 
institutions, but also through the United Nations, which, as 
you say, is an extremely useful forum through which to pursue 
these goals.
    Senator Lugar. I appreciate that comment. I appreciate also 
your earlier testimony asking that we pay our dues to the U.N.. 
I think that is very important, and for your credibility, 
extremely important. I appreciate the leadership of Senator 
Biden, Senator Helms in moving that subject along a whole lot. 
But we still have some distance to go.
    Senator Sarbanes. Could I say amen. Could I say amen to the 
paying of the dues.
    Senator Lugar. I appreciate that, and I hope the committee 
agrees.
    I thank you very much for your testimony.
    The Chairman. Could I interrupt for a moment? A bit of 
committee business, because we are going to go one more round 
here with Senator Wellstone and then we are going to adjourn 
for the joint caucus, and then we will come back at 2:15. I 
think that is when our caucus will probably end, is 2:15. Make 
it 2:30 so we do not keep you waiting.
    Senator Boxer. Mr. Chairman, may I ask you if it would be 
possible, since so many of us have been here since the start, 
could we establish that when you come back you would go next to 
Senator Hagel if he is back here, and then to me and then to 
Senator Chafee, who has been sitting here, and then to Senator 
Frist, because I think it would be unfair if others came. We 
have been here for many hours. And Senator Wellstone is going 
to go.
    Senator Sarbanes. And Senator Enzi is down there at the 
end.
    Senator Boxer. Oh, Mike, I am sorry. Would you forgive me.
    Senator Wellstone. We did not see you.
    Senator Boxer. I am sorry. I would say, please add Senator 
Enzi.
    Senator Wellstone. What we have here, Mr. Chairman, is a 
rebellion. We want by order of appearance.
    The Chairman. The answer is for today yes; for the future, 
no. I am hidebound about seniority. Being 100 in seniority at 
one time and now being number 9 in seniority----
    Senator Wellstone. You like it.
    The Chairman. It is a wonderful system. And I like it very 
much.
    Senator Boxer. We love your selflessness.
    Senator Sarbanes. I am like you, Mr. Chairman. I had my 
doubts and reservations about it back in the beginning, but now 
I have come to see the wisdom of it.
    The Chairman. But I will concede to refrain from asking 
questions myself until the end.
    Let me just make one piece of business here. In light of 
the situation that exists in the country today, yesterday the 
majority leader asked the President whether there were any 
nominees that he needed immediately and the State Department 
sent us a list last night, although, I might add, this 
committee has moved nominees faster than any committee I think 
ever has and we will continue to do so. There are several 
nominees on the list who would clearly be important to the 
ongoing diplomatic effort to respond to attacks against the 
United States.
    But I do not want to alter committee tradition so much so 
that we just pass it without a hearing. I am going to ask the 
joint staff to ask that the U.N. Representative for Management 
and Budget Reform, the Ambassador to Bahrain, the Ambassador to 
the United Arab Emirates, the Ambassador nominee to 
Turkmenistan, and the Ambassador nominee to Nepal make 
themselves available at any time they can today. We will have a 
very brief hearing, we will go through the formality, and we 
will report them out either today or tomorrow, rather than just 
reporting them out without any matter before the committee.
    Now, having said that, I will now yield. Who was here 
first, Senator Boxer or Senator Wellstone?
    Senator Boxer. Senator Wellstone.
    The Chairman. I knew that. I just wanted to see your 
reaction.
    I will now yield to Senator Hagel. No, I yield to Senator 
Wellstone.
    Senator Wellstone. Senator Boxer is my advocate, and vice 
versa.
    The Chairman. She is a good advocate.
    Senator Boxer. We are a team down here.
    Senator Wellstone. First of all, let me just say to the 
Ambassador, welcome, and I also appreciate that I had a chance 
to spend time with the Ambassador and I thought it was a very 
good discussion in the office. I have said to the Ambassador 
that I wish him well. I think it is an extremely important 
position.
    At the very beginning, I will just say that I will vote no. 
This is an extraordinary time. Our country needs an Ambassador 
to the United Nations. I am not going to be making any effort 
to block this, either--Mr. Chairman, have I got your attention? 
Mr. Chairman, have I got your attention?
    The Chairman. You have it.
    Senator Wellstone. I was saying that I will make no effort 
to block this in the committee or on the floor. These are 
extraordinary circumstances, but I want to express my 
reservations to the question and certainly give the Ambassador 
opportunity to respond.
    Jack Binns, who was your predecessor, had deep concerns 
about what he saw as the human rights situation, and I have a 
direct quote of a statement that he issued about 5 months 
before your arrival. Just in the beginning, he said: ``I am 
deeply concerned at the increasing evidence of officially 
sponsored, sanctioned assassinations of political and criminal 
targets, which clearly indicate that the Government of 
Honduras' repression has built up a head of steam much faster 
than we have anticipated.'' Then he goes on. He was trying to 
sound an alarm as to what was going on.
    There were during your tenure, there were a considerable 
number of press reports of demonstrations outside the U.S. 
Embassy and petitions from Honduran officials and, to me maybe 
even more importantly, families of the disappeared, about the 
human rights violations that had taken place, about loved ones 
who have disappeared, it turns out who were murdered, wanting 
to know what has happened.
    The State Department reports certainly did not fully 
reflect the families of the disappeared, what they were saying, 
what they were calling for. Ambassador, you took the position, 
and I think you said it today, that whatever abuses occurred 
paled in comparison with abuses in other countries, such as 
neighboring countries, such as El Salvador. Earlier you had 
said, I do not agree, you did not really think there was a 
difference between the Reagan administration and the Carter 
administration in human rights. But you then went on and you 
also asserted without equivocation that there were no death 
squads in Honduras.
    For instance, in a letter to The Economist you stated: ``It 
is simply untrue to state that death squads have made their 
appearance in Honduras.'' Now, the Inter-American Court in 1988 
looking back goes through a whole set of facts and talks about 
the practice of disappearances carried out or tolerated by 
Honduran officials, kidnaping of victims in force, often in 
broad daylight, in public places, by armed men in civilian 
clothes, acting with impunity. It was public and notorious 
knowledge in Honduras that the kidnapings were carried out by 
military personnel or the police or persons acting under their 
orders, so on and so forth.
    The CIA working group in its own stipulations has said 
during the 1980 and 1984 report the Honduran military committed 
most of the hundreds of human rights abuses reported in 
Honduras. These abuses were politically motivated and 
officially sanctioned. This is the CIA stipulation.
    So I agree with the Senator from Indiana, now is now and we 
go forward. But in terms of so many people I love and believe 
in, some of whom lost their lives in Central America, some of 
whom worked with those people, I just cannot--I just cannot 
understand why you were not more outspoken, why you were not 
more public, and even today why you seem to be unwilling to 
acknowledge the fact that indeed the state was involved, the 
government was involved, it was widespread, people were 
murdered.
    I guess that is not what I feel like I have ever heard from 
you. That is my concern. Maybe that is what Senator Feingold 
was trying to allude to as well. You may be a greater 
Ambassador to the United Nations and I hope you are, and our 
country needs an Ambassador. But these are my concerns, trying 
to square this information.
    Ambassador Negroponte. You have raised a lot of questions. 
One has to do with stipulations and the working group report. I 
think as I worked with the committee staff I think we were able 
to demonstrate a number of areas where we thought the working 
group report had had shortcomings. For example, there were a 
number of instances where they cited that there were x number 
of intelligence reports about death squad activity and those 
reports when we looked at them did not necessarily reflect that 
kind of activity. That is one issue.
    I have said in responses to my questions, I responded to 
The Economist, I also responded to the committee in 1989, in 
good faith and to this day, I did not believe that death squads 
were operating. So I was asked, well then, what do you mean by 
``death squad,'' because after all maybe different people carry 
with them different definitions of what they consider a death 
squad. I believed at the time that a death squad--I thought of 
what was going on in El Salvador: paramilitary right-wing death 
squads. That was the prevalent activity, and that was the kind 
of thing we were hearing about all the time. I did not see any 
such activities. I did not think that any activities that were 
occurring in Honduras at that time fit that description.
    Violations, disappearances, I think the extent, if you 
will, of disappearances in Honduras has been variously 
estimated by many different people. But if you look at our own 
human rights reporting during the period 1981 to 1985 when I 
was Ambassador down there, we report that there were 
allegations of as many as 100 or more disappearances.
    I think the Human Rights Court in the late 1980's, they 
talk about their estimate is 100 to 150. The Honduran ombudsman 
10 years later, 1993, 1994, comes up with the figure of 179.
    So one hates to try to get into these kinds of numerical 
estimates because I think everybody would acknowledge that, 
except in cases where you have specific evidence and well-
developed facts, you are basically talking about estimates.
    I believed then and I have maintained that these were not a 
part of the government's policy. I believed and I think we are 
able to demonstrate--maybe it is a mixed picture, Senator. I am 
more than willing to acknowledge that. But I think we are able 
to demonstrate that there were good faith efforts in parts of 
the Honduran Government to improve the human rights situation 
and to move the process forward toward democracy in that 
country.
    Last, was I vocal or was I more--could I have been more 
vocal? As early as 1983, I wrote an op-ed piece in the L.A. 
Times where I make a reference to the judicial system as being 
one of the real blemishes in the Honduran--in what I considered 
to be overall a positive Honduran political picture. I made 
speeches to that effect. I made a speech to the Dallas World 
Affairs Council in late 1983 where I referred to these problems 
in the administration of justice. I did a lot in the area of 
quiet diplomacy. I think that is acknowledged and I think that 
is demonstrable in the record.
    Could I have been more vocal? Well, you know, in retrospect 
perhaps I could have been. I do not know. But that is the way I 
handled it at the time.
    The Chairman. I guess we are probably still eating and not 
talking. If you want, since you have been sitting here, with 
the permission of the good doctor, maybe, Senator Chafee, if 
you want to go with your questions, we can move on along.
    Senator Chafee. I will ask a quick question, Mr. Chairman. 
I will ask a quick question.
    The Chairman. Take your time. Take the time you need.
    Senator Chafee. First of all, let me thank you for holding 
this hearing.
    Mr. Ambassador, as Senator McCain has mentioned and in your 
own testimony, you have served for 41 years, in the State 
Department. You have served in Hong Kong, South Vietnam, 
Ecuador, Greece, Honduras, Mexico, and the Philippines. I 
suspect that a lot of your challenges ahead are going to 
involve the Middle East. You yourself said you hope to 
establish personal relationships with all 188 countries.
    How do you foresee establishing relationships with those 
countries in the Middle East? Perhaps you could expound on some 
of the more moderate Arab countries and how important they are 
going to be as we go forward.
    Ambassador Negroponte. Well, as I mentioned, I think one of 
the things--I think personal diplomacy at the United Nations is 
extremely important. After all, it is a quasi-legislative 
environment, so you have got to really get to know your fellow 
members as quickly as you can. The diplomatic tradition is to 
get around and get to know the delegates personally, on a 
personal basis.
    Now, obviously doing it with 188 of them is going to be a 
tall order. The first priority clearly is going to be the 
fellow members of the Security Council, the other 14 members of 
the Security Council, and I would put my energies and efforts 
to that immediately upon assuming my new duties. But I am going 
to try to the best of my ability to become acquainted with as 
many delegates as possible, as quickly as possible.
    That will include, of course, people from all parts, 
representatives from all parts of the world, including the 
critical Middle Eastern region. It is true that my own service 
has been--although extensive, I have never served in either the 
Middle East or Africa and those are two parts of the globe that 
are very much on the United Nations agenda at the moment. I 
will devote special effort to acquainting myself with issues 
concerning those regions of the world as quickly as possible.
    Senator Chafee. Thank you, Mr. Chairman.
    The Chairman. In light of how short that was, Senator 
Boxer, would you like to go now?
    Senator Boxer. Yes, I would be happy if I could have my 7 
minutes.
    Sir, I have absolutely no question about your experience. 
People that I have a great deal of respect for have called me 
and told me that you are professional and you are talented and 
I have no question of that.
    I also agree with Senator Wellstone, this is not a time for 
us to slow things down, Mr. Chairman, or hold things up. The 
world has changed for everyone. But as we look at the carnage, 
this war we are in right now, I still think we cannot for the 
sake of history pass over that era of the eighties. I happened 
to be here. My career and yours kind of came together in the 
sense that you were in Central America and I was here opposing 
what was going on with human rights violations. So I cannot let 
it pass.
    When I listen to you, I keep coming back with this sense 
that, even though the CIA has written of that particular period 
of time, and we have the exact language, that they felt the 
Honduran Government was involved in death squad activity, and 
they talk about killings, kidnapings, torture, clandestine 
abductions, for some reason, and I do not know why, whether it 
is--I do not know why--you cannot get to that point.
    I believe it is so important that we face mistakes, 
problems. Yes, put them in the context, and yet we know these 
human rights abuses and these deaths occurred to our nuns, to 
our religious leaders. A particular case in point, Father 
Carney, traveling with a band, attacked by government troops in 
1983. He was absolutely fighting for, you might say, a left-
wing cause because of the poverty he saw. No one sitting here 
might agree with how he wanted to take the country, but we 
would agree with his right to travel, to talk, to give his 
religious teachings to the people.
    We know most of the band's leaders that he was traveling 
with were killed, some executed after being captured, according 
to the CIA. Father Carney was unaccounted for, and yet when we 
asked you about this--this is a Jesuit--you really do not 
report too much about it, as I read your answers. You say: ``I 
do not specifically recall raising the fate of Father Carney 
with General Alvarez, but it is likely that I did.'' And you 
basically push it off to some other individual who you gave it 
to.
    It seems to me that is just not enough. My understanding is 
that many people were killed each year. A lot of people. You 
know, one of the things that hits me, Mr. Chairman, as we watch 
all these numbers of people we lost, each human story, each 
human story could fill a book. So every life that was lost, as 
you well know--I know you know this, because we in America, we 
cherish life--is a story.
    It was happening. The CIA said it happened. But somehow you 
cannot get to say that it happened.
    The Baltimore Sun--and I would like to come back to this 
because I see that my time is running out. I hope I can get 
additional questions and I will wait for everyone else to 
finish, Mr. Chairman. When I come back, the Baltimore Sun talks 
about an abduction in 1981 and a murder of a Mr. Velasquez. The 
relatives live in my State now. They want me to ask you, 
because they begged you to pressure the Honduran Government for 
information about her brother. Yet, according to her, you 
stated you could not get internal affairs of the Honduran 
Government to help.
    So I want to ask you on the record about that when we come 
back. But it is just this nagging feeling I have, a sense that 
you do not really want to look at this. Why is it important? I 
will conclude here with my statement. It is that when you are 
there, which I have no doubt you will be, at the U.N. and you 
stand up and you fight for human rights and individual rights 
and the rights of people to feel free, to talk, to express 
themselves regardless of their political ideology, to have the 
respect of the government, to be safe, I want you to have that 
credibility. I am hoping when we come back, maybe, maybe, just 
maybe, you will be able to give us more of your views on that 
period of time.
    Thank you.
    The Chairman. Senator Enzi, would you like to go now? You 
have been waiting a long time. It is fine by me.
    Senator Enzi. Mr. Chairman, it is up to you. I am one of 
the people who suggested the joint session in light of all the 
activities that have been happening.
    The Chairman. My guess is the discussion will not start 
until 1 o'clock if it is like most of our lunches.
    Senator Sarbanes. It will free all of our consciences if 
you are allowed to go now.
    Senator Enzi. I have noticed the position here of being at 
a desk that has been put in temporarily at the end and I just 
assume that that is the leadership's intention that there 
should not be this same makeup of the committee very long and 
we will be moved to other positions.
    The Chairman. We want you to stay, Mike. We want you to 
stay.
    Senator Enzi. As a fellow Senator number 100, I do 
recognize the seniority system and have grown to appreciate it, 
because when you are in this position you do get to learn a lot 
listening to all of the other people with more seniority who go 
before asking their questions.
    I do thank you for going ahead with the scheduling on this. 
This week has made this position ever more critical than 
before, and it was critical before. There is a need to get the 
President's entire team on board, and I appreciate your 
announcement that later today we will do the other hearings and 
get some of the other folks on board. But this is probably the 
most critical position outstanding at the moment and the 
importance of it has been recognized by the events of the last 
few days.
    I would also like to mention that I am ever so pleased that 
it is going to be a career Foreign Service person. My college 
roommate, Edward ``Skip'' Gnehm, has been another career 
Foreign Service person and I have kind of lived around the 
world through his eyes and have grown to appreciate the value 
of people who have devoted their entire life to understanding 
other countries and our relationship to those other countries 
and solving problems between our country and other countries 
and helping those countries to solve problems between each 
other.
    I appreciate the opportunity that I had to visit with you 
more extensively in my office earlier and the answers that you 
gave, and they reflected that same professionalism that I have 
grown familiar with through my roommate.
    I do have a couple of questions. Since Honduras seems to be 
the focus of this, I would ask a couple of questions on that, 
too. Am I right that in the annual State Department Human 
Rights Report between 1981 and 1985 accurately that there was 
an improvement in human rights in Honduras during the time you 
were Ambassador?
    Ambassador Negroponte. Sir, I pointed out in reply to 
written questions that, if you look at the reports from 1981 to 
1985, it appears--and again, I do not want to overemphasize or 
exaggerate the importance of these numbers because I think we 
all agree that when you are operating and trying to understand 
situations like this that coming to accurate information is not 
that easy. But it appears that the year in which some of the 
most egregious violations occurred and the year in which the 
largest number of disappearances were alleged was 1981. Of 
course, I arrived in Honduras in November 1981.
    I think that that by various accounts seems to have been 
the high water mark in terms of allegations of disappearances. 
I think there was some improvement in that situation in the 
ensuing years and I think by the time General Alvarez, the 
commander in chief of the Honduran Armed Forces, was relieved 
in early 1984, I think then the situation improved even 
further.
    I think the period of difficulty in Honduras was 1981, 
1982, and 1983, and I would attribute that to the fact that the 
Government of Honduras was trying to cope with an incipient 
terrorist threat. I think you had this cycle of----
    Demonstrator. Mr. Ambassador, family members of Manfredo 
Velasquez would like to ask you----
    The Chairman. There will be order. I ask the police officer 
to escort this gentleman out, please.
    Demonstrator. I have here a message from Manfredo 
Velasquez. He disappeared in 1981. His family----
    The Chairman. We will suspend for just a moment.
    Demonstrator. They are against state terrorism. They 
believe that you were involved in state terrorism----
    Senator Enzi. Mr. Ambassador, I will ask a much shorter 
question so that the interference will not be necessary. Did 
you ever suggest not preparing or disseminating reports on 
alleged human rights violations in Honduras?
    Ambassador Negroponte. No, I did not. This does take me 
back a little bit to--and I will say it again this afternoon 
before Senator Boxer. But she mentioned the stipulations and 
the CIA reports. There is a lot of reporting or a lot of the 
documents in there that in my view do not necessarily reflect 
the situation correctly.
    In particular, in the inspector general's report there is a 
suggestion in one paragraph that, based on concerns that I had 
expressed, that the CIA discouraged further reporting of human 
rights abuses by a particular source. That conclusion in the 
inspector general's report, which was released publicly in 
1997, obviously to the detriment of my reputation, is 
absolutely false and the source to whom it was attributed has 
since stepped forth and himself said that that was simply a 
completely incorrect statement of the situation.
    Yes--or no, Senator, I never sought to suppress human 
rights reporting.
    Senator Enzi. Thank you. Before this sounds like it is just 
a Honduras hearing, your career is considerably more extensive 
than that. Would you identify some of the important diplomatic 
achievements that you had over the rest of your career.
    Ambassador Negroponte. Well, perhaps I could limit myself 
to three in the interest of time here. I think, first of all, 
my service in Mexico is one of which I am extremely proud, 
Senator. I was there from 1989 to 1993 and we both conceived 
and negotiated the North American Free Trade Agreement, which I 
think has turned out to be of immense benefit to both Mexico 
and the United States and Canada as well.
    I would cite my role as Assistant Secretary of State for 
Oceans and International Environmental and Scientific Affairs, 
where I oversaw the negotiation of the Montreal Protocol to 
protect the stratospheric ozone layer from chlorofluorocarbons, 
and I think in this day and age when we are debating global 
warming and other types of issues the Montreal Protocol is 
frequently pointed to as a model agreement of its kind in that 
particular area.
    Last but certainly not least, I am extremely proud of my 
service as Secretary Powell's deputy when he was National 
Security Adviser in the final year of the Reagan 
administration, which I think was a particularly strong year 
from a diplomatic point of view for the United States: the 
rapprochement with the Soviet Union, the end of the Soviet 
occupation of Afghanistan, and so on and so forth.
    Senator Enzi. Thank you for your willingness to serve in 
this position, too.
    The Chairman. Mr. Ambassador, I am not going to when we 
come back ask you much about Honduras. I want to ask you one 
question for my own sake that I have asked, and then I have a 
very brief comment. That is that Jack Binns indicated, former 
Ambassador, that Mr. Enders, at that time the Assistant 
Secretary of State, told him to discontinue reporting on human 
rights abuses. I am not vouching for the validity of that, but 
I just want to ask you one question: Did Mr. Enders at any time 
when you were the Ambassador suggest to you, imply to you, that 
you should curtail, alter, not report, shave, in any way did he 
indicate to you how and under what circumstances you should 
report human rights abuses if you knew of them?
    Ambassador Negroponte. The very short answer, sir, is no, 
absolutely not. He never gave me any such instruction. I just 
would like to add, since he is no longer with us to speak for 
himself, I had the highest personal regard for Thomas Enders.
    The Chairman. I knew Secretary Enders. I have been here a 
long time. I found him a fine man. I just want--that allegation 
has been made. I want it on the record what you had to say.
    Let me tell you what I think so you do not wonder the rest 
of the afternoon. I think that you were in a tough position. I 
think that you were caught a little bit between a rock and a 
hard spot, but the evidence shows to me that you constantly 
attempted to push the Honduran Government in the direction it 
should be moving.
    It is easy to quibble with you now as to whether or not you 
shaved or modified in some degree reporting. Quite frankly, 
that is not for me a matter that would warrant--to put it 
another way, I do not think there is any evidence, I do not 
think there is any concrete evidence that you in fact altered 
reporting and/or deliberately hid human rights abuses. I do not 
think that is the case.
    But when I do come back, I do want to talk to you about the 
United Nations and I want to state, so you have time to think 
about it, I think the single most significant thing that has 
happened since the God-awful terrorist attacks that occurred on 
the 11th is that Secretary Powell I believe is well on his way 
to putting together a coalition that will stop us from talking 
about the attacks having ended our way of life in America.
    I refuse to accept that proposition. I refuse to accept the 
proposition that those terrorist acts have in any fundamental 
way changed our way of life or will change our way of life. I 
prefer to believe that with the right leadership, and I think 
we are getting it now, that we will mark the 9-11-01 as the 
date, the beginning of the end of organized large terrorist 
organizations and networks. I prefer to believe it is the end 
of, the end of, terrorism that is sponsored and/or sanctioned 
by and/or looked at through a blind eye by nation states. This 
is the beginning of the end of that, in my view.
    You are going to have to play, as you well know, I hope you 
know, an incredibly important part in following up in what I 
think should be the No. 1 overwhelming unquestioned priority 
for the United States of America over the next days and weeks 
and months. I am going to want to talk to you about that.
    With that, let me suggest that we adjourn until 2:30. 
Again, I have asked my staff to contact the State Department to 
see whether or not we are able to get those nominees who I 
named up. It does not mean they are the only nominees we will 
do and move quickly, but they are the only nominees we will do 
and move quickly today and tomorrow.
    With that, we will adjourn until 2:30.
    [Whereupon, at 1:01 p.m., the committee adjourned, to 
reconvene at 2:30 p.m., the same day.]
                              ----------                              


                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Kerry, Feingold, Wellstone, Boxer, 
Bill Nelson, Rockefeller, Helms, Lugar, Hagel, Frist, Chafee, 
Brownback, and Enzi.
    Senator Rockefeller [presiding]. This hearing will resume. 
We await the return of the chairman, and I call upon Senator 
Hagel.
    Senator Hagel. Mr. Chairman, thank you. Ambassador 
Negroponte, welcome again.
    There have been some very positive things said about you 
this morning, especially from two of our most distinguished 
members of this body, Senator Stevens and Senator McCain, as 
well in writing from the distinguished former Ambassador and 
your former colleague of many, many years, Ambassador 
Holbrooke.
    I wish to associate myself with those remarks. I share 
their evaluation of your character, your integrity, your 
ability, your experience. I believe you are one of the 
preeminent public servants of our time. Anyone who has been 
able to run the gauntlet, Mr. Chairman, for his sixth 
confirmation hearing deserves at least some recognition, having 
nothing to do with your ability, but in this case you have all 
of the package.
    I want to go back to a point that Senator McCain made in 
thanking you and your family for your willingness to take this 
assignment on. I do not know of a time when your, I hope, soon 
to be new position, I'm confident that will happen, has been 
more important for this country and for the world, and I say 
that not just as a result of what happened in this country a 
couple of days ago. That certainly has magnified your 
responsibilities and the importance of your presence there, but 
in fact it has focused on the original intent of the United 
Nations.
    We have over the years, at least in my opinion, tended to 
drift from what that original intent was, and why we have a 
United Nations. We in my opinion, have tended to move along the 
peripheral maybe a bit too much, and as the chairman, Chairman 
Biden said at the end of the first session of your confirmation 
hearings, he wishes to spend a little time on your new job.
    I think we have quite frankly, or at least in this 
Senator's opinion, resolved your past, certainly to my 
satisfaction, and I think probably most Members of the Senate.
    I would like to focus on what lies ahead and your sense of 
that new job. I would say before I ask a couple of questions in 
that regard that in the 1980's, when you were in Honduras, I 
was often in Central America as a businessman. I did not know 
you, I knew who you were, but I would make this comment trying 
to put some of this in perspective.
    Democracy was in a lot of trouble in Central America in the 
1980's and as you have noted and I agree, it is some testament 
of the policies that you implemented and your presence and 
others like you that were able to sustain the democracy through 
the 1980's and position all of Latin America where it is today. 
Imperfect, of course. More work to do, of course. This is a 
flawed business, you know that better than anybody. This is an 
imperfect business, this is an imprecise business.
    So I think we should be a bit careful here when we try to 
judge standards here, especially 20 years ago, and reflect on 
what the facts of life were at the time. I saw those facts of 
life very clearly, so I applaud you for your service. It is 
certainly nothing to back away from or be apologetic for.
    Now, as you have given some thought to your new job and to 
the great terrorist act that has been perpetrated on this 
country in the last couple of days, have you thought through 
what additional ways we might lead or what ways we might be 
able to work through the U.N. to deal with this great scourge 
of our time, terrorism?
    Ambassador Negroponte. Thank you, Senator. As we said this 
morning, or as I said, of course this is an unfolding 
situation, it has only been 48 hours since these events 
occurred, but even in that period of time the United Nations 
through the Security Counsel and the General Assembly have both 
passed resolutions. NATO has passed a resolution. The European 
Union has made a statement, all of them in unison with us 
condemning these dastardly acts.
    I think the opportunity presents itself and I think we 
already see it happening, to form a strong global coalition 
against terrorism. It isn't going to happen in the United 
Nations exclusively, it's going to happen through all forms of 
diplomacy, whether it's bilateral, regional or global. But 
clearly there is going to be a role to be played, an important 
role to be played in the United Nations working with like-
minded states on the one hand and also those who may in the 
past have either been fence sitters or against us. But I think 
as we said earlier, this is an issue on which people are really 
going to have to take a stand, we are going to press them to, 
and I think the United Nations is one of those venues where we 
can do that.
    Do I have a detailed action plan in my mind? I must confess 
that it's just too soon to do that and I can't get out in front 
of the--it would be imprudent on my part, I think, to try to 
get out in front of policies that are being developed as we 
speak. But yes, I would expect to be vigorously and 
energetically involved in whatever global initiatives we plan 
to take.
    Senator Hagel. Thank you. Have you given some--I am sorry.
    Senator Rockefeller. Go ahead.
    Senator Hagel. Thank you, Mr. Chairman. Have you given some 
thought to what went wrong with the U.N. Conference against 
Racism?
    Ambassador Negroponte. Yes, I have, sir. I believe it was 
too focused on the past. I think it focused too much on the 
rhetoric of blame and recrimination for past history and rather 
than focusing on seeking to remedy the problems of the present 
and acting in a spirit of hope and reconciliation as far as the 
future is concerned, so I have no doubt in my own mind that our 
withdrawing from that conference when we did was the right 
thing to do, as regrettable as that may have been, but I do 
think it is an example of a kind of United Nations conference 
that we want to seek to avoid in the future and I think the 
best way to do that is to try to focus on the problems of the 
here and now and the problems that we face ahead.
    Heaven knows, we have enough problems in our contemporary 
world without getting bogged down in such embittered arguments 
as occurred at that conference about the past. And also of 
course, there was completely unacceptable language with respect 
to the situation in the Middle East that was offensive to 
ourselves and to our close ally Israel, and we simply couldn't 
stand by and participate in a conference when such language is 
being developed.
    Senator Hagel. Mr. Ambassador, thank you. Mr. Chairman, 
thank you.
    Senator Rockefeller. Thank you, Senator Hagel. Senator 
Boxer, you can resume questioning.
    Senator Boxer. Thank you, Mr. Chairman.
    Mr. Negroponte, just as a side remark, your critique of the 
Conference on Racism was interesting and I agree with the 
second part of what you said. I think clearly, people were 
using this for an agenda other than the true agenda which was 
trying to deal with the issue of racism.
    But I think your comment of focusing on the past, if I 
could respectfully disagree, American slavery was in the past. 
Do you think we should not focus on what happened to the 
African-Americans in this country as a result of that?
    Ambassador Negroponte. No, I don't want to be misunderstood 
there, Senator. I think that clearly, we want to acknowledge 
that that is one of the aspects of our history that has led to 
a number of the problems regarding racism that we confront in 
our country today.
    Senator Boxer. I agree with you.
    Ambassador Negroponte. Having said that, I feel that the 
conference could have been more constructive and forward 
looking, and I believe it missed that opportunity, regrettably.
    Senator Boxer. I think, Mr. Chairman, that clearly if we do 
not look at the past, whether it is, you know, American 
slavery, as it impacts the rest of our history, and we do not 
deal with it, confront it, admit our mistakes, et cetera, we do 
not move forward, and maybe that sort of segues into why I came 
back here to ask you some questions about the past, because we 
are all who we are and we are responsible for what we do or we 
do not do.
    And I again want to reiterate, I have not from day one 
questioned your talent or your experience, but only your 
actions or lack of at a time when we were dealing in the 
Congress with some very serious things, so I want to ask you 
these specific questions about several cases.
    But I also at this point, and then I will stay for another 
round if I have to, you knew about the Boland amendment and 
what that meant in terms of direct assistance to the Contras, 
correct?
    Ambassador Negroponte. Absolutely.
    Senator Boxer. That passed here in 1982, and the New York 
Times editorial in urging us to ask questions, because they 
think it is important to clear the air here says, we need to 
know whether your efforts on behalf of the Nicaraguan Contras 
strayed into illegal areas. And as I look at the files, I noted 
that you met with the Contras several times, I think you said 
it was about five or six times, and many of those were after, 
those meetings were after the Boland amendment passed.
    Did you think at that time that perhaps it was not a wise 
thing to do given the prohibition from Congress?
    Ambassador Negroponte. Senator, first of all, I never 
engaged in any activity that violated the Boland amendment, I 
just think that is important to get that fundamental point down 
on the table first. And I would point out that at the time of 
the Iran Contra controversy, this issue was looked at 
exhaustively by a number of different institutions, including 
Judge Walsh's investigation, which was I believe the principal 
investigation of that issue at the time.
    I was never called to testify before a grand jury, I was 
never, I don't think ever----
    Senator Boxer. I am not at all suggesting that you did 
anything illegal. They say we should ask you. You have answered 
that.
    I am really going to nuance more than, I don't say as far 
as illegality, I am not even going there with it. But you know, 
theoretically, what the Congress said and actually 
pragmatically said, no funds shall be spent to help the 
Contras. When an Ambassador meets with the Contras, we are 
paying your salary.
    What I'm just saying is, and it is just a statement here, 
that after Congress took this unusual step, to have met with 
them four time, and I do not know what you talked about, was it 
a social visit or what were the substance of the meetings as 
you remember them?
    Ambassador Negroponte. I think with one exception--I met 
four times with the Contra leadership in a three-and-a-half 
year tour of duty. I have always cited that figure as an 
illustration of how I was not deeply involved in the day-to-day 
management----
    Senator Boxer. But what did you talk about at those 
meetings? I am just curious. I was someone who fought for that 
policy, expended a lot of political tears and so on on that, 
and I am just curious, what was our Ambassador doing meeting 
with the Contras? Were you encouraging the Contras? What was 
the focus of the meetings with the Contras?
    Ambassador Negroponte. I think at least two if not three of 
those meetings were where I took visiting delegations to see 
them. I remember bringing Norman Mineta at one time when he was 
on the Intelligence Committee.
    Senator Boxer. This was after the Boland amendment Members 
of the Congress visited the Contras?
    Ambassador Negroponte. No. I believe that's the first time 
I ever met the Contras.
    Senator Boxer. Well, you said that in your statement, that 
the first time was with congressional people, but then there 
were four more times.
    Ambassador Negroponte. Yes, I think a total of four, but in 
any case----
    Senator Boxer. Do you not remember what you talked about?
    Senator Helms. Mr. Chairman, let the witness answer the 
question before another one.
    Senator Boxer. Senator, I am just trying to move it along. 
Otherwise, I will be here the whole day. I do not want to keep 
Mr. Negroponte, I am trying to just get to the point.
    If you do not remember, that is fine. I am just trying to 
move it along.
    Ambassador Negroponte. I certainly didn't discuss anything 
that would have in any way been contrary to the Boland 
amendment. If I remember correctly, one meeting was simply they 
were the leaders, they were the civilian leaders. I'm not 
talking about military commanders and so forth. I met the 
civilian leadership of the Contras to take their temperature, 
to show them, show interest in their situation. I don't believe 
that there was any thing improper or incorrect about my having 
contact with those people at that time.
    But the specific tenor of these conversations, I would not 
recall. If the point of your question would be did I discuss 
with them any ways that we might work around the Boland 
amendment or anything like that, it was absolutely none of that 
kind of talk.
    Senator Boxer. Thank you. I will wait for the next round, 
Mr. Chairman.
    Senator Rockefeller. Senator, thank you. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman. Ambassador 
Negroponte, I apologize for being in and out this morning, as 
well as now, but do appreciate the opportunity to ask you a few 
questions looking ahead.
    Many of us on the panel before you worked very closely with 
Ambassador Holbrooke, who really did a remarkable job I think 
in achieving a huge amount of reform and addressed the issue we 
have talked about to some extent in terms of dues, and dues, 
burden sharing, and Ambassador Holbrooke accomplished a lot in 
a very short period of time working with us in a legislative 
fashion or with the legislative branch.
    What as you look ahead, do you see yourself doing to really 
nail down and extend those achievements, those advances that 
have been made as you look ahead?
    Ambassador Negroponte. I certainly agree with you that 
yourselves and Ambassador Holbrooke achieved a truly 
significant accomplishment in dealing with this arrears issue. 
I think there is still work to be done; hopefully that's going 
to happen soon in terms of releasing the $582 million dollars 
that we still owe in back, from the second tranche of the 
Helms-Biden amendment. I realize that has been an issue more in 
the House of Representatives than in this body, but still, I 
think that needs to be resolved.
    I think over time that we really, I think it's important 
that we get the budget and our budget contributions to the 
United Nations on a consistent and predictable basis and as I 
said in my opening statement, I believe that we should pay our 
dues in a timely manner and I think that you have helped create 
the opportunity to get that done.
    Senator Frist. I think the thing that has impressed me most 
is the reform that was done working through the legislative 
branch, and mainly this committee, the reforms that were 
coupled with that in the past, the reforms which were long 
overdue and that without a certain amount of pressure would not 
have been realized. And as we look at those reforms, we do need 
to nail those down, and it has been coupled in the past to the 
dues and the burden sharing.
    Are there further reforms that you think should be made, 
that need to be made to build on the success of Ambassador 
Holbrooke?
    Ambassador Negroponte. Yes, sir. I think first of all, 
there are a number of reforms that are implicit in releasing 
the third tranche of the Helms-Biden. I think that such issues 
as peacekeeping reform I think is high on the United Nations 
right as we speak, and I think that's one we're going to pursue 
carefully.
    They have established an Office of Inspector General. I 
think we want to pay close attention to the efforts that are 
being made in the United Nations to improve their management 
and human resource policies and practices. So I think that 
there are going to be many many different ways in which we can 
contribute to and help the United Nations become a more 
effective and efficient organization.
    Let me just add here, I said some very strong words of 
support for Secretary General Kofi Annan in my opening 
statement this morning, and I just would like to add that I 
think he has been very mindful of the importance of this issue. 
He has an excellent Under Secretary for Management, who is an 
American citizen, Mr. Joe O'Connor, who has been excellent, a 
former CEO of a leading American accounting company. And you 
will be hearing this afternoon our nominee to be the new 
Ambassador to the United Nations for Management and Budget 
Reform, Mr. Patrick Kennedy, and so I think all of these things 
are going to be important.
    Senator Frist. As we look to sort of the changing nature, 
first of all, on the reforms, I wanted to bring that up because 
I think there are a lot of us who feel there is a lot more that 
needs to be done building on that foundation, and we look 
forward to working with you in that regard.
    Through the changing of the United Nations, as you well 
know and as you and I have discussed, there has been a focus 
over the last really 2 years, again initiated in large part by 
Ambassador Holbrooke to focus on the HIV/AIDS pandemic in a way 
that is really pretty much unprecedented in that body to look 
at a public health issue, and a very personal health issue in 
such a dramatic way. Are there any changes in the U.N. 
organization that need to be made to be able to address issues 
like HIV/AIDS, public health issues, issues that now have 
reached the proportion which clearly do affect the security of 
individual countries, and hopefully as we move to greater and 
greater freedom of those countries?
    Ambassador Negroponte. Well, first, Senator, I would like 
to observe that I think the recent conference on HIV/AIDS which 
was hosted by the United Nations, the special session, I think 
was a landmark event. I think it was an extremely important 
conference hosted by the U.N.
    I think that the establishment of the trust fund which I 
gather now has received pledges of up to $2 billion dollars to 
deal with the HIV/AIDS problem around the world but especially 
in Africa, has been a very positive development, and I 
certainly look forward to working with you, I know your 
personal interest in this issue, on that, if I get confirmed.
    As far as organizational changes, I think I would be 
reluctant to offer any view at this point, but I certainly want 
to take away your question and be mindful of it as I punch into 
my new responsibilities, and promise to get back together with 
you on it.
    Senator Frist. Well, the reason I bring it up, because I 
have a real question as to whether or not the United Nations 
did respond quickly enough, and for all sorts of reasons, it 
being the first time, but I do look forward to exploring that 
with you as we go forward in the event there are other major 
pandemics or public health catastrophes that come forward. But 
I will look very much forward to working with you and 
appreciate your comments today.
    Thank, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Frist. Senator 
Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I would like to 
pursue again some of the matters we started this morning. I 
thank you, Mr. Negroponte, for your patience.
    Again, with regard to Honduras, why did the human rights 
report for 1982 fail to mention the case of Oscar Reyes, who is 
the journalist who was arrested and tortured that year? I 
understand for the record that you did intervene in that case, 
reportedly speaking to General Alvarez about Reyes, and so it 
is not as if the Embassy could not verify this particular case.
    Yet that year's human rights report apparently asserts 
that, ``no incident of official interference with the media has 
been reported for several years. The media criticizes both 
government programs and civilian and military leaders 
frequently and freely.'' Can you explain this discrepancy?
    Ambassador Negroponte. I don't know why that particular 
case is not mentioned, Senator, but I don't think there is any 
question that we reported on the incident and the circumstances 
surrounding Mr. Reyes's arrest. He was subsequently, after 
being mistreated, and I've read about his experience from the 
press and other accounts, and I have also happened to have gone 
to meet Mr. Reyes just to talk to him personally about it, what 
happened to him. But I do recall that he was released by, on 
the order of a Honduran judge saying that there was not 
sufficient evidence to prosecute him for the charges under 
which he had originally been arrested.
    Senator Feingold. Well, it seems odd to me that this was 
not in the report, but let me ask you more generally. Can you 
recall any instance during your tenure as Ambassador in which 
human rights abuses committed by or with the complicity of the 
Honduran Government or military led you to recommend a 
reduction of the U.S. assistance to the country? Did you ever 
raise a prospect of such a reduction in trying to impress on 
Honduran officials the extent of United States commitment to 
human rights?
    Ambassador Negroponte. I think the answer to your first 
question, did I ever recommend a reduction of assistance, the 
answer would have to be no. My approach, though, was to 
identify the problem, raise it with the Honduran Government as 
I have mentioned several times in the past, raise it with the 
President, with the commander of the Armed Forces, the other 
authorities, and try to encourage them to devise strategies and 
also advocate policies on the part of the U.S. Government to 
try to help improve the Government of Honduras ability to deal 
with these questions, whether it's in the area of judicial 
reform, support for their labor movement, support for agrarian 
reform and so forth. So I think I took more of an approach of 
trying to help them improve their institutions so that these 
kinds of incidents would not occur.
    Senator Feingold. Well----
    Ambassador Negroponte. That was certainly the purpose of 
our Administration of Justice program.
    Senator Feingold. Obviously I have some concerns about the 
Honduras era, but I do want to say regardless of my 
reservations, it is pretty likely you are going to be 
confirmed. It is hard for me to not take the advice of John 
McCain and Richard Holbrooke, two people who I certainly 
respect, and I know that their regard for you is well founded.
    I will want to work with you as cooperatively as possible. 
I think now more than ever, we need more clear communication. I 
do appreciate your willingness to serve regardless of how I 
vote on your nomination, and I do want you to know that, and 
therefore, I would like to ask one more question looking to the 
future and our working together. It actually refers to a past 
event, but it is looking to future crises.
    The press has revisited recently the decisions that the 
United States made in the spring of 1994 when the Rwandan 
genocide began. I would like you to comment on the manner in 
which the United States chose to use its influence at the U.N. 
in response to that emerging crisis and on the manner in which 
the State Department chose to characterize the Rwandan crisis. 
Do you believe that United States policymakers made mistakes in 
their response and what should we have done differently, what 
should the State Department have done differently?
    Ambassador Negroponte. I have to be very honest with you, 
Senator. I don't think I know enough or have read enough about 
that incident or that period in Rwanda to be able to give you 
an adequate answer at this point. I really don't.
    Senator Feingold. Let me simply suggest since we are 
looking to the future that as we all know, our failure to 
prevent that genocide, as it should have been called clearly 
and plainly by the State Department, was one of the greatest 
failures of our time. I would like to communicate with you and 
work with you in your role at the U.N. to make sure that the 
world community and our country in particular does not allow 
those kinds of tragedies to occur in Africa while we act 
aggressively in other places such as Europe to stop such 
things. So I look forward to working with you on that.
    Mr. Chairman, I would like the opportunity later to put an 
item in the record to clarify some of these comments the 
Ambassador made with regard to the Reyes case.
    [The material referred to follows:]

                [From the Baltimore Sun, June 15, 1995]

                         series--battalion 316

                     How A Journalist Was Silenced

      (By Gary Cohn and Ginger Thompson, Sun Staff Correspondents)

    On the night of July 8, 1982, a dozen soldiers wearing black ski 
masks and carrying automatic rifles raided the home of Oscar Reyes, a 
journalist who wrote articles critical of the Honduran military.
    Helicopters hovered above the two-story, brick house as Reyes and 
his wife, Gloria, were tied up and driven to an abandoned house.
    They say they were stripped and tortured as accused subversives. 
``I told them, `I'm not a terrorist. I never have been a terrorist,' '' 
recalled Reyes.
    ``They tied my hands behind my back, hung me from the ceiling and 
beat me like a pinata.'' Reyes, now 59 and a U.S. citizen, lives with 
his wife in Vienna, Va.
    In an interview, the couple recalled the torture they endured at 
the hands of Battalion 316.
    Reyes says his ribs were cracked with rifle butts in one room of 
the secret jail while his wife was shocked with electricity in another.
    Gloria Reyes, 54, says torturers attached wires to her breasts and 
vagina and shocked her over and over.
    ``The first jolt was so bad I just wanted to die. It was 
horrible,'' she said. ``But then it was very strange, my body became 
numb. And when they shocked me again, I felt my body shake, but there 
was not a lot of pain.''
    She says that she peeked through the rags tied around her eyes and 
saw blood running down her legs. ``I started to feel sick,'' she said. 
``I vomited and I fainted.''
    Through her blindfold, Gloria Reyes could see the bare walls of the 
living room, the gray concrete floor stained with blood and vomit. In 
an adjacent bathroom, she saw a blindfolded woman crouching in a 
corner. She wore a flowered skirt splotched with blood.
    Gloria Reyes remembers the woman's screams. ``She said, `Please, 
just kill me. Look what you have done. Look at me. Why don't you just 
kill me?' ''
    The abduction of the Reyeses caused such a public outcry that 
Honduran authorities felt compelled to release them.
    After a week, the Reyeses were taken to a public court and 
convicted of subversive activity and sentenced to six months in prison. 
They were released after five months.
    Cresencio S. Arcos, who was press spokesman at the U.S. Embassy in 
Honduras when the Reyeses were kidnapped by Battalion 316, says that 
they were not subversives.
    ``It appeared to be pointless,'' said Arcos, who later became U.S. 
ambassador to Honduras. ``To silence him over newspaper articles was 
ridiculous.''

    Senator Rockefeller. Thank you, Senator Feingold. Senator 
Helms.
    Senator Helms. Mr. Chairman, I have known John Negroponte 
and his wife a long time. They are good people, and they have 
five fine children whom they adopted--two of them here--and 
they are known to be very kind and very helpful people and 
faithful servants of this Government.
    This morning, Mr. Chairman, I asked unanimous consent that 
four letters written in June and July by Federal officials who 
worked with John Negroponte, I asked unanimous consent that 
they be made a part of the record.
    Senator Rockefeller. So ordered.
    Senator Helms. Let me say a bit more about these letters. 
The first is a letter directed to the New York Times from 
Ambassador Negroponte's deputy in Honduras, Shepard Lowman, and 
it absolutely refutes the New York Times charge that Ambassador 
Negroponte, and I am quoting, ``turned a blind eye to human 
rights abuses.'' John Negroponte never turned a blind eye to 
any evil, never has, never will.
    The second letter was written to Chairman Biden and to me 
on June 18, by Theodore Wilkinson, Mr. Negroponte's Political 
Counselor in Honduras and Minister-Counselor in Mexico. Now 
this was a long time ago. Wilkinson said, and I quote, ``The 
idea that John Negroponte suppressed information or created a 
climate for suppression of information as they alleged in some 
news accounts does not square with my experience with him.''
    Third is a letter to Chairman Biden and to me from Sarah 
Horsey, and this was dated June of this year. She was Consul-
General in the Embassy in Honduras and she included a copy of a 
memo to the Los Angeles Times that she had written rebutting 
allegations by that paper against the Ambassador. And she made 
absolutely clear, she made absolutely clear that Ambassador 
Negroponte assigned her rather than a more junior officer the 
responsibility of looking into the fate of Father Carney, which 
has been the subject of testimony here.
    And last but not least, I shall not identify this Federal 
official except in closed session if and when we do that, and I 
will be glad to identify him under those circumstances. You 
will be impressed with the fact of his integrity and his 
accuracy and his knowledge. He wrote to Joe Biden and me in 
July, and he said that the 1997 CIA Inspector General's report 
inaccurately attributed to him the suggestion that Ambassador 
Negroponte did not wish a particular intelligence report on 
human rights abuses to be disseminated. He said that is untrue.
    Now the point I am making, Mr. Chairman, is that we have a 
whole tapestry of veiled charges, mostly erroneous media 
accounts, attacking this good and honest man, and I am sick and 
tired of it because I have known him, I know his character, I 
know his wife's character, and anybody who knows them knows 
also that I am correct in what I am saying.
    So I submit these comments for the record in rebuttal to a 
lot of the things that have been said about this man which are 
absolutely untrue. We ought to go ahead right now, take a vote 
to send him to New York to represent this country as U.S. 
Ambassador.
    I yield back whatever time I have.
    Senator Rockefeller. Mr. Ambassador, I just have three 
questions and I will just put them out and you can answer them 
as you wish.
    You were Ambassador to the Philippines, and the 
Philippines, going all the way back to when I was working with 
the Peace Corps in the Philippines, has been a very unstable 
place at that time, Mindanao, Palawan, they were very 
destabilized then.
    They are one of the countries that looks upon the Spratly 
Islands. There are six countries that have a rather strong 
feeling that they have rights to the Spratly Islands, and of 
course China is one of those. Now the last few days have taught 
us that you can never be sure where something is going to 
happen in this world. There are other experiences that say you 
can be pretty sure where the hot spots are, whether the Taiwan 
Strait or the DMZ, or increasingly potential, the Spratly 
Islands.
    So I would be interested, No. 1, in your view on how you 
saw that in your recent service in the Philippines, the Spratly 
Island situation, and what you predict for that, should you 
care to answer that question.
    My second question is that there has been talk from time to 
time about reform within the permanent Security Council, and 
for the most part I think it is expanding it, perhaps some talk 
about rotating it, but I think not so much as expanding it. Two 
of the countries that are suggested are Japan and Germany. And 
I am new to this committee and therefore I have not heard 
discussion on that subject, but to me it is of great interest. 
The U.N. started back in the 1940's and it is now 60 years 
later and the world has changed, and changed very dramatically, 
so that the concept of potentially change within that Council, 
the permanent one, is of interest to me, if you want to comment 
on that.
    And my third question would be the general area of China, 
which of course is a part of that Council, but quite apart from 
that, they are going through enormous changes, probably more 
unpredictable in terms of those changes than any other country 
in the world, and with consequences of vast dimensions to us. 
You have observed China in a lifetime of public service, you 
certainly observed them from the Philippines, and I am just 
interested in how you see working with them, their 
relationship, in their new sense of crisis evolution within the 
United Nations.
    Ambassador Negroponte. Thank you, Senator. On the 
Philippines, how I saw the Spratly issue during the time I was 
serving there, that's when I believe the Chinese occupied the 
Mischief Reef. It was called the Mischief Reef during the time 
that I was there, and that was a cause for some concern in the 
Philippines and to the United States. I think we have always 
taken the position that we think the disputes over the islands 
in the South China Sea ought to be resolved peacefully and 
fortunately, I don't think that there have been any serious 
untoward incidents since that time, although my memory might be 
incorrect in that regard.
    I personally think that although this is a source of 
friction between China and Vietnam and a number of the other 
countries in the Southeast Asia region that have an interest or 
abut the so-called South China Sea, that I think there are also 
a lot of different factors that work to those countries having 
an interest in good relationships with each other. I think the 
ASEAN countries and China have an interest in a good 
relationship. A lot of the investment in China comes from the 
Chinese community that lives in Southeast Asia.
    So I would like to think that any differences over these 
islands can over time be resolved by peaceful means or through 
negotiations, but I also frankly wouldn't hold my breath. I 
think some of these disputes date back literally decades if not 
longer and they could fester for a long time to come.
    I personally don't see the Spratlys or any of the disputed 
islands in the South China Sea as a flashpoint, if you will, to 
the same degree that perhaps the China-Taiwan relationship is. 
I think that's a much more significant security concern.
    Senator Rockefeller. On a level of magnitude I agree with 
you. It just strikes me that I do not see any equation there 
which reaches out for equitable and peaceful settlement. I 
think it is going to be increasingly touchy.
    Ambassador Negroponte. On the question of the reform of the 
Security Council, I believe our position has been over the 
years that we would favor the expansion of the Security 
Council, we have expressed support for the eventual Japanese 
and German membership. I think that we would be reluctant to 
see the membership expand too far. One doesn't want the 
Security Council to become an unwieldy body. After all, it has 
to make important decisions affecting threats to international 
peace and we would like to see the Council do that on an 
expeditious basis.
    Senator Rockefeller. Could I just press on that point?
    Ambassador Negroponte. Sure.
    Senator Rockefeller. That has been brought up in other 
fora, and that is as you expand the Security Council, that 
there is somehow a thought that it becomes therefore inevitably 
less efficient, and that may be true or it may not be true. It 
may be simply more inclusive but no less efficient. So I am 
just interested in how, when you talk about efficiency, what is 
it that comes to mind that might be of concern to you there.
    Ambassador Negroponte. Well, I guess it would be just the 
difficulty of mobilizing consensus among a larger number of 
people. I believe the Security Council started out initially as 
11 and now we're up to 15. I'm not saying it shouldn't be 
expanded, I think that's the policy of our Government, but I 
think it was a question of just unwieldiness, but I think you 
also may be correct. It's conceivable that you could expand by 
a substantial number and obviously if that were to happen, we 
would try to make it work as efficiently as possible.
    But again, I don't know when this kind of change may in 
fact occur. It's a subject that has been under fairly 
continuous discussion over the years and I am not aware that 
that issue is moving toward any kind of immediate resolution.
    Senator Rockefeller. Thank you. My time is up. Senator 
Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Ambassador, am I correct in understanding that the 
annual State Department human rights reports between 1981 and 
1985 indicated that there was an absolute improvement in human 
rights in Honduras during the time you were Ambassador? Do 
those reports show that?
    Ambassador Negroponte. Well, I believe they showed that 
there was a decline from the number of allegations of 
disappearances, and as I said earlier this morning, I believe 
that probably the year in which there were the most alleged 
disappearances was in 1981, which is the year I arrived, I 
arrived in November of that year, and I believe the number of 
allegations, and this I think is corroborated by quite a few 
different sources, declined thereafter.
    Senator Hagel. So I think in any fair measurement, my 
question would be an affirmative.
    Ambassador Negroponte I believe it improved, I believe that 
it improved even further, more significantly from 1984 onwards 
after the change in the top military leadership of the Honduran 
Government.
    Senator Hagel. Thank you. We have touched on this a bit 
this morning and this afternoon, but let me make sure I 
understand it clearly and directly: Did you ever suggest not 
preparing or disseminating reports on alleged human rights 
violations in Honduras?
    Ambassador Negroponte. No.
    Senator Hagel. Take a minute if you would, Mr. Ambassador, 
to set the stage a bit and again, we peripherally touched on 
it, what was it like in Honduras when you were there, Communist 
guerrilla activity, certainly we now know where that came from, 
Nicaragua, Cuban activity, when you were there. I would like to 
get maybe a minute of that on the record, again, just to put 
some perspective of what you were dealing with in Honduras.
    Ambassador Negroponte. When I arrived in 1981, Senator, I 
believe it was the beginning of guerrilla activity in Honduras. 
It took the form of various types of terrorist action. There 
were several plane high-jackings, there was a bombing of the 
Tegucigalpa power plant in 1982. Late 1981 there was an attack 
by a Communist militant group on two of our military advisors 
there, one of whom was critically wounded. There was, probably 
the most dramatic incident that occurred during the time I was 
in Honduras was in September 1982 when guerrillas or terrorists 
took hostage the entire membership of the San Pedro Sula, 
that's the San Pedro Sula Chamber of Commerce, a hundred 
people, businessmen, held hostage for an entire week. Those are 
just some examples.
    Senator Hagel. So it was a bit challenging during your 
tenure?
    Ambassador Negroponte. Well, that was one of the 
challenging situations we did have to face, yes.
    Senator Hagel. Thank you. Now as we reel forward, there has 
been much concern about what happened to the United States 
earlier this year at the United Nations in regard to the United 
Nations Commission on Human Rights. Explain to this committee, 
Mr. Ambassador, what your intention would be to start working 
our way back onto that Commission; what needs to be done; how 
high a priority is that for you?
    Ambassador Negroponte. Senator, my understanding of what 
happened is, as you perhaps know, membership on various 
Commissions at the United Nations are based on allocations to 
regional groups, and so many seats are allocated to countries 
from each specific region. We are included for those purposes 
in what's called the Western European and Other Group at the 
United Nations. And very often it has been the practice for 
countries to submit a unified slate. If they have four seats 
allocated, they just present four candidates and then one gets 
automatically elected to that seat.
    We didn't do that last year. There were more candidates 
from the Western European group than there were seats available 
and as a result, the United States lost out in that election. 
Our hope would be, and no final decision has been made to my 
understanding of exactly how we plan to proceed with respect to 
this next year, but as an initial step, what we are trying to 
ascertain is whether our European friends and the other members 
of the Western European and Other Group would be prepared to go 
back once again to the formula of having a unified slate so 
that we don't have the risk of this unfortunate situation 
repeating itself. But certainly I believe it's desirable for us 
to work on that Commission and to make every reasonable effort 
to get back onto it.
    Senator Hagel. Mr. Ambassador, thank you. Mr. Chairman.
    Senator Rockefeller. Thank you, Senator. Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman. Mr. 
Ambassador, welcome. It is a pleasure to have you here and I 
appreciate the time and I apologize for not being able to be 
here earlier. Obviously there is a lot going on.
    I gather some other colleagues have asked you about the 
question that has sort of bedeviled publicly this process for a 
while and I think somewhat unfortunately, and I know you feel 
that way, and I appreciate your efforts for the committee very 
much and I thank you for them in the sessions that you have 
been involved in, and I would simply ask, I do not think we 
need to do a lot more. I have read the record and reviewed it 
and I am satisfied with the process and with the answers that 
you have given.
    I simply think, Mr. Chairman, it might be helpful just for 
the record to ask that those interrogatories that were 
submitted by the committee simply be made part of the record 
with the answers, if that is amenable.
    Senator Rockefeller. It will be done.
    [The interrogatories referred to can be found on page 67:]
    Senator Kerry. I would just ask you sort of in a sweeping 
sort of overview, if, and you have had a long and distinguished 
career in public life, so looking at that particular period and 
that particular experience, if you would look back on it and 
make any judgments at all about perhaps our policy as a whole 
or how we might have done things differently or perhaps even 
how you think you might have, if at all, and I wonder if you 
would share with the committee some thoughts.
    Ambassador Negroponte. You mean Honduras, that period?
    Senator Kerry. Well, that particularly, but also the 
regional efforts, sort of that part of history, if you will.
    Ambassador Negroponte. Thank you, Senator. I touched on 
this a bit this morning and I'm delighted to repeat it again 
and maybe amplify on it. I believe one of the political 
mistakes that we made in the early 1980's was to not have a 
good debate of the proposed Reagan administration policies 
early enough in that administration. I seem to recall that the 
sequence of events was such that we decided on a covert action 
program almost as the first step, very early on, and that there 
wasn't really a good debate within the country except in 
reaction to those events as they then unfolded.
    And I observed this morning and I think I'm correct in 
saying that the President himself didn't come to the Congress, 
and he addressed a joint session of Congress, I believe in 
1983, so already a couple years after these events began to 
unfold. So to me--and it's really hard to be an ambassador in 
the field when your society and your body politic is divided 
over policy. I'm sure you can imagine the difficulty of being 
at the end of this chain of command when you know people are 
really divided back in Washington over total policy.
    So I think that if there was a principal reflection that I 
have on the events of that time, is that I would have wished 
that we had more of a national debate earlier to see if we 
could really reach a consensus on what we can do.
    And I guess the only other point, so as to not make this 
too long-winded a reply, is that none of us could have foreseen 
or it would have been hard to foresee in the early 1980's what 
was going to happen to the former Soviet Union in the late 
1980's and the early 1990's, and of course I think that had a 
fairly significant impact on the outcome in the region.
    Senator Kerry. Generically also, particularly in the 
context of what has happened in the last hours, but this is a 
question I would have asked you before these last hours, based 
on sort of the last several years, I mean, as I travel to 
various countries and talk with people, there is a constant 
questioning of us, of United States Senators, of sort of what 
the United States is doing with respect to x, y or z, and why 
we behave the way we do, and we obviously defend our country 
and try to explain to them certain things.
    But is there anything in your judgment? I mean, you are 
about to go to the United Nations, we all know that's a place 
where we have not been held in high regard, we have our dues 
issues, we have other issues. Is there something that you feel 
as a United Nations Ambassador you can specifically do or 
intend to do that might somehow address this, or is there 
anything that the administration is currently thinking of doing 
to respond to this sense that the United States perhaps doesn't 
understand what their goals or aspirations are, or doesn't 
perhaps understand their needs or doesn't respond enough to 
them or for whatever reason, in the wielding of the hand we 
have been asked to wield as leader of the free world, they 
often feel beleaguered as a consequence. Does that concern you, 
and is there a way that as an Ambassador to the United Nations, 
you can actually try to address that?
    Ambassador Negroponte. Well, certainly it concerns me. At 
the same time I think we face a dramatically altered situation 
now as compared to several days ago, and I think that's already 
beginning to show itself in the various very positive and 
affirmative supportive responses that we have received from the 
U.N. and the EU, and the Organization of American States and 
elsewhere. I wonder in my own mind whether we are, how low or 
how highly we are held in regard. I suspect feelings about us 
are mixed. I'm sure there is tremendous admiration for our 
political system and our market economy.
    I think there has been resentment about the lack of payment 
of dues. I'm very hopeful and I sense that many others are, 
that we are going to be able to break that issue loose soon, I 
certainly hope that we can.
    Senator Kerry. Do you have a sense of how quickly you think 
the year three Helms-Biden conditions could be met?
    Ambassador Negroponte. Well, I'm not positive but I think 
we're well on our way. I think as far as reducing the 
assessments for the, I think it's the ILO and the FAO and WHO, 
I think we have already achieved those, so I think the other 
benchmarks may be less difficult to achieve, so I would 
certainly devote an enormous amount of energy to getting that 
done as quickly as possible, because I think nothing would help 
us more than to be able to bring this issue of the dues up to 
date and to get our payments on a steady and consistent and 
reliable and predictable basis.
    Senator Kerry. Well, Mr. Ambassador, my time is up. Let me 
say that I appreciated enormously the introduction by my good 
friend Senator John McCain, and also particularly that of 
Ambassador Holbrooke, and obviously we understand why he 
couldn't be here, but I think certainly his tribute to your 
skills and abilities and to your ability to fill this position 
is very important to all of us and we respect that.
    And I might add, I notice that Tom Korologos is here, so 
that means this is a really important nomination.
    I thank you. Mr. Chairman.
    Senator Rockefeller. Are there any further questions? 
Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Rockefeller. This will be our last round.
    Senator Boxer. Mr. Chairman, I want to associate myself 
with the remarks of Senator Feingold, who indicated that he had 
some problems with this nomination, he believes it is going to 
go forward, as do I, and when it does, we will work together. 
And certainly in my situation as chair of the International 
Operations and Terrorism subcommittee dealing with terrorism 
and the United Nations, I look forward to that.
    And I go back to the past and I know people are impatient 
with it, but I really believe in this following sentence, so if 
we could connect on this point. ``The great countries of the 
world are not those that have never experienced periods of 
darkness and barbarity, but rather those that have been able to 
examine such times without fear and overcome them. True 
democracies must be capable of examining their past. Only in 
this way can they embrace the future.''
    So, that is the context by which I have asked these 
questions. I do not apologize for them and you do not apologize 
for your record, so neither of us is apologizing.
    This is the Commission for the Protection of Human Rights 
in Honduras that makes the statement, that documented hundreds 
of disappearances in Honduras. I think we are a great country, 
because I think we do admit when we are wrong, and a clear 
example of that is the CIA IG report looking at Honduras, 
looking back, in the 1990's, looking back at the 1980's, our 
own CIA IG who said, the Honduran military committed hundreds 
of human rights abuses since 1980, many of which were 
politically motivated and officially sanctioned. CIA reporting 
linked Honduran military personnel to death squads.
    And it goes on. It says, ``the number of people from these 
units,'' meaning military Honduran units, ``were involved in 
human rights abuses from 1980 to 1996.'' This is the CIA.
    Now, have you had a chance to read that report, the 
declassified portions or the classified portions?
    Ambassador Negroponte. I have, and Senator----
    Senator Boxer. What I am reading is the declassified.
    Ambassador Negroponte. Right. No, I have had a chance to 
read the report and I have some serious questions about certain 
aspects of it.
    Senator Boxer. OK. I look forward to talking with you about 
that, because to me, this is the mark of a nation willing to 
look back and I am sorry that you do not agree with this but we 
will talk more, we do not have time, because I know you are 
very anxious to complete this.
    Many people who lost people in Honduras have asked me to be 
here, so I am going to follow through for them. One of whom is 
a constituent of mine in San Jose. This case was detailed in 
the Baltimore Sun in 1995, the murder of Mr. Angel Velasquez.
    In 1981, Mr. Velasquez was a 35-year-old graduate student, 
a teacher, a political activist, a father of three children 
aged eight, four and two. His sister now lives in San Jose, 
California. She called my staff, she said please, would I ask 
you why you didn't do more at the time. She said she was part 
of a small group of human rights activists who met with you to 
ask your assistance in the disappearance of Mr. Velasquez and 
23 others. She said she ``begged'' you to pressure the Honduran 
Government for information about her brother. However, 
according to her, you stated you could not get into the 
internal affairs of the Honduran Government.
    Do you recall this visit by this sister of Mr. Velasquez?
    Ambassador Negroponte. I certainly would--I do not recall 
it, no, but the statement attributed to me surprises me.
    Senator Boxer. You do not recall telling her you couldn't 
get involved in the internal affairs?
    Ambassador Negroponte. I don't.
    Senator Boxer. Are you aware of any documents we could get 
our hands on that might shed light on where Mr. Velasquez' 
remains are today? They have never been recovered.
    Ambassador Negroponte. I'm not, Senator. That incident 
occurred as you may know before I got to Honduras. I know it 
has been studied exhaustively by the Inter-American Human 
Rights Commission and it was the subject of the Human Rights 
Court decision.
    If I could, I just would like to mention two points of fact 
that I feel I can't let pass.
    Senator Boxer. Certainly.
    Ambassador Negroponte. I would like to say first, I would 
like to repeat what I said this morning, because I want to work 
with you and I look forward to working with you on these and 
many other issues.
    As far as I am concerned, any single abuse of a person's 
rights is a violation too many. I believe that, and that's my 
philosophy. But I just want to mention two points here. There 
is reference to death squad activity in that stipulation of 
fact.
    Senator Boxer. Yes.
    Ambassador Negroponte. And there were two CIA reports about 
death squad activity in Honduras. They were both generated 
after I left that country, they were published or circulated, 
disseminated in late 1985, about 6 months after I left the 
country. And the inspector general in his investigation 
determined that there were serious questions about the 
credibility of the sources of those reports.
    And the other thing that I really want to address is you 
mentioned 12 people a week disappearing in Honduras. That would 
have been just completely out of line with any information that 
I was aware of, much much more than anything that I was ever 
aware of in Honduras.
    Senator Boxer. Thank you. I would ask that we put the 
stipulations from the CIA IG report into the record, Mr. 
Chairman. They are not classified.
    Senator Rockefeller. It will be done.
    Senator Boxer. And I will finish with this question. In the 
beginning, as you talked about Honduras, you talked about 
freedom of the press, which really raises the Reyes case, that 
my colleague raised a minute ago.
    According to the Baltimore Sun, the matter of the abduction 
of Oscar Reyes along with his wife, where they were beaten and 
tortured with electric shocks, that you did intervene, but as I 
understand it, they were later brought to court and tried and 
convicted of ``subversive activities'' and sentenced to a 6-
month prison term. After their release they emigrated to the 
United States. Do you recall this matter?
    Ambassador Negroponte. I had recalled it differently, I 
would have to go back and check. I had thought the judge 
released them on the grounds of insufficient evidence, I'm 
sorry.
    Senator Boxer. I will go back and take another look. This 
was prepared by our staff, so it just seemed to me when you 
said freedom of the press, it is unusual for a journalist to be 
arrested, tortured and then put in jail in a place where there 
is freedom of the press.
    So I will stop here, much to my colleagues' delight, I am 
certain, and to your delight, and just say that again, I think 
a great nation looks at mistakes and moves on, and we will move 
on.
    Senator Rockefeller. Thank you, Senator Boxer.
    Mr. Ambassador, we are going to vote now and I would ask 
that the staff, perhaps Chairman Biden and staff, I think we 
have the proper number of votes to vote, but we have to get 
them here, so if that word could go out to the various offices 
now, I would just make one little personal comment in thanking 
you and excusing you, Mr. Ambassador.
    I spent some years in my home State of West Virginia having 
to explain the fact that I was born in a place and brought up 
in a place called New York City, and that was not easy. But 
where I was actually brought up was directly next to the United 
Nations, before it was built, and it was in fact two coal bins 
and a meat packing plant, and it was not pretty. But ships came 
down the East River, delivered the live animals and then 
trucks, hopefully refrigerated, departed the other side and 
delivered their product.
    And then land was donated, the United Nations was built, 
the world began to change, and it has been an extraordinary 
journey with the United Nations in terms of itself and also our 
own attitude about it as we have gone through various phases of 
anti-internationalism, et cetera, and that is a clear history.
    But to me the United Nations holds a very special place, 
not because of where I happen to have been born but because of 
its role and what it has done, what it has prevented from 
happening, what has happened that people don't know about 
perhaps, and its potential, even more so when you have a world 
now tied together by virtually a single economy, and now a 
world after these last 2 days, which is perhaps going to be 
more aware of their international mutual obligations or not, 
more than ever before.
    So I thank you very much for your patience. I apologize for 
not having been here in the morning, and I thank you very much 
for coming.
    The Chairman [presiding]. Let me on behalf of the committee 
also thank your children for being so patient. As I said to 
them at the break at lunch, you owe them. So you owe them 
something very good, right kids, you owe them something 
special.
    Senator Boxer. Tickets to ``The Producers.''
    The Chairman. Well, whatever it is, you owe them. So kids, 
I would think about what it is and you let us know before we 
vote whether your father agrees.
    And I personally will not--his record is exemplary, but I 
will take into consideration at least on myself whether or not 
he accedes to your request. Make it reasonable, but I would 
make the request.
    And Mrs. Negroponte, thank you very much for being here, 
and John, we are going to be calling you a lot. We had an 
incredibly, I think Senator Helms will agree, an incredibly 
productive relationship with your predecessor, I think that's a 
fair statement, don't you, Mr. Chairman? And we look forward to 
and expect the same thing, quite frankly, because your 
predecessor has been probably your single biggest booster, and 
I would hope you would emulate his willingness to be available 
to this committee.
    Ambassador Negroponte. I will do that, sir.
    The Chairman. Thank you, and thank you very much. I knew 
you were important when I saw you had Korologos with you.
    We will recess for 5 minutes until we gather the committee 
and then we will hopefully vote on the nomination.
    [Recess from 3:44 to 3:47 p.m.]
    The Chairman. The committee will come to order. I realize 
this is in one sense extraordinary to complete a hearing only 5 
minutes ago and move directly to a vote, but we have spent a 
great deal of time, all of us who are for and against, 
investigating the background of and the issues relating to 
Honduras for literally, although it has been not in one fell 
swoop, it has been over the last several months, and the need 
is extraordinary at this moment in our history to have someone 
at the United Nations.
    I am not suggesting that anyone who does not support the 
nominee and there are, there is at least one, is in any way 
doing anything other than what is fully within the person's 
rights. I am not suggesting because the need is great we should 
put someone there who is not qualified, but I for one think he 
is qualified.
    So unless there is further discussion, I would like to, 
Senator Helms, just move to call the roll.
    Senator Helms. OK.
    Senator Kerry. That is the best speech you ever gave.
    The Chairman. I would move----
    Senator Boxer. Mr. Chairman, may I just say, you 
characterized, you said there may be a vote or two against, 
because of qualifications. Might I suggest that is not a reason 
that anybody gave who expressed any reservation. 
Qualifications, experience, talent was not the reason.
    Senator Feingold. Let me agree with that as well.
    The Chairman. Well, I ask you to characterize it then.
    Senator Boxer. I already have. I said my disagreements came 
when it comes to the discussion of human rights in Honduras 
during the 1980's.
    Senator Biden. All right. Well then, there may be votes 
that are in opposition based on human rights during the 1980's 
in Honduras, and I did not mean in any way to try to 
mischaracterize anyone's position. I was making the point that 
any Senator is entitled to vote no if they feel this is not the 
appropriate person at this moment for this job, and that would 
be totally consistent with being a good Senator.
    Senator Helms. Did you want me to make a motion?
    The Chairman. Yes please, Mr. Chairman.
    Senator Helms. Mr. Chairman, noting the presence of a 
quorum, I move that the nominee be reported favorably to the 
full Senate.
    Senator Enzi. Second.
    The Chairman. The motion is made and seconded.
    Senator Feingold. Mr. Chairman.
    The Chairman. The Senator from Wisconsin.
    Senator Feingold. I would like the opportunity to put a 
statement in the record regarding my vote, which will be 
regrettably no. My concern does not have to do with philosophy 
or human rights per se, it has to do with the accuracy and full 
nature of the reporting with regard to the record when he was 
in Honduras, and that is different than a purely ideological 
position. I think it does relate to fitness for the position, 
does not relate to his overall qualifications, but as I have 
indicated, I am very eager to work with this very talented man. 
We do need somebody at the United Nations at this time and we 
will all come together as we are at this difficult time to work 
together, and I do look forward to working with him.
    [The statement referred to by Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    Today I cast a vote in opposition to the nomination of John 
Negroponte to be the Permanent Representative of the United States to 
the United Nations. I want to be clear about the reasons for my vote 
and for my reservations about this nominee.
    I do not question Ambassador Negroponte's competence or skill. He 
is clearly an exceedingly qualified diplomat, and he comes recommended 
by some of the most distinguished members of this Senate and figures 
within the foreign policy community. His willingness to serve his 
country, time and again, and in difficult circumstances, is laudable.
    I do question the veracity of the State Department's Human Rights 
Reports for Honduras during the period in which Ambassador Negroponte 
served as Ambassador in Tegucigalpa. Simply put, those reports misled 
the Congress, and I believe that the confirmation hearing record 
contains ample support for this assertion. While it is true that 
Ambassador Negroponte was only one of many people involved in their 
compilation, as the Chief of Station at the Embassy in question he had 
a responsibility for them. The Ambassador has not taken responsibility 
for the misrepresentations in those reports in a manner that assures me 
he understands the critical importance of being not just truthful, but 
forthcoming, with the Congress. This is not an ideological point. For 
this reason, and taking into account the limited amount of time in 
which the committee was able to reflect upon his confirmation hearing, 
I could not affirmatively approve this nominee.
    It appears that Ambassador Negroponte will indeed be confirmed by 
the Senate, and that he will be confirmed expeditiously in order to 
bring his formidable skills to bear on the urgent matters before our 
country in the wake of Tuesday's abhorrent terrorist acts. I fully 
expect that I will work cooperatively and collaboratively with him in 
the months and years ahead.

    The Chairman. Anyone else want a minute?
    Senator Kerry. Mr. Chairman, I would like to say that I 
respect enormously my two colleagues and their view on this, 
and I think it is important that they have examined, as we all 
have on this committee, that record. We draw different 
conclusions about whether or not the weight of that has an 
impact on which way it goes in terms of an impact on this 
particular vote or this particular job, and we have a right to 
do that. But I think it is important to respect what they are 
saying. I think we all share a concern for what happened in 
that period of time but we draw a different conclusion about 
how that affects this particular job, and I would simply like 
that to be part of the record.
    The Chairman. Well, speaking for myself, I do think that 
had the allegations proven to be true that he either did not 
allow full reporting, curtailed reporting of human rights 
abuses or knew of them and said nothing, then I would vote no. 
Having examined the evidence, I do not think from my 
perspective that case has been made and I am prepared to give 
the benefit of the doubt, and it is only a slight doubt in this 
case in my view, to a man whose career has been exemplary and 
whom I do think would make, will make an excellent Ambassador 
to the United Nations.
    And I would ask unanimous consent that any Senator who 
wishes to have a written explanation as to the reason for his 
or her vote, that the record remain open for 24 hours to be 
able to do that.
    Senator Boxer. Thank you.
    Senator Biden. With that, if there is no further 
discussion, I would ask the clerk to call the roll.
    The Clerk. Mr. Sarbanes?
    The Chairman. I have no proxy.
    The Clerk. Mr. Dodd?
    The Chairman. Again, I have no proxy.
    The Clerk. Mr. Kerry?
    Senator Kerry. Aye.
    The Clerk. Mr. Feingold?
    Senator Feingold. No.
    The Clerk. Mr. Wellstone?
    The Chairman. No, by proxy.
    The Clerk. Ms. Boxer?
    Senator Boxer. No.
    The Clerk. Mr. Torricelli?
    The Chairman. Aye, by proxy.
    The Clerk. Mr. Nelson?
    Senator Nelson. Aye.
    The Clerk. Mr. Rockefeller?
    Senator Rockefeller. Aye.
    The Clerk. Mr. Helms?
    Senator Helms. Aye.
    The Clerk. Mr. Lugar?
    Senator Lugar. Aye.
    The Clerk. Mr. Hagel?
    Senator Hagel. Aye.
    The Clerk. Mr. Smith?
    Senator Smith. Aye.
    The Clerk. Mr. Frist?
    Senator Frist. Aye.
    The Clerk. Mr. Chafee?
    Senator Chafee. Aye.
    The Clerk. Mr. Allen?
    Senator Helms. Aye, by proxy.
    The Clerk. Mr. Brownback?
    Senator Brownback. Aye.
    The Clerk, Mr. Enzi.
    Senator Enzi. Aye.
    The Clerk. Mr. Chairman?
    The Chairman. Aye.
    The vote is 14 to 3. The nomination is approved.
    Before we dismiss, we are having a hearing on four more 
nominees this afternoon which the President feels he needs very 
badly, all career people, but I think it is important we have 
the hearing, and I would raise the question--well actually what 
I am going to do is consult with the ranking member, with 
Senator Helms, but we should consider whether or not after the 
hearing we are prepared to discharge or whether we have an open 
vote again, after consultation with the chairman.
    They are the nominees for, Pat Kennedy, the U.N. 
Representative for Management and Budget Reform; Ron Neumann, 
the Ambassador to Bahrain; Marcelle Wahba, Ambassador to the 
United Arab Emirates; Laura Kennedy, Ambassador to 
Turkmenistan.
    These are all four career officers. The first two, Kennedy 
and Neumann, have been confirmed by the Senate previously.
    Now there was--I say to my Republican colleagues, there was 
a longer list that was requested. I made a judgment that they 
weren't as urgently needed in the sense of doing this on this 
incredibly expedited fashion here, No. 1. And No. 2, I promise 
you we will move on them quickly but we are not moving on them 
today. These were the four that seemed to be the most needed in 
the environment where the Secretary of State is trying to 
generate a consensus in the Middle East and get the U.N. going, 
as well as those whom we could scrub very quickly and move on 
very quickly and be consistent with our oversight 
responsibilities in the Senate.
    That is why these are the four. It does not mean that 
others that were requested that be moved essentially without a 
hearing are not going to be moved. I just state for the record, 
I do not think anyone can suggest we have not moved as rapidly 
as any committee ever as on moving the Presidential nominees, 
but I am not prepared to move anyone other than----
    Senator Boxer. Could we move those now?
    The Chairman. Well, I do not want to do that until we 
actually have their hearing. We are going to have their 
hearing, we are going to have a hearing in 5 minutes so that we 
can publicly scrub this.
    I realize it is a distinction, but it is a distinction with 
a difference rather than a distinction without a difference.
    Senator Wellstone. Mr. Chairman, could I ask unanimous 
consent of my colleagues that my vote on the Negroponte 
nomination be a present vote as opposed to by proxy?
    Senator Biden. Yes, without objection, that will be the 
case.
    So, we will report the Negroponte nomination to the floor 
forthwith, and we are adjourned until 5 o'clock in S-116 in the 
Capitol.
    [Whereupon, at 3:54 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair]
                              ----------                              


               Interrogatories Submitted by the Committee


 Responses of Ambassador John D. Negroponte to Questions Submitted by 
                             the Committee

    Question 1. How did you prepare for assuming your position as 
Ambassador to Honduras?

    Answer. Between September 11 and November 4, 1981, I had about 90 
different appointments with individuals throughout the executive branch 
and Congress who had.an interest in Honduras. This included visits to 
DOD/ISA, the JCS, DIA, AID, The Peace Corps, the CIA, Coast Guard, 1DB, 
World Bank, Eximbank, OPIC and NSC. I had numerous appointments within 
the Department of State up to and including the Deputy Secretary, who 
later swore me in to my position. also met with the Honduran 
Ambassador, representatives of AIFLD, former Ambassadors to Central 
America and a number of Senators, Congressmen and staff. The focus of 
my orientation was to make personal contact with as many individuals as 
possible who had an interest in Honduras prior to taking up my post.

    Question 2. Your predecessor, Ambassador Jack Binns, writes in The 
United States in Honduras 1980-1981 that the Embassy staff prepared a 
detailed briefing book for you prior to your arrival in Honduras, which 
included a section on the deteriorating human rights situation in 
Honduras.
    Did you review the briefing book? Was an assessment of the human 
rights situation included in that briefing book? What was that 
assessment? Were specific concerns raised about then-Colonel Gustavo 
Alvarez the Honduran CINC? What were the concerns? Did you share those 
concerns?
    Did you speak to Ambassador Binns? Did you review any of his cables 
related to Colonel Alvarez or the deteriorating human rights situation?

    Answer. I do not recall the briefing book, although it is entirely 
likely that such a book was prepared for my review. Nor do I recall 
reviewing any specific cables of Ambassador Binn's regarding Colonel 
Alvarez or the human rights situation. I recall speaking to Ambassador 
Binns once or twice by phone regarding the status of the agrement 
request for my appointment to the Honduran government.

    Question 3. What were your top priorities while serving as U.S. 
Ambassador to Honduras?

    Answer. My highest priority was encouraging Honduras' return to 
civilian democratic rule, including protection of human rights and 
advancement of the rule of law in that country. Next, was to promote 
the economic well-being and security of Honduras through the 
administration of various USG assistance programs; and, third, to play 
a supportive role as regarded USG regional objectives in Central 
America, as required by Washington and as called for by the situation.

    Question 4. Did you send ``back channel'' cables during your tenure 
as Ambassador to Honduras? Please describe how those cables were 
transmitted. Why did you utilize the ``back channel'' method of 
communications rather than other channels of communication? How 
frequently did you utilize this channel? What were the subject matters 
of such cables? Did any deal with human rights matters? How are records 
of back channel cables maintained by the State Department? How were 
such records maintained by the embassy? Why is it that none of the 
cables that have been provided to the Committee pursuant to its written 
request appear to be back channel cables?

    Answer. I did send back-channel messages during my tenure in 
Honduras and have previously shared such messages with the Committee, 
e.g. in 1989 inconnection with confirmation of my nomination to be 
Ambassador to Mexico. These messages were sent directly to intended 
recipients, rather than through a centralized distribution system. 
These messages were informal or personal in nature, similar to 
``official-informal'' messages used in ``front channel'' communications 
in the State Department. topics discussed in back channel messages 
ranged all the way from personnel matters to debates about Centra 
America policy or discussions of US military presence in Honduras. I 
did not receive or respond to instructions in back-channel message. I 
do not believe records were kept by the Embassy or the State Department 
of such messages, at least not for archival purposes. I kept a file of 
such messages that I had drafted or received myself. The reason that no 
such messages were provided to the Committee in response to its written 
request, especially paragraph #8, is that none of my back-channel 
messages dealt with the topics in question.

    Question 5. Did you maintain a ``chron'' file of memos, and/or 
cables you had drafted while you were Ambassador to Honduras? Did you 
have access to that chron file after your tenure as Ambassador to 
Honduras ended? Where is that chron file now? Did you keep a diary, 
notebook or other written record at anytime during your tenure as 
Ambassador?

    Answer. I maintained a ``chron file'' of cables I drafted while in 
Honduras. It also contained some other information. I did have access 
to that file right up until my retirement when I requested the State 
Department's Office of IRM Programs and Services to review this file 
for declassification. The file is currently located in the Office of 
IRM Programs and Services. Other than my calendar, which is already in 
possession of the Committee, I kept no diaries, notebooks or other 
written records.

    Question 6. What was the nature of your working relationship with 
intelligence agencies represented in the Embassy? How frequently did 
you meet with the Country Team and with the senior leadership of each 
Embassy element?

    Answer. I had a good working relationship with all elements of the 
Embassy. Usually, I would meet once a week with the Country Team and 
once a week with a smaller, more restricted group. I would meet with 
individual agency or

    Question 7. Did you regularly read intelligence reporting from 
Washington or from intelligence agencies represented in the Embassy? 
Did you ever comment on such reports?

    Answer. On a selective basis, I would read reporting from all 
agencies represented at the Embassy. It would be customary for an 
Ambassador to comment on other agency reporting on subjects that relate 
to the country in which they are serving, although almost twenty years 
later I cannot recall specific examples.

    Question 8. During your tenure in Honduras, what did you understand 
U.S. policy to be with regard to the promotion and protection of human 
rights? Was the effective implementation of the covert Contra program 
of higher priority with respect to U.S. policy? Was U.S. policy with 
respect to human rights in the Reagan Administration different than the 
previous administration in the case of Honduras?

    Answer. Our policy in Honduras was to promote the return to 
democracy, which entailed free elections, respect for human rights and 
restoration of the rule of law. Support for regional policies, 
including implementation of policies towards El Salvador and Nicaragua 
were important and had high visibility; but not at the expense of our 
support for the consolidation of Honduras' democracy. I do not believe 
the Reagan Administration's policy with respect to human rights in 
Honduras was significantly different from the previous administration.

    Question 9. What was your view, at the time, of the human rights 
record of the Government of Honduras during your tenure? Do you hold 
the same view today?

    Answer. The government of Honduras was in transition from military 
to civilian rule. Honduras successfully held presidential elections in 
1981 and mid-term congressional elections in 1983. As I was leaving 
Honduras in May 1985, a campaign was underway for another presidential 
election later that year. There was a functioning, free press and 
relatively strong labor movement. Given the turmoil and stresses in 
Central America during that period, Honduras' record in restoring 
democracy and creating a framework for the rule of law was a positive 
one. Having said that, during a period of increased and externally 
supported terrorism in the early 1980s there were apparent deficiencies 
in the Honduran legal system and administration of justice. This 
situation was compounded by the inadequate resources and insufficient 
professionalism of law enforcement authorities. This situation led at 
times to abuses of authority by Honduran police officials. But I did 
not believe then, nor do I believe now, that these abuses were part of 
a deliberate government policy.

    Question 10. What specific efforts did you undertake to promote 
human rights in Honduras? How frequently, and at what levels, did you 
communicate concerns about human rights with Honduran government 
officials? Did you raise specific cases with such officials, did you 
raise general policy concerns, or did you do both? Did you meet with 
representatives of non-governmental organizations working on human 
rights issues?

    Answer. Within months of my arrival in Honduras the Embassy 
undertook a review of the Honduran criminal justice system in light of 
the terrorist threat. In November of 1982 I specifically raised the 
issue of what we considered to be inadequate judicial procedures and 
human rights violations of suspected terrorists with President Suazo 
and General Alvarez, and proposed that they consider an action program 
to improve the judicial system. There were follow-up steps in 1983, 
which ultimately led to revision of the Honduran penal code and the 
establishment of a USAID-financed administration of justice program. In 
addition to the above-mentioned discussions, the telegraphic record 
shows that at one time or another I also discussed these issues with 
the Foreign Minister, the Minister of the Presidency and the President 
of the Supreme Court. In addition to general policy concerns, I at 
times raised specific cases, although on a day-to-day basis these were 
more likely to be raised by the political counselor or political 
officer following human rights issues. In another important human 
rights area, we worked closely with the international community to 
assist refugees who had fled warfare and repression from Nicaragua, El 
Salvador and Guatemala. At its peak, refugee presence in Honduras was 
about 80,000, which would be proportionately equivalent to almost 6 
million refugees in the US. I am sure I met occasionally with 
representatives of NGOs working on human rights issues, although I do 
not recall specific meetings, except in the refugee area. Embassy 
political officers would meet quite often with such representatives.

    Question 11. What was your role in reporting to Washington, via 
regular reporting channels, informal channels, and in the annual 
Country Reports on Human Rights Practices, On human rights developments 
in Honduras? You indicated in your July 26 written response to the 
Committee that there were 350 cables sent from the embassy that related 
to human rights during your tenure as Ambassador. To what degree were 
you personally involved in the drafting of, or approval of, specific 
cables related to human rights? Does this number include cables that 
would have been transmitted by back channel?

    Answer. My personal role in reporting on human rights in Honduras 
was not extensive. Reporting in this area was essentially the 
responsibility of the Embassy's Political Section. In regard to the 
annual draft human rights reports, I recall focussing on the 
introductory passages because of my interest in placing Honduras' human 
rights performance in an appropriate regional context. While I may 
occasionally have offered an editorial comment in regard to the body of 
these draft reports, I was not proactive in their preparation. I should 
add that I never suppressed or in any other way discouraged human 
rights reporting. As mentioned earlier, there was no back channel 
message on human rights.

    Question 12. Ambassador Binns has also written that, in June 1981, 
then Assistant Secretary of State for Inter-American Affairs Thomas 
Enders suggested that Binns restrict reporting of his concerns about 
the human rights situation to the back-channel.
    Was it U.S. policy during your tenure to limit the reporting and/or 
dissemination of information about Honduran human rights abuses? Were 
you instructed by the Secretary of State or other U.S. officials to 
limit such reporting and/or dissemination? Did you instruct officials 
or otherwise suggest to embassy staff that they limit reporting and/or 
dissemination of alleged human rights abuses? What were your 
instructions to the embassy staff on such reporting on human rights 
issues?

    Answer. Ambassador Enders never gave me any instruction similar to 
the one Ambassador Binns says he received in June 1981. Nor did I 
receive any instruction from Secretary Shultz or other USG officials to 
limit or otherwise restrict human rights reporting. Nor did I give such 
instructions to any one in the Embassy. My guidance to the DCM and the 
Embassy Political Counselor was to call things as they saw them. In one 
particular instance, the Olancho operation where allegations were based 
on very sensitive intelligence, dissemination was limited. But this was 
entirely consistent with the sensitivity of the intelligence and not in 
any was an unusual practice.

    Question 13. On November 2, 1983, Deputy Assistant Secretary of 
State Craig Johnstone wrote you a letter expressing his concerns about 
a cable he had read about the so-called Olancho massacre in which a 
number of leftist guerrillas were captured and executed by elements of 
the Honduran Armed Forces. Why did do you think that Mr. Johnstone 
wrote a letter to you rather than send his comments through normal 
State Department channels? How did you interpret his handwritten 
notation on the letter, ``John, use as you see fit. The problem is a 
real one.''

    Answer. I believe Mr. Johnstone wrote me a letter rather than a 
cable because the letter referred to a very restricted and sensitive 
report. Eighteen years after the fact, it is hard for me to interpret 
Mr. Johnstone's handwritten note; but I suspect it did not influence my 
course of action one way or another.

    Question 14. Did you discuss the cable to which Mr. Johnstone was 
referring with anyone in the Embassy before it was sent? With whom? 
Please describe. Did you discuss the cable and/or Mr. Johnstone's 
concerns about the matter with anyone in the Honduran government? With 
whom? Please describe.

    Answer. Although I do not recall the specific conversation, I could 
not possibly have written the response I wrote to Johnstone without 
receiving professional advice from within the Embassy as to the 
reliability of the sources. I did confront General Alvarez with the 
allegations contained in the cable in a meeting on November 15, 1983. 
He denied the allegations. An account of my meeting with General 
Alvarez is contained in my letter of November 18, 1983, to Mr. 
Johnstone.

    Question 15. Do you believe that General Alvarez or other senior 
Honduran government officials authorized or sanctioned illegal 
detentions, disappearances, torture or assassination of individuals who 
were suspected of subversion by the Honduran military?

    Answer. I believe the practice of detaining prisoners well beyond 
the 24-hour period constitutionally allowed for arraignment or the six-
day period allowed for a judge to decide on the appropriateness of 
continued detention was fairly widespread and acquiesced in at high 
levels in the Honduran military and judiciary, including General 
Alvarez. (This was noted in Embassy Tegucigalpa cable 8874 of August 
23, 1983, which has been provided to the Committee.) I do not believe 
disappearances, torture or assassination were a deliberate government 
policy. There were instances, however, where General Alvarez could 
reasonably have been suspected of acquiescing in a disappearance but I 
do not recall seeing any evidence to such effect.

    Question 16. Were you aware that Argentine military advisors were 
present in Honduras at any time during your tenure as Amnbassador? Do 
you know who requested such advisors? What did they do? Did the U.S. 
have any role in the decision by the Honduran government to utilize 
Argentine advisors? When did Honduras cease using Argentine advisors? 
Why? Do you know who paid for these advisors? Were U.S. funds involved?

    Answer. My understanding is that Argentine advisors were in 
Honduras prior to and early in my tenure in Honduras. They were there 
advising the incipient anti-Sandinista ``Contra'' forces. Once the 
United States assumed the funding for the ``Contras,'' the Argentine 
advisors were removed. I am not aware and am inclined to doubt that the 
U.S. either funded the Argentine advisors or recommended they be 
utilized by the Hondurans. Any decision regarding introduction of 
Argentine advisors would have been taken well before my arrival in 
Honduras.

    Question 17. Who were General Alvarez' most frequent contacts at 
the Embassy? You? The CIA? The Milgroup? Why was General Alvarez 
invited to visit Washington in 1982? With whom did he meet during his 
visit?

    Answer. General Alvarez had substantial contacts with the various 
elements of the Embassy concerned with military, law enforcement and 
regional security matters, as well as the ``contra'' program. He also 
had close relations with the U.S. Commander in Panama. I personally met 
with Alvarez on a periodic basis, quite often to bring Washington 
visitors from either the Executive or Legislative branches, but I was 
not his most frequent American interlocutor. Although I no longer 
recall the details, I am quite certain Alvarez was invited to 
Washington in 1982 to discuss Honduran defense needs as well as US/Honduran cooperation in confronting the Central America situation. I 
recall his having meetings at State, Defense, and CIA. I did not 
accompany him on his visit.

    Question 18. From what sources did you learn about cases of human 
rights violations in Honduras? Which staff in the Embassy reported 
human rights violations to you? How frequently were human rights cases, 
particularly disappearances, reported in the Honduran media during your 
tenure?

    Answer. While I recall learning about the human rights situation in 
Honduras from a variety of sources, the principal source would have 
been the political section of the Embassy. Reporting on alleged 
violations would have been the specific responsibility of the political 
officer charged with human rights reporting. Other sources of 
information on human rights in Honduras would have been the press, the 
families of victims, non-governmental groups, the Honduran government 
itself and only very occasionally, intelligence reports. While I do not 
recall the frequency of reporting on human rights abuses by the 
Honduran media, the press was free to report on such matters and did so 
with regularity.

    Question 19. The Country Reports on Human Rights Practices on 
Honduras during your tenure contains very little discussion of specific 
cases of human rights abuses. Why is that the case?

    Answer. The draft human rights report submissions from the Embassy 
followed the established pattern and format for such reports at that 
time. They tended to be fairly general, although significant 
developments or events were of course mentioned and they became 
somewhat more detailed later in my tenure. In the latter part of the 
1980's the methodology of the Department's reports was modified and 
considerably more detail was incorporated. Starting in 1987, published 
human rights reports for Honduras were more than twice as long as 
reports in the earlier part of the decade.

    Question 20. Did you ever raise the issue of the fate of Father 
James Carney with General Alvarez? Was this in writing or verbally? 
What was his response? Did you report to State, NSC or the CIA about 
such exchanges? Were you concerned about the Carney family's activities 
in Honduras? What was the nature of the your concerns? Cid you ever 
meet with the Carney family? If not, why not? Was General Alvarez 
concerned about the activities of the Carney family in Honduras? What 
were his concerns? Did he share such concerns with you? What was your 
response to his concerns?
    Answer. While I do not specifically recall raising the fate of 
Father Carney with General Alvarez, it is likely that I did, since 
Alvarez' letter to me of November 11, 1983, deals with his case. The 
Embassy reported fully to all concerned in Washington on whatever 
information we were able to develop on Father Carney's whereabouts. In 
fact, I specifically assigned responsibility for this case to our 
Consul General, Sarah Horsey, who spent literally weeks tracking down 
leads from whatever source. She interviewed some 20 surviving 
guerrillas from the Olancho incident. She made herself fully available 
to the Carney family and facilitated their travel to the jungle region 
where we presumed Father Carney to have perished. I do not recall 
having any concerns about the activities of the Carney family while 
they were in Honduras and I met with them for an hour on October 4, 
1983. If General Alvarez had any such concerns, I doubt they influenced 
or affected the professionalism with which I or our Consul General 
carried out our responsibilities.

    Question 21. Did you raise the issue of Father Carney with anyone 
else in the Honduran Government? Please describe the nature of those 
inquiries.

    Answer. Again, our Consul General was responsible for pursuing this 
issue with the Honduras government. I do not recall raising the matter 
personally with anyone else in the Government of Honduras. However, 
since we sent at least two diplomatic notes to the Foreign Ministry 
inquiring about Father Carney, the Government of Honduras cannot have 
been in any doubt as to our strong and continuing interest in his 
welfare and whereabouts.

    Question 22. You stated in a written response to the Committee 
dated July 26, 2001 (the amended response) that you became ``aware of 
the existence of the 316th (Battalion) as a military intelligence unit 
sometime in late 1984 or early 1985, although not by that name. I 
simply knew it as part of the Honduran military intelligence service . 
. .'' Press reports have indicated that the United States was 
responsible for establishing and training an intelligence unit within 
the Honduran military and thatt his unit came to be known as Battalion 
3-16. Were you aware of this effort during your tenure as Ambassador? 
Were you aware of any special units in FUSEP (or in the other branches 
of the military) which were known to be involved in human rights 
violations in Honduras? By what names did you know these units and what 
did you know about their activities?

    Answer. My understanding, based on information obtained after 
leaving Honduras, was that the 316th Military Intelligence Battalion 
was created in early 1984 as the nucleus of a Honduran military 
intelligence service. I believe that this was a Honduran initiative, 
although it received USG collaboration. I became aware in general terms 
of this collaborative effort in late 1984 or early 1985 and was given 
to understand that the focus of this unit's activity would be arms 
interdiction and border surveillance. I would note that Embassy 
reporting of all types contains no reference that I am aware of to 
human rights abuses by the 316th Battalion during the period of my 
1981-85 tenure. To the extent that abuses of authority occurred, I 
believed then (and still do now) that the principal perpetrators were 
the National Police (FUSEP) . Within the FUSEP there was a unit called 
the National Department of Investigations (DNI). Criticism of the 
Government human rights performance by the press and family members of 
alleged victims was usually directed at the FUSEP, although specific 
proof or credible evidence of violations was by its very nature 
difficult to obtain.

    Question 23. You stated during your nomination hearing in 1989 that 
you had never seen any convincing substantiation that they (Battalion 
3-16) were involved in ``death squad-type activities'' during your 
tenure as Ambassador. Is that still your belief? What is your 
definition of ``death squad type activities?'' Was there any evidence 
that such activities had been undertaken by any elements of the 
Honduran government or military, including the unit that has become 
that has come to be known as Battalion 3-16?

    Answer. I am not aware of substantiation from U.S. government 
sources that the 316 Battalion was involved in death squad activities. 
I base this on my reading of information provided to me since my 
departure from Honduras in 1985. Senator Dodd's question to me at my 
hearing in 1989 was whether the 316th Battalion was a ``death squad.'' 
My answer to that question would continue to be that it was not. As for 
the definition of ``death squad activities,'' I associate this term 
with the paramilitary or right wing units of the sort that operated in 
neighboring El Salvador at the time. Their activities were on a 
systematic scale vastly larger than anything that happened in Honduras. 
Having said that, I believe that the Honduran law enforcement officials 
did at times badly mistreat suspected terrorists and on a number of 
occasions may have killed them.

    Question 24. How many individuals were alleged to have 
``disappeared'' by Honduran human rights activists during your tenure 
as Ambassador? Do you believe such disappearances took place? When did 
most of those disappearances occur? Was it during the tenure of General 
Alvarez as CINC? Did allegations of human rights abuses diminish after 
General Alvarez was replaced as CINC?

    Answer. The annual Human Rights report for 1981 states that there 
were reports of as many as 60 mysterious disappearances during that 
year. The draft of this report was submitted to Washington prior to my 
arrival at post; and then Colonel Alvarez was not the CINC. The annual 
Human Rights report for 1982 states that there were allegations of 22 
such disappearances that year. The annual report for 1983 states that 
according to two NGO's some 10 persons seized in public during 1983 had 
not been released, turned over to courts, acknowledged to be in custody 
or found dead. General Alvarez was CINC during the entire years, 1982 
and 1983. The annual report for 1984, citing the Committee for the 
Defense of Human Rights, mentions 5 new cases of unexplained 
disappearances during the period January to March; when General Alvarez 
was still CINC. There were no allegations of disappearances for the 
remaining months of 1984, after Alvarez had been replaced. The annual 
report for 1985 states that no disappearances were documented in that 
year. According to local human rights organizations in 1985, 118 
disappearances in the decade 1974 to 1984 remained unexplained. I 
believed at the time that many, if not all, of these alleged 
disappearances had taken place; but that in the absence of solid 
information it was not easy to explain the circumstances of specific 
cases. In any event, based on contemporaneous information from human 
rights organizations, at least half of these cases would appear to have 
occurred prior to my arrival in Honduras.

    Question 25. In June 1995, the Baltimore Sun reported on 1988 
testimony by then-Deputy Director of the CIA Richard Stolz concerning 
CIA training of Honduran military personnel in interrogation 
techniques. Were you aware that such training was taking place while 
you were Ambassador? Were you briefed on the content of the training? 
Would U.S. trainers require country clearance before performing such 
training in country? Who granted country clearance for such trainers to 
be in Honduras for training purposes?

    Answer. I do not recall whether I was aware of the specific 
training referred to in the question; although I was, of course, aware 
in general terms of our cooperation in the intelligence area. Nor do I 
recall the details of country clearance for any such activities. 
Normally, the country clearance function would have been handled by the 
Deputy Chief of Mission.

    Question 26. What was your role in the day-to-day operations of the 
CIA-funded Contra program? Did you ever involve yourself in operational 
decisions concerning the program related to the training, equipping, or 
deploying Contra forces? Did you spend a great deal of time on Contra-
related matters, some time, or very little time? Did you oppose 
Congressional oversight visits to Contra camps in Honduras during your 
tenure as Ambassador? Why?

    Answer. As I said in my response to a question from Senator Pell in 
1989, I was not involved in the operational details of Contra 
activities and my contact with Contra leaders was strictly limited. For 
example, the first time I met a Contra leader after my arrival in 
Honduras in November 1981 was in March or April of 1983 in connection 
with a visit by members of the House Intelligence Committee. Thereafter 
I had a total of perhaps four meetings with Contra leaders in the 
remainder of my 3-year tour in Honduras. I would say I spent 5 percent 
of my time on Contra-related matters, at most. While I never explicitly 
opposed Congressional visits to Contra camps, I believed that visits 
from high-profile members of either the Legislative or Executive 
branches could undermine the supposedly covert nature of the Contra 
program. Also, there was always an element of danger in such visits. I 
personally never visited a Contra camp and politely discouraged others 
from doing so, unless there was a compelling need.

    Question 27. The number of individuals assigned to the embassy in 
Honduras grew substantially during your tenure. What was the high 
point? When? At the high point how many U.S. personnel assigned to the 
embassy (including the milgroup and intelligence agencies) were 
dedicated to overseeing or operating the Contra program?

    Answer. The number of authorized personnel at Embassy Tegucigalpa 
in 1982 was 105 Americans and 115 national employees. In 1985 these 
numbers were 179 and 211 persons respectively. In each instance these 
figures refer to employees of eight different U. S. government 
departments and agencies. In addition, in 1985, these were 250 Peace 
Corps volunteers compared to 200 in 1982 (the largest program in Latin 
America); and approximately 1,200 U.S. military personnel on TDY in 
Honduras, not counting those on exercises. I do not have a further 
breakdown by agency or department; but I believe the largest personnel 
increases at the Embassy during my tenure were attributable to the 
growth in our economic and military assistance programs.

    Question 28. How did the work of the Kissinger Commission relate to 
your tenure as Ambassador in Honduras? Do you believe that reports of 
significant human rights abuses by the Honduran military would have 
affected the conclusions and recommendations of the Commission as it 
related to Honduras?

    Answer. The Embassy cooperated fully with the Kissinger Commission 
and welcomed a Commission delegation to Honduras in 1983. Although I no 
longer recall the details, I know we did our best to give the 
Commission a comprehensive assessment of the situation confronted by 
Honduras at the time. We also exposed the delegation to a wide spectrum 
of Hondurans in a very short period of time. I believe the Commission 
made its recommendation on the basis of a realistic picture of the 
Honduran situation. I do recall that they seemed very pleased by their 
visit.

    Question 29. Were you concerned that reports of significant human 
rights abuses in Honduras would have adversely affected U.S. 
Congressional support for continued economic and military assistance 
for Honduras?

    Answer. No.

    Question 30. What steps have you taken to review your record in 
Honduras in order to prepare for your confirmation hearings for the 
post to which you have been nominated? You indicated, in reply to an 
earlier written question, that you were interviewed by the staff of the 
Senate Select Committee on Intelligence in January 1989. What was the 
subject of the interview? Have you reviewed the memorandum of record 
summarizing the interview? Does the memorandum accurately reflect your 
recollections of the interview? Have you reviewed the 1997 CIA IG 
Report entitled ``Selected Issues Relating to CIA Activities in 
Honduras in the 1980s?'' Do you have any comments on the accuracy of 
that report?

    Answer. I have read telegrams and other reports from the period; I 
have reviewed the CIA Working Group and IG Reports; and I have spoken 
to a number of individuals who served contemporaneously in Honduras or 
Central America, including three former Ambassadors to El Salvador. I 
have reviewed the January 12, 1989, Memorandum for the Record of my 
interview with SSCI Staff, although I was not permitted to keep a copy. 
I believe the memo is accurate in parts but in other parts I believe 
the drafting either generalized or was too simplistic and categorical 
in characterizing my responses. My recollection of the interview was 
that it related specifically to the June 5, 1988, New York Times 
piece--by James Le Moyne and the case of Inez Murillo. Many of the 
comments attributed to me by the memo make much more sense in the 
context of responses about one case, rather than about the human rights 
situation in general. In that sense, I do not believe my meeting with 
SSCI staff is fairly recorded by the 1989 memo and I would add that I 
was not given an opportunity to review it at the time.
    I have reviewed the CIA IG Report entitled ``Selected Issues 
Relating to CIA Activities in Honduras in the 1980's'' dated August 27, 
1997. Whether inadvertent or not, the report is grossly unfair to me. 
First, it was selectively declassified in 1998 without my receiving any 
prior notification; and yet I am the only U.S. government official 
identified by name in the publicly released version. Secondly, the 
conclusion in paragraph 364 (p.126) that reporting on human rights 
violations by the Honduran military from a particular source was 
actively discouraged because of concerns I had expressed is absolutely 
false. The Committee has received a letter from the responsible action 
officer at the Embassy at the time stressing that he had no 
recollection of ever discussing the 1983 draft report in question with 
me; that he was not aware of any instance in which I sought to suppress 
or otherwise restrain reporting on the human rights situation in 
Honduras; and that decisions in regard to such reports were made on the 
merits and not extraneous political considerations. I also thought it 
was unusual that in its conclusions on p. 126, the IG chose not to 
mention at all the many questions that had been raised about the 
reliability of the report in question and its source by the Defense 
Attache and DIA analysts, among others. The conclusions also made no 
mention of comments reported in earlier paragraphs by three individuals 
who had worked directly for me in Honduras to the effect that I never 
made any efforts to stifle human rights reporting. So, in addition to 
being unfair and misleading, I believe the IG conclusion leaves almost 
the opposite impression of what my actual attitude and practice was.

    Question 31. Have you ever met Dr. Leo Valladares Lanza, National 
Commissioner for Human Rights in Honduras? What is your view of his 
work as commissioner for human rights?

    Answer. I believe I met Dr. Valladares when he was an advisor to 
the Honduran Foreign Ministry. I did not know him as National 
Commissioner for Human Rights and have no opinion on his work in that 
area. Dr. Valladares is highly regarded by Mr. Theodore Wilkinson who 
was Political Counsleor at the Embassy in Tegucigalpa towards the end 
of my tenure in Honduras.

    Question 32. What is your opinion of the Inter-American Court of 
Human Rights? Are you aware that in September 1987 it had tried three 
cases of disappearances that had occurred in Honduras during 1981-1984? 
Are you aware that in 1988 the Court found in the case of Velasquez 
Rodriguez that the government of Honduras had violated its obligations 
under the American Convention on Human Rights? Are you aware that the 
Court also concluded in that case that 100-150 persons disappeared in 
Honduras from 1981-1984; that those disappearances followed a similar 
pattern involving kidnapping in broad daylight; that it was well known 
in Honduras that such kidnappings were carried out by the military, the 
police, or their agents; and that these disappearances were carried out 
in a systematic manner? When did you learn of the actions by the Court? 
Do you have any opinion about the Court's verdict and conclusions with 
respect to the Government of Honduras?

    Answer. While I may have been generally aware of the legal action 
underway against Honduras in the Inter-American Court of Human Rights 
in the late 1980's, I was not versed in the details. I would note that 
the Court did find against Honduras in two of the three cases. Of these 
two, one concerned an incident that had occurred before my arrival in 
Honduras; the other while I was, in Honduras. As regards 
disappearances, I believe my answer to #24 is responsive.

                           service in mexico
    Question 33. Were you aware during your tenure as Ambassador to 
Mexico of any allegations of that members of the Salinas family were 
involved in illegal activities including money laundering or illicit 
narcotics trafficking? If so, when?

    Answer. No.

    Question 34. Were you aware of the existence of a relationship 
between the Salinas family and the late Carlos Hank Gonzalez (CHG) and 
other members of the Hank family? What was the nature of that 
relationship?

    Answer. Mr. Hank was a two-time member of Salinas' cabinet. That is 
the only relationship I was aware of.

    Question 35. Were there credible allegations during your tenure as 
Ambassador to Mexico concerning the Hank family's alleged connections 
to the Mexican narcotics trade? When did you first become aware of 
these allegations? What steps did you take when this information became 
known to you?

    Answer. No.

    Question 36. Did you ever discuss Carlos Hank Gonzalez and family 
with U.S. law enforcement or intelligence officials assigned to the 
embassy? What was the substance of those discussions? Did you ever 
discuss issues related to Carlos Hank Gonzalez and family with U. S. 
officials in Washington (State, Justice, CIA, FBI, DEA)? Please 
describe the substance of those discussions.

    Answer. Not that I recall.

    Question 37. How many times did you meet with Carlos Hank Gonzalez? 
How many times were you a guest at Carlos Hank Gonzalez's house or on 
his yacht? How many times have you met with Carlos Hank Gonzalez's son, 
Carlos Hank Rhon?

    Answer. My calendars show that I met Professor Hank on August 8, 
1989, when he was Secretary of Tourism; and then as Secretary of 
Agriculture on the following dates: 1/17/90, 1/29/90, 12/20/91, 6/19/92, and 11/10/92. I cannot locate my calendar for 1993; but know that I 
saw him at least once in 1993 when Secretary of Agriculture Espy 
visited Mexico. I only saw Professor Hank in an otficial capacity, 
principally in connection with the agriculture provisions of NAFTA. I 
was never a guest at his home or on his yacht. I believe I met his son 
Carlos Hank Rhon once in Tijuana when I was visiting our Consulate 
General there. I had no dealings of substance with Mr. Hank Rhon.

    Question 38. Have you ever had any business relationships with the 
Salinas or Hank families, or any of the companies they control? Please 
describe.

    Answer. No.

                                   - 

</pre></body></html>
